<html>
<title> - SUCCESSES AND CHALLENGES FOR U.S. POLICY TO HAITI</title>
<body><pre>[Senate Hearing 108-208]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-208
 
            SUCCESSES AND CHALLENGES FOR U.S. POLICY TO HAITI

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 15, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate






                      U.S. GOVERNMENT PRINTING OFFICE

90-723                        WASHINGTON : 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     3
Coleman, Hon. Norm, U.S. Senator from Minnesota, prepared 
  statement......................................................    20
Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    70
Farmer, Dr. Paul, founding director, Partners In Health; co-
  director, Program in Infectious Disease and Social Change, 
  Department of Social Medicine, Harvard Medical School, 
  Cambridge, MA; chief, Division of Social Medicine and Health 
  Inequalities, Brigham and Women's Hospital, Boston, MA.........    29
    Prepared statement...........................................    32
    ``Unjust Embargo of Aid to Haiti,'' article reprinted from 
      The Lancet, Feb. 1, 2003...................................    41
    Responses to additional questions for the record from Senator 
      Biden......................................................    82
Forester, Steven David, Esq., senior policy advocate, Haitian 
  Women of Miami, Miami, FL......................................    45
    Prepared statement...........................................    47
    Responses to additional questions for the record from Senator 
      Biden......................................................    83
    Responses to additional questions for the record from Senator 
      Feingold...................................................    85
Grossman, Hon. Marc, Under Secretary of State for Political 
  Affairs, Department of State, Washington, DC...................     4
    Prepared statement...........................................     7
    Responses to additional questions for the record from Senator 
      Biden......................................................    76
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     2
Moise, Dr. Rudolph, president and CEO, Haitian Broadcasting 
  Network, Miami, FL.............................................    56
    Prepared statement...........................................    58
Nelson, Hon. Bill, U.S. Senator from Florida, letter from the 
  Congressional Black Caucus, July 14, 2003, to Senators Lugar 
  and Biden, submitted for the record............................    68
Taylor, Hon. John B., Under Secretary of the Treasury for 
  International Affairs, Department of the Treasury, Washington, 
  DC.............................................................     9
    Prepared statement...........................................    11
    Responses to additional questions for the record from Senator 
      Biden......................................................    81

                                 (iii)

  


         THE SUCCESSES AND CHALLENGES FOR U.S. POLICY TO HAITI

                              ----------                              


                         TUESDAY, JULY 15, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Richard Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Chafee, Brownback, Coleman, Dodd, 
and Bill Nelson.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Today, the committee meets to examine the United States 
policy toward Haiti. We are pleased to have two impressive 
panels to discuss this issue. On the first is Under Secretary 
of State for Political Affairs, Marc Grossman, and Under 
Secretary of the Treasury for International Affairs, John 
Taylor, who represent the administration.
    On our second panel we will hear from Dr. Paul Farmer, 
founding director of Partners In Health, co-founder of the 
Program in Infectious Disease and Social Change of the Harvard 
Medical School, and chief, Division of Social Medicine and 
Health Inequalities; Mr. Steven Forester, the senior policy 
advocate for Haitian Women of Miami; and Dr. Rudolph Moise, 
president and CEO of the Haitian Broadcasting Network based in 
Miami, Florida. We welcome our witnesses and look forward to 
their testimony.
    In recent months, this committee has examined the problem 
of failed States and the risk they pose to the United States' 
national security. We have held hearings on Afghanistan and 
post-conflict Iraq that underscored how these nations could 
become incubators of terrorism if reconstruction efforts do not 
succeed. We also know that failed States can have negative 
consequences for international security beyond any direct links 
to terrorism. As we have observed in Somalia, Bosnia, Rwanda, 
and Sierra Leone, failed States usually lead to violence, 
humanitarian crises, immigration and refugee flows, and illicit 
economic activity.
    In our own hemisphere, Haiti stands out as a continuing 
tragedy. Its prospects for advancement have been marred by 
depredations of authoritarian rule, interspersed with periods 
of chronic political instability and violence.
    Haiti is the poorest country in the hemisphere, with an 
annual per capita income of only $225. According to World Bank 
statistics, life expectancy in Haiti was just 52.4 years and 
dropping. The Haitian political system has proved incapable of 
dealing with problems that deepen poverty, such as the spread 
of AIDS, severe environmental degradation, and illiteracy. 
Haiti's ongoing political crisis has debilitated the State, 
undermined respect for human rights, and exacerbated an already 
worrisome humanitarian situation.
    For two centuries, the American and Haitian peoples have 
had a close relationship. In contemporary times, this 
relationship has been driven by the hundreds of thousands of 
Haitians living and working in the United States. Haitian 
Americans are making vital contributions to our society and to 
our economy. Each year, Haitians living in the United States 
send more than $700 million back to their home country, an 
amount that equals an estimated 20 percent of Haiti's gross 
domestic product.
    Although Haiti is a small nation, its troubles have 
consequences for the United States. Corruption, drug 
trafficking, and illegal migration are areas of deep concern 
for our two countries. Mass migration has the potential to 
create instability in the region and undermine efforts to 
improve border control.
    The people of Haiti have suffered long, and their chances 
for improved conditions are slim as long as Haiti's protracted 
political crisis continues. The current political crisis began 
with flawed legislative elections in May 2000, where the 
results of seven Senate contests were decided under 
questionable circumstances. Subsequent Presidential elections 
in November 2000 were boycotted by the opposition.
    The international community, led by the United States, has 
designed a guide for Haiti to resolve the latest political 
crisis. That guide is contained in OAS Resolution 822, which 
lays out specific steps the government of Haiti and other 
political actors must take to fulfill the promise of true 
democracy in Haiti.
    This hearing is intended to give the committee an 
opportunity to examine in depth ways that the U.S. Congress and 
our government can contribute to positive changes in Haiti. 
Among other issues, I look forward to insights into the current 
Haitian political crisis, United States humanitarian aid to 
Haiti, the role of the OAS and the international financial 
institutions in Haiti, and how we can deter illegal immigration 
while being humane and fair.
    The consequences of failing in Haiti are potentially 
severe. We must work with our neighbors to prevent a further 
slide to social and political disintegration in Haiti. I look 
forward to examining these issues with our witnesses and with 
the members of this committee.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    Today, the Foreign Relations Committee meets to examine U.S. policy 
toward Haiti. We are pleased to have two impressive panels to discuss 
this issue. Under Secretary of State for Political Affairs, Marc 
Grossman, and Under Secretary of the Treasury for International 
Affairs, John Taylor, will represent the administration. On our second 
panel we will hear from Dr. Paul Farmer, co-founder of the Program in 
Infectious Disease and Social Change at the Harvard Medical School; Mr. 
Steven Forester, the senior policy advocate for Haitian Women of Miami; 
and Dr. Rudolph Moise, president and CEO of the Haitian Broadcasting 
Network based in Miami. We welcome our witnesses and look forward to 
their testimony.
    In recent months, this committee has examined the problem of failed 
States and the risks they pose to U.S. national security. We have held 
hearings on Afghanistan and post-conflict Iraq that underscored how 
these nations could become incubators of terrorism if reconstruction 
efforts do not succeed. We also know that failed States can have 
negative consequences for international security beyond any direct 
links to terrorism. As we have seen in Somalia, Bosnia, Rwanda, and 
Sierra Leone, failed States usually lead to violence, humanitarian 
crises, immigration and refugee flows, and illicit economic activity.
    In our own hemisphere, Haiti stands out as a continuing tragedy. 
Its prospects for advancement have been marred by the depredations of 
authoritarian rule, interspersed with periods of chronic political 
instability and violence. Haiti is the poorest country in the 
hemisphere with an annual per capita income of only $225. According to 
World Bank statistics, life expectancy in Haiti in 2001 was just 52.4 
years and dropping. The Haitian political system has proved incapable 
of dealing with problems that deepen poverty, such as the spread of 
AIDS, severe environmental degradation, and illiteracy. Haiti's on-
going political crisis has debilitated the State, undermined respect 
for human rights, and exacerbated an already worrisome humanitarian 
situation.
    For two centuries the American and Haitian peoples have had a close 
relationship. In contemporary times this relationship has been driven 
by the hundreds of thousands of Haitians living and working in the 
United States. Haitian-Americans are making vital contributions to our 
society and economy. Each year, Haitians living in the United States 
send more than $700 million back to their home country, an amount that 
equals an estimated 20 percent of Haiti's gross domestic product.
    Although Haiti is a small nation, its troubles have consequences 
for the United States. Corruption, drug trafficking, and illegal 
migration are areas of deep concern for our two countries. Mass 
migration has the potential to create instability in the region and 
undermine efforts to improve border control.
    The people of Haiti have suffered long, and their chances for 
improved conditions are slim as long as Haiti's protracted political 
crisis continues. The current political crisis began with flawed 
legislative elections in May 2000, where the results of seven Senate 
contests were decided under questionable circumstances. Subsequent 
Presidential elections in November 2000 were boycotted by the 
opposition.
    The international community, led by the United States, has designed 
a guide for Haiti to resolve the latest political crisis. That guide is 
contained in OAS Resolution 822, which lays out specific steps the 
Government of Haiti and other political actors must take to fulfill the 
promise of true democracy in Haiti.
    This hearing is intended to give the committee an opportunity to 
examine in depth ways that the U.S. Congress and our government can 
contribute to positive change in Haiti. Among other issues, I look 
forward to insights into the current Haitian political crisis, U.S. 
humanitarian aid to Haiti, the role of the OAS and International 
Financial Institutions in Haiti, and how we can deter illegal 
migration, while being humane and fair.
    The consequences of failing in Haiti are potentially severe. We 
must work with our neighbors to prevent a further slide to social and 
political disintegration in Haiti. I look forward to examining this 
issue with our witnesses and the members of this committee.

    The Chairman. When Senator Biden comes to the hearing, of 
course, he will be recognized for an opening statement, if he 
wishes to give one at that point. But at this stage, I would 
like to welcome our first panel.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I commend you for convening this hearing on Haiti. I 
also want to acknowledge the longstanding focus of Senator Dodd on 
Haiti, who has been working to address the political, economic, and 
social situation in that country for many years.
    It is important that we are holding this hearing, and even more 
critical that we take action on these issues. Haiti is in bad shape. 
Unemployment and poverty have worsened in recent years. Eighty percent 
of Haitians are unemployed, and less than half the population has 
access to potable water. The average per capita income is $250 per 
year--less than one-tenth of the average in Latin America.
    Furthermore, Haiti is being devastated by HIV/AIDS. The United 
Nations Joint Programme on HIV/AIDS cites that Haiti accounts for 90 
percent of the HIV/AIDS infections in the Caribbean--with prevalence 
reaching up to 10 percent of the Haitian population in urban areas.
    The Bush Administration and Congress recently committed to fighting 
global HIV/AIDS, and Haiti is a country that is designated to receive 
significant attention and support under this initiative.
    I am interested in hearing recommendations from our witnesses as to 
how we can effectively fight HIV/AIDS, and the many other health 
crises--such as tuberculosis, malnutrition, and high infant and 
maternal mortality rates--that Haitians are suffering.
    I am concerned that even given the economic and health calamities 
in Haiti, relations with multilateral lending institutions have not 
normalized and the United States continues to withhold direct aid to 
Haiti until President Aristide acts on a series of political, judicial 
and economic reforms--several of which require financial resources to 
implement.
    I agree that President Aristide needs to undertake significant 
reforms. But as we continue to withhold funds, while pushing for 
reforms, the Haitian people continue to suffer. We need to find a way 
to get out from under this apparent impasse. The Haitian people can't 
wait any longer.
    I am encouraged by the administration's recent decision to increase 
food assistance to Haiti by $6 million this year, bringing the total to 
$69.8 million. I applaud this decision--but an increase in food aid is 
only a small part of the work that needs to be done.
    We need a comprehensive and sustainable approach to resolving 
Haiti's political and economic crises. I understand that last week 
there was some movement on this issue of the Inter-American Development 
Bank releasing the $146 million dollars in development loans that have 
been approved for Haiti when Haiti paid $32 million in arrears to the 
bank. That's good news--but the development loans are not flowing yet. 
We have to make sure that the funds are disbursed.
    In short, we need an effective policy toward Haiti. The 
administration does not appear to have such a policy. I hope this 
hearing will help bring increased attention and focus on this 
beleaguered country, and bring us closer to that objective.

    The Chairman. Our witnesses on the first panel are the 
Honorable Marc Grossman, Under Secretary for Political Affairs, 
Department of State; and the Honorable John B. Taylor, Under 
Secretary, International Affairs, Department of the Treasury.
    Gentlemen, would you please give your testimony in that 
order? Your full statements will be made part of the record. 
Please proceed as you wish.

 STATEMENT OF HON. MARC GROSSMAN, UNDER SECRETARY OF STATE FOR 
     POLITICAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Grossman. Mr. Chairman, thank you very much. On behalf 
of Under Secretary Taylor, we are both delighted to be here. 
Senator Coleman, we are delighted to be part of this hearing. 
We are thankful for this opportunity to appear before the 
committee to talk about the administration's policies in Haiti.
    May I just say, Mr. Chairman, on behalf of both of us, we 
think this ought to be the beginning of a conversation, since, 
as you have said, this is going to be a continuing matter of 
interest for the Congress, for the Senate, and for the 
administration, as well. So we look forward to more of this 
interaction with the Senate.
    As I said, Mr. Chairman, while much energy has been spent 
since September 11, 2001 focused on the war on terror, focused 
on looking at failed States, we have remained deeply engaged as 
an administration in the hemisphere. Since September 11, 
President Bush has made five trips to the region, has received 
nine leaders from the region, and the Secretary of State, as 
you know, sir, has also been very active, having taken 10 trips 
to the region.
    I also want to take a minute to thank the committee, and if 
I could, the Senate as a whole, for acting promptly on the 
nomination of Ambassador-designate James B. Foley to Haiti. The 
committee also moved expeditiously on the nomination of 
Ambassador Roger Noriega as the Assistant Secretary for Western 
Hemisphere Affairs, and we look forward to working with the 
Senate to complete the confirmation process.
    Mr. Chairman, as you said, the United States of America is 
connected to Haiti by geography, by history, and by values. As 
you also pointed out, hundreds of thousands of Haitians live 
and work in the United States, making a vital, as you said, 
contribution to our economy and to our society. Next year, 
Haiti will celebrate the bicentennial of its independence, 
reminding us all that Haiti was the second republic to be 
formed in the hemisphere.
    As you have asked in your opening statement, Mr. Chairman, 
we have some questions, too: What will it take to help Haiti 
become a peaceful, democratic country that respects human 
rights and the rule of law? How can the United States support 
Haiti in building an economy with opportunities for its people 
to lift themselves out of poverty, out of illiteracy, and 
hunger? How can we help settle the political crisis that you 
referred to that was made so much worse by the flawed election 
of 2002? How can we safeguard our own national security from 
the dangers posed by illegal migration and narcotics 
trafficking?
    As you all have discussed on a number of occasions, these 
challenges are severe. Success with them will require 
engagement, consistent policies, and clear priorities. If I 
might, Mr. Chairman, just talk about four priority areas for 
the administration's Haiti policy today.
    First, as you said in your opening statement, we support 
the full implementation of OAS Resolution 822. Our support for 
that has included a $2.5 million financial contribution to the 
OAS Special Mission to Strengthen Democracy in Haiti.
    We should all remember that the Government of Haiti joined 
consensus at the OAS on Resolution 822, and therefore committed 
itself to a series of actions that would promote a climate of 
security and confidence for free and fair elections to be held 
in 2003. Although the Government of Haiti has taken some steps, 
we believe it has not complied with many of the most important 
commitments that it made under Resolution 822, particularly 
those that would contribute to a climate of security.
    So together with the Organization of American States, the 
United States has repeatedly and consistently urged the 
government of Haiti to meet the commitments of Resolution 822. 
Our efforts have included participation by President Bush's 
Special Envoy for Western Hemisphere Affairs, Otto Reich, in 
the High-Level Delegation to Haiti, a joint OAS-CARICOM 
delegation that went to Haiti in March.
    It is also important to note, as that delegation did, that 
we remind the opposition and civil society that they also must 
participate in forming a credible, neutral, and independent 
provisional electoral council once the government of Haiti 
takes concrete steps in good faith toward meeting its 
commitments.
    But I think all of us can sense--and we certainly sense 
from reading the report of the OAS Special Mission--that 
hemispheric patience is running out. OAS Resolution 1959, which 
was adopted by the OAS General Assembly in June, calls for the 
Secretary General to provide an assessment by September of the 
ability of the OAS Special Mission to fulfill its mandates 
under what they call ``the circumstances of delay and 
resistance.''
    So we will continue to consult with you, with our European 
partners, and our partners in the hemisphere; but I bring to 
your attention, as I know that you have seen Secretary Powell's 
statement in Santiago, we have called for a reevaluation of the 
OAS role in Haiti if by September the Government of Haiti has 
not created the climate of security essential to the formation 
of a credible, neutral, and independent provisional electoral 
council.
    Second, a key part of our policy, we are focused on the 
plight of the Haitian people and maintaining assistance 
programs to meet their humanitarian needs. As my colleague, 
John Taylor, will testify, the realization of full normal 
relations with the international financial institutions took a 
big step forward when Haiti, on July 8, paid its arrears to the 
Inter-American Development Bank.
    The United States remains the largest donor to Haiti. Our 
aid is distributed through U.S.-based and Haitian-based 
nongovernmental organizations, and it supports programs in food 
assistance, health, democracy, education, economic growth, and, 
very importantly, HIV/AIDS, which--I have a report from 
Ambassador Curran this morning--has really sparked interest 
among the Haitian people.
    I have some examples, Mr. Chairman, in my prepared 
statement which I hope I can submit for the record. But this 
aid works. Let me give a couple of useful examples.
    Our economic growth programs in 2003 focused on credit for 
microbusinesses and marketing help for small farmers, and have 
supported thousands of Haitians and their families. Our health 
programs support over 30 local health organizations that serve 
an estimated 2.5 million Haitians.
    Interestingly, in those areas where these organizations are 
at work, child immunization is up and malnutrition is down. 
Obviously, the first two of these priorities are connected, 
because our assistance won't work unless there is a political 
solution; so a key element for progress on the AIDS side is 
obviously for the Haitian authorities and people to act to 
embrace the need for good government and inclusive competitive 
markets.
    Third, Mr. Chairman, a key priority that you mentioned in 
your opening statement is the question of the flow of narcotics 
through Haiti to the United States.
    Sadly, narcotics-related corruption is pervasive in the 
Haitian National Police, and our efforts to combat that 
corruption center now on visa revocations and pressure on the 
highest level of the government of Haiti to remove corrupt 
officers. We believe this has raised the level of awareness in 
the government about the importance of this issue to us.
    As you know, Haiti was decertified in 2002 because it 
failed to adhere to international narcotics agreements and to 
take counternarcotics measures required by U.S. law.
    As you also know, President Bush granted a national 
interest waiver of sanctions which, if not imposed, would have 
required withholding important types of United States 
assistance. We believe it is important to continue to work with 
those elements in the Haitian National Police, most notably the 
Coast Guard, that we can rely on. The Drug Enforcement 
Administration continues to focus on this area with some 
positive results, but more work needs to be done.
    Fourth, Mr. Chairman, the other item that you mentioned, 
illegal migration, is an important U.S. security concern. We 
want to deter illegal migration while treating migrants in a 
fair and humane fashion. We support legal migration from Haiti. 
In fact, about 15,000 immigrant visas are issued to Haitians 
every year. But, as you said, illegal migration from Haiti is a 
very sensitive challenge for us, and does respond to changes or 
perceptions of changes in U.S. policies regarding repatriation 
and parole into the community pending resolution of asylum 
claims.
    Mr. Chairman, thank you very much for the chance to be at 
this hearing. I look forward to your questions, and I hope that 
these four priority areas, as supplemented by Under Secretary 
Taylor's testimony, will give you a view of what the United 
States is doing in this important but troubled country.
    The Chairman. Thank you very much, Secretary Grossman.
    [The prepared statement of Under Secretary Grossman 
follows:]

Prepared Statement of Hon. Marc Grossman, Under Secretary of State for 
                 Political Affairs, Department of State

    Mr. Chairman, I thank you and other members of the committee for 
this opportunity to appear before you and testify about the 
Administration's policies in Haiti.
    While much energy since September 11, 2001 has focused on the war 
against terror, we have remained deeply engaged in the Hemisphere. 
Since September 11, President Bush has made six trips to the region. 
The President has received in Washington nine leaders from the region. 
The Secretary of State has also been active, making 10 trips to the 
Hemisphere.
    I want also to thank the committee, and the Senate as a whole, for 
acting promptly on the nomination of Ambassador-designate James B. 
Foley to Haiti. The committee also moved expeditiously on the 
nomination of Ambassador Roger Noriega as Assistant Secretary for 
Western Hemisphere Affairs. We look forward to working with the Senate 
to complete his confirmation process.
    The United States is connected to Haiti by geography, history, and 
values. Hundreds of thousands of Haitians live and work in the United 
States, making important contributions to our economy and society. Next 
year, Haiti will celebrate the bicentennial of its independence--an 
historic event reminding us that Haiti was the second republic to be 
formed in the Hemisphere.
    What will it take to help Haiti become a peaceful democratic 
country that respects human rights and the rule of law? How can the 
United States support Haiti in building an economy with opportunities 
for its people to lift themselves out of poverty, illiteracy, and 
hunger? How can we help settle the political crisis made worse by the 
flawed elections in 2002? And how can we safeguard our own national 
security from the dangers posed by illegal migration and narcotics 
trafficking?
    These are difficult challenges. Success will require engagement, 
consistent policies and clear priorities.
    Here are four key parts of the Administration's Haiti policy:
    First, we support full implementation of OAS Resolution 822. Our 
support has included a $2.5 million financial contribution to the OAS 
Special Mission to Strengthen Democracy in Haiti.
    The Government of Haiti joined consensus on Resolution 822; it 
committed itself to a series of actions that would promote a climate of 
security and confidence for free and fair elections to be held in 2003.
    Although the GOH has taken some steps, it has not complied with 
many of its most important commitments under Resolution 822, 
particularly those that would contribute to a climate of security.
    Together with the OAS, the U.S. has repeatedly and consistently 
urged the Government of Haiti to meet its commitments under Resolution 
822. Our efforts have included participation by Presidential Special 
Envoy for Western Hemisphere Affairs in the High-Level OAS/CARICOM 
delegation to Haiti in March.
    We also remind the opposition and civil society that they must 
participate in forming a credible, neutral, and independent Provisional 
Electoral Council once the Government takes concrete steps in good 
faith toward meeting its commitments.
    Hemispheric patience is running out. OAS Resolution 1959, adopted 
by the OAS General Assembly in June, calls for the Secretary General to 
provide an assessment by September of the ability of the OAS Special 
Mission to fulfill its mandates under the circumstances of delay and 
resistance.
    We will continue to consult with our partners in the hemisphere and 
in Europe regarding next steps in Haiti. Secretary Powell, speaking in 
Santiago, called for a reevaluation of the OAS role in Haiti if by 
September the Government of Haiti has not created the climate of 
security essential to the formation of a credible, neutral, and 
independent Provisional Electoral Council.
    Second, we are focussed on the plight of the Haitian people and 
maintaining assistance programs to meet humanitarian needs. As my 
colleague Treasury Under Secretary John Taylor will testify, the 
realization of full normal relations with the IFIs took a big step 
forward when Haiti on July 8 paid its arrears to the Inter-American 
Development Bank;

  <bullet> The U.S. remains Haiti's largest bilateral donor. Our aid, 
        distributed through U.S.-based and Haitian non-governmental 
        organizations, supports programs in food assistance, health 
        (including substantial programming to stem HIV/AIDS), 
        democracy, education, and economic growth.

  <bullet> For example, economic growth programs--totaling $7.8 million 
        in FY 2003 and focusing on credit for micro-businesses and 
        marketing help for small farmers and artisans--have provided 
        support for thousands of Haitians and their families. And a 
        network of over 30 local health organizations serves an 
        estimated 2.5 million Haitians. In those areas where these 
        organizations work, child immunization is up and malnutrition 
        down. On family planning and HIV/AIDS, U.S. aid programs have 
        increased prenatal consultations and use of contraceptives.

  <bullet> Our aid programs can help, but as with the political 
        situation, the key element for progress is the willingness of 
        the Haitian authorities and people to act, and to embrace the 
        need for good governance and inclusive, competitive markets.

    Third, we must stem the flow of narcotics through Haiti to the U.S.

  <bullet> Sadly, narcotics-related corruption is pervasive in the 
        Haitian National Police.

  <bullet> Our efforts to combat corruption center on visa revocations 
        and pressure on the highest levels of the Government of Haiti 
        to remove corrupt officers. These steps have certainly raised 
        awareness in the Government about the importance of this issue 
        to us.

  <bullet> Haiti was decertified in 2002 because it failed to adhere to 
        international narcotics agreements and to take counter-
        narcotics measures required by U.S. law. President Bush granted 
        a national interest waiver of sanctions, which if imposed would 
        have required withholding of certain types of U.S. assistance.

  <bullet> It is important that we continue to work with those elements 
        in the Haitian National Police, most notably the Haitian Coast 
        Guard, that we can rely on. The Drug Enforcement Agency has 
        mounted joint operations with its Haitian counterparts with 
        some positive results, but others have been compromised by 
        corrupt officials.

    Fourth, illegal migration is an important U.S. security concern. We 
want to deter illegal migration while treating migrants in a fair and 
humane fashion. And we support legal migration from Haiti: 
approximately 15,000 immigrant visas are issued to Haitians every year.

  <bullet> Illegal migration from Haiti is very sensitive to changes or 
        perception of changes in U.S. policies regarding repatriation 
        and parole into the community pending resolution of asylum 
        claims.

  <bullet> For example, in November 1991, a month after the coup that 
        removed President Aristide from power, Haitians took to the 
        seas in an effort to reach the U.S. U.S. policy at the time was 
        not clearly established--most were taken to Guantanamo Bay for 
        asylum processing but about one-third were paroled into the 
        U.S. The result was a wave of Haitian migrants, nearly 38,000 
        from the end of 1991 to June 1992.

  <bullet> After the first President Bush ordered the direct 
        repatriation of boat migrants, almost all of whom were found to 
        be intending economic migrants, not political refugees, the 
        number dropped to 2,404.

  <bullet> We support Department of Homeland Security policies designed 
        to deter illegal migration from Haiti by promptly repatriating 
        migrants interdicted at sea who have no legitimate fear of 
        persecution and by detaining those who are successful in 
        reaching the U.S. while their claims are processed.

  <bullet> The Department of Homeland Security interviews all migrants, 
        whether interdicted at sea or detained in the U.S., who 
        establish a credible fear of persecution, to determine whether 
        or not they have a well-founded fear of persecution.

  <bullet> People detained in the U.S. who meet the well-founded fear 
        threshold are granted asylum here; those who are interdicted at 
        sea and are found to require protection are resettled in third 
        countries.

  <bullet> These policies have been successful in deterring migrant 
        flows, which have leveled off to approximately 1,300 to 1,400 
        per year over the past three years while providing protection 
        to those who need it.

    Thank you again, Mr. Chairman, for including me in today's hearing. 
I will be happy to respond to any questions you or other members of the 
committee may have.

    The Chairman. Under Secretary Taylor.

   STATEMENT OF HON. JOHN B. TAYLOR, UNDER SECRETARY OF THE 
 TREASURY, INTERNATIONAL AFFAIRS, DEPARTMENT OF THE TREASURY, 
                         WASHINGTON, DC

    Mr. Taylor. Thank you very much, Mr. Chairman and other 
members of the committee. Thank you for inviting Under 
Secretary Grossman and myself to testify on developments in 
Haiti and humanitarian needs for that country.
    As you indicated in your opening remarks, Mr. Chairman, the 
people of Haiti are deeply impoverished. Per capita income is 
only one-fifth the average of Latin America and the Caribbean, 
one-fifth the average of an area which is well below the United 
States already. Per capita income is 40 percent less than the 
second poorest country in our hemisphere, Nicaragua; 40 percent 
less than Nicaragua.
    The people of Haiti have been impoverished for a long time. 
Per capita incomes have been declining for the last 40 years, 
where they have been rising through most of the world. Infant 
mortality, about 8 percent; illiteracy, 50 percent; clean water 
access, only 54 percent.
    Years of economic mismanagement, political instability, and 
weak rule of law have produced this tragedy. Fiscal policy 
mistakes, monetary policy mistakes, have created uncertainty 
and high inflation rates. Poor infrastructure and corruption 
have created poor investments. The most basic needs--education 
health, security--have not been met.
    Were it not for this instability, I think it is clear that 
the Haitian people would have been able to raise their living 
standards significantly. Indeed, Haitians outside of Haiti--
Haitians in the United States--have done just that. They have 
still sent back remittances to their families and relatives 
back in Haiti equal to a fourth of Haiti's GDP, a tremendous 
amount of support.
    Foreign aid alone could not overcome these obstacles. The 
policies in Haiti must change. A poor policy environment has 
undermined the effectiveness of foreign aid in Haiti for a 
number of years. Just last year, the World Bank analyzed its 
own activities in Haiti in the 1990s. It concluded these 
activities had a negligible impact. To take one example, a $50 
million project designed to provide regular road maintenance 
did not achieve its aims. In fact, funds were wasted and 
diverted elsewhere.
    We must commit ourselves, therefore, to avoiding such 
mistakes. We need to focus our economic development assistance 
in places where the policies are good so they can help the 
people raise their living standards. That is the concept behind 
President Bush's Millennium Challenge Account.
    Now, we have been working and talking with the people from 
the Government of Haiti quite a bit in the last year. We have 
had many meetings with officials from the Finance Ministry. I 
am happy to report that the Government of Haiti has recently 
taken some strong steps to rein in the fiscal deficit, restrain 
some of the inflationary financing, and eliminate wasteful 
subsidies.
    We welcome these important actions. The Government of Haiti 
is cutting its fiscal deficit and money growth by about a half 
right now as we speak. The Finance Ministry is going to be 
given more control over the execution of the budget. There will 
be a consolidation of separate ministerial accounts. There will 
be external audits of public enterprises.
    These pledges helped launch a 1-year International Monetary 
Fund [IMF] program in the last few months. With this IMF 
program in place, we are also pleased to announce, as Marc 
Grossman just indicated, that last week Haiti cleared the 
arrears of $32 million to the Inter-American Development Bank 
[IDB]. The IDB can now move forward on a number of projects. It 
can discuss future lending with the Government of Haiti. Next 
week we expect that the IDB will approve a $50 million loan, 
and disburse $35 million of that loan right away.
    The IDB can also begin disbursing on $146 million of 
previously approved project loans for education, for health, 
for water and sanitation, and for road maintenance.
    With substantially better policies in Haiti, we believe 
that Haiti could tap other development assistance from the 
international financial institutions. Right now, Haiti's 3-year 
IDA allocation from the World Bank is only $6 million, $6 
million over 3 years; but with improvements in Haiti's policy 
performance, that allocation could rise significantly. It could 
expand. That in itself would help Haiti clear arrears and 
actually use those funds from the World Bank for economic 
development.
    Haiti is not now eligible for President Bush's grants 
initiative from the World Bank, except possibly in the HIV/
AIDS-related projects. We are going to work hard with the 
international community to make sure a substantial portion of 
Haiti's assistance from the World Bank and the IDB in the 
future will be provided in the form of grants.
    I think it is good news that the Haitian Government has 
taken positive first steps in improving its economic policies; 
but, clearly, fundamental challenges remain. The Government of 
Haiti must now take steps needed to lay the foundations for a 
more sustained growth, growth in the private sector, which is 
going to be the only way to improve living standards for 
people. The United States is committed to helping people of 
Haiti in this effort.
    At the same time--and let me underline what Under Secretary 
Grossman has said--the United States is continuing to provide 
substantial humanitarian support for the Haitian people. The 
United States has delivered more than $120 million in 
humanitarian assistance over the last 2 years. Haiti is now 
eligible for assistance to fight HIV/AIDS, malaria, and 
tuberculosis under President Bush's emergency initiative.
    Mr. Chairman, let me conclude my opening remarks and ask 
that my written remarks be put in the record, and say that I am 
quite willing to answer any questions you may have. Thank you.
    [The prepared statement of Under Secretary Taylor follows:]

   Prepared Statement of Hon. John B. Taylor, Under Secretary of the 
     Treasury for International Affairs, Department of the Treasury

    Chairman Lugar, Ranking Member Biden, and other members of the 
Committee, thank you for inviting me to discuss the Administration's 
efforts to promote economic development in Haiti and to help address 
the most critical humanitarian needs of the Haitian people.
                    the economic situation in haiti
    The people of Haiti are impoverished. Per capita GDP in Haiti is 1/
5th the average for the Latin America and Caribbean region as a whole 
and 40% lower than the second poorest country in the hemisphere, 
Nicaragua. Haiti has been poor for many years. Real per capita income 
in Haiti has actually fallen over the past four decades. Other 
indicators tell a similar story. Infant mortality stands at 79 per 
1,000 live births. Illiteracy is near 50 percent. And 54 percent of 
Haiti's population lacks access to clean water. These facts explain why 
Haiti was ranked 150th out of 175 countries on the UNDP's Human 
Development Index in 2002.
    Years of economic mismanagement, political instability, and weak 
rule of law have produced this tragedy. Fiscal and monetary policy 
mistakes have fed economic uncertainty and produced high inflation. 
These macroeconomic factors combined with poor infrastructure, 
irregular supplies of electricity, corruption, and customs delays to 
create a poor investment climate. The most basic needs of the Haitian 
people in the areas of education, health, and personal security have 
not been met. Were it not for the violence and instability that have 
characterized life in Haiti, the Haitian people would have been able to 
apply their energies to successfully build a better future for 
themselves and their children. Indeed, Haitians outside of Haiti have 
done just that, sending back remittances to relatives that total as 
much as 1/4th of Haiti's GDP per year.
    As experience all over the world has shown, chronic, unsustainable 
public deficits, misallocation of public resources, corruption, and 
instability strangle growth and increase poverty. Aid cannot overcome 
these obstacles. The Haitian government must be accountable for its 
performance. In the absence of good policies, development assistance 
does not improve the lives of the poor.
    In fact, a poor policy environment has undermined the effectiveness 
of World Bank assistance in Haiti. In 2002, the World Bank's Operations 
Evaluation Department analyzed the World Bank's activities in Haiti in 
the mid-1990s. It concluded that these projects had a negligible impact 
on improving the lives of Haitians. To take one example, a $50 million 
Road Maintenance and Rehabilitation Project--designed to address the 
urgent lack of regular road maintenance in Haiti--suffered from waste 
and diversion of funds to other projects. Even the improvement of roads 
that did take place under the project was judged unlikely to be 
sustainable, due to the lack of institutional reform at the public 
works ministry and failure to establish a fund for regular repairs.
    We must commit ourselves to avoiding the mistakes of the past. We 
need to deliver our humanitarian assistance so that the people of Haiti 
actually benefit from that assistance. And we need to focus our 
economic development assistance so that it can help the Haitian people 
raise their living standards and achieve the benefits of long-term 
economic growth.
    This Administration seeks to help countries pursue policies that 
create the conditions for increased economic growth, higher living 
standards, and lower poverty. This is the concept behind President 
Bush's Millennium Challenge Account (MCA). MCA assistance is designed 
to reward those countries that are ruling justly, investing in people, 
and promoting economic freedom.
    The Government of Haiti has recently taken strong steps to reign in 
the fiscal deficit, restrict monetary financing of the government, and 
eliminate wasteful subsidies. The United States welcomes these 
important actions. At the same time, Haiti has a long way to go in 
creating an environment conducive to investment, entrepreneurial 
activity, and growth of the private sector.
    Establishing greater political stability, improving governance and 
reducing corruption are central to this effort. Improved governance has 
political, legal, and administrative dimensions, which others have 
noted today. Rule of law is also critical if people are to put their 
capital at risk. Haiti needs to take steps to establish the integrity 
of the police and the judicial system for matters both criminal and 
civil. On the administrative side, improving governance entails steps 
to make the government bureaucracy more effective and responsive in 
meeting the needs of the public, whether in the area of education, 
health, or other basic services. A key part of this is implementing 
better and more transparent tracking of government spending, to ensure 
that public resources are used for their intended purposes.
    Outside donors can provide assistance in strengthening governance 
in Haiti. For example, the international financial institutions are 
encouraging Haiti to undertake audits of public enterprises so that the 
managers are accountable for the resources under their control and the 
resources are used in ways that serve public not personal interests.
    Progress on these critical issues will not only create a foundation 
for the revitalization of economic activity in Haiti, it will also help 
attract foreign investment. Foreign direct investment fell from $30 
million in 1999 to about $5 million in 2002. The United States is 
committed to helping the Haitian government put in place a framework 
that will allow the country to promote the private investment needed to 
raise living standards.
                            recent progress
    I am pleased to report that progress has been made recently. The 
Government of Haiti has taken important actions to strengthen public 
finances and create conditions for greater macroeconomic stability.
    The Haitian government amended the draft budget for FY2002/03 to 
cut the fiscal deficit by half, limiting central bank financing of the 
government. Broad money growth is targeted to decelerate to 10% during 
the period April-September 2003, down from 26% from October 2002-March 
2003. This helped launch a one-year Staff Monitored Program (SMP) with 
the IMF that outlines a framework to help stabilize Haiti's economy, 
increase accountability and improve economic governance.
    The Haitian government has also committed to steps to give the 
finance minister more control over budget execution, so that he can 
implement the budget as passed by the legislature and reduce 
corruption. The plan envisages the consolidation of separate 
ministerial accounts, which have undermined spending control. 
Furthermore, the Haitian government has agreed to conduct external 
audits of the five major public enterprises during the next year, to 
ensure that resources within these public concerns are being used 
appropriately.
    The Staff Monitored Program gives Haiti an opportunity to 
demonstrate its ability to implement economic policies designed to 
promote macroeconomic stability. Finance Minister Faubert Gustave has 
stressed the importance of the program for improving economic policy 
and budgetary control in Haiti. We very much want the IMF and 
multilateral development banks to support those in Haiti who are 
working to strengthen its institutions.
    To this end, we are pleased that Haiti took a crucial step forward 
last week when it cleared arrears of $32 million to the IDB. With 
arrears to the IDB cleared, the IDB can now move forward with a number 
of projects already in train, and can reengage with Haiti to discuss 
future lending. The IDB is strongly committed to working with Haiti and 
in late July will send a staff team to remain in Haiti as long as 
needed to outline a transitional lending program.
    Next week we expect that the IDB will approve a $50 million 
Investment Sector Loan and disburse the first portion of that loan in 
the amount of $35 million, which the Haitian government will use to 
repay the loan provided by the central bank to clear IDB arrears. We 
also expect the IDB to begin disbursing in subsequent weeks on $146 
million in previously approved project loans for basic education, 
reform of the national health system, rehabilitation and maintenance of 
roads, and investments in water and sanitation systems. These funds 
would go directly to suppliers and would disburse over time as progress 
is made under each project.
    With substantially better policy performance and financial 
accountability, Haiti could tap into other development assistance as 
well. Policy performance and governance are rightly key determinants of 
the allocation of World Bank IDA resources, the World Bank's window for 
the poorest countries. The World Bank role in Haiti has been sharply 
constrained by persistent expenditure monitoring and control problems. 
The World Bank has not been able to ensure that project assistance and 
budget assistance will be used for their intended purposes. Haiti's 
three-year IDA allocation is only $6 million. With major improvements 
in Haiti's policy performance, Haiti's IDA allocation could expand 
considerably and enable Haiti to more easily clear its arrears to the 
World Bank.
    Haiti is not now eligible for the President's grants initiative in 
IDA-13, except possibly for HIV/AIDS-related projects. We will work 
with the international community for a substantial portion of Haiti's 
assistance from the World Bank and IDB to be provided in the form of 
grants in the future.
    One final point must be made in connection with assistance to Haiti 
from the IMF and multilateral development banks. It stems from 
legislation passed in 2000 related to trafficking in persons. Haiti's 
failure to take sufficient action to address trafficking in persons has 
placed it in the Tier Three category for which sanctions apply. The 
United States has urged Haiti to make a more concerted effort in this 
area, but barring progress by Haiti before October 1 or a presidential 
waiver, the U.S. Executive Directors would be required to vote ``no'' 
and use their best efforts to deny lending or other assistance to Haiti 
by the international financial institutions. In the case of the IDB, a 
``no'' vote from the United States would block assistance to Haiti.
    The Haitian government has taken positive first steps in improving 
its economic policies. Fundamental challenges remain. The Government of 
Haiti must now take the steps needed to lay the foundations for 
sustained economic growth and improved living standards for its people. 
Consistent with OAS Resolution 822, U.S. policy does not link economic 
and financial support for Haiti from the international financial 
institutions to resolution of Haiti's political issues. Rather, our 
objective is to encourage the Haitian government to take the economic 
policy actions needed to form the basis for effective engagement by the 
international financial institutions in support of economic development 
in Haiti. The United States is committed to helping Haiti in this 
effort.
                 u.s. humanitarian assistance to haiti
    At the same time, the United States has continued to provide 
substantial humanitarian support to the Haitian people in recent years 
through periods of political turbulence. Working through non-
governmental organizations in order to avoid misuse of funds, the 
United States has delivered more than $120 million in humanitarian 
assistance over the last two years and remains Haiti's largest donor. 
The United States has provided more than $900 million in assistance 
since fiscal year 1995. Between fiscal years 1995 and 2001, the U.S. 
provided 28 percent of total external assistance to Haiti, more than 
three times the second-largest bilateral contribution from Canada.
    U.S. humanitarian assistance efforts are geared toward alleviating 
the dire conditions experienced by the Haitian people. In the past year 
the United States delivered more than $3 million in emergency 
assistance to respond to communities affected by droughts and flooding. 
U.S.-backed health projects provide maternal and child health services, 
child immunizations, and assistance in the prevention of HIV/AIDS, 
including expansion of a voluntary counseling and testing network to 
prevent mother-to-child transmission of HIV. The U.S.-supported network 
reaches approximately 2.7 million Haitians.
    Haiti is one of two Caribbean countries eligible for assistance to 
fight HIV/AIDS, malaria, and tuberculosis under the President's 
Emergency Initiative, as embodied in the recently passed HIV/AIDS 
authorization legislation--this assistance will supplement the funds 
provided to Haiti from the Global Fund to Fight AIDS, Tuberculosis & 
Malaria.
                               next steps
    The United States will continue to work closely with Haiti and 
other key players to help the Government of Haiti lay the basis for 
economic growth and poverty reduction. Agreement on an IMF Staff 
Monitored Program and the expected resumption of IDB assistance signal 
progress in breaking the logjam in relations with the international 
financial institutions created by Haiti's overdue payments. With 
arrears cleared at the IDB, concrete backing for development efforts 
can now move forward.
    We will work hard with Haiti's government to maintain this positive 
momentum. The pace of re-engagement with the international financial 
institutions is largely in the Haitian government's hands. For our 
part, we will work to ensure that the international community provides 
maximum incentives for rapid policy progress in Haiti.

    The Chairman. Thank you very much.
    As I mentioned earlier, the full statements for Secretary 
Grossman and Secretary Taylor will be made part of the record.
    I would like to note that we have several Senators present 
for the testimony and the question period today, so we will 
start with a 5-minute period, and another round will proceed 
after that.
    Let me begin by noting that you have given four foreign 
policy objectives for the United States, Secretary Grossman, 
two of which are democracy and humanitarian needs, but then you 
have noted the unfortunate flow of narcotics and illegal 
immigration.
    How severe is the narcotics problem? We have come into this 
frequently in Plan Colombia with a discussion of the Andean 
region, but what role does Haiti play in the narcotics 
situation?
    Mr. Grossman. Mr. Chairman, we estimate that about 9 
percent of the total cocaine flowing into the United States 
comes through Haiti.
    The Chairman. Nine percent?
    Mr. Grossman. Nine percent. It is a substantial problem. 
Haiti is mostly a transit point from places that grow and 
process the cocaine. It comes to Haiti in fast boats and is 
then transferred on the island. It comes into the United States 
perhaps on freighters, on other go fast boats, and on aircraft. 
So that is why the DEA has focused so hard on trying to assist 
the Haitian Coast Guard.
    The Chairman. How does the illegal immigration come about? 
How do illegal immigrants come to the United States from Haiti?
    Mr. Grossman. There are two parts of this, I think, that 
are very important. First, as I said in my testimony, the 
perception of United States policy on immigration and what we 
are doing with those people who come to the United States 
illegally is very important to defining for Haitians what it is 
they decide to do.
    The vast majority of people try to come by water and are 
interdicted mostly by the United States Coast Guard and the 
United States Navy. We have done a review over the years of the 
spikes in this number. It is always interesting, to me, anyway, 
that the spikes come when there is a confusion about what the 
policy is in the United States.
    For example, in 1991, a month after the coup that removed 
President Aristide from power, Haitians, if you remember, took 
to the sea in large numbers. The result was a wave of migrants, 
over 38,000 from the end of 1991 to June 1992. Then, when the 
first President Bush was clear about issues of repatriation, 
that number went back down.
    So that is why, Senator, that we are supporters of the 
policy that the Department of Homeland Security pursues, which 
is to interdict people, to deter illegal migration from Haiti 
by repatriating migrants interdicted at sea who have no 
legitimate fear of persecution, and by detaining those 
successful in reaching the United States while their claims are 
processed.
    I think the Department of Homeland Security does a very 
good, credible job in trying to find out who has a legitimate 
claim here, trying to make the right decisions. But it is clear 
that our objective is to hold people from Haiti and send people 
back.
    I would say one other thing. Our embassy in Haiti has done 
an excellent job in getting the word out through the radio and 
through fliers and other means of communication to the Haitian 
people about what our policies are.
    The Chairman. Presently, 15,000 visas are given to Haitians 
each year. Is that the----
    Mr. Grossman. Immigrant visas, yes, sir. As I said in my 
testimony, we support legal immigration. We give about 15,000 
immigrant visas each year.
    The Chairman. What is your estimate of how many illegal 
immigrants now from Haiti live in the United States?
    Mr. Grossman. Illegal? I don't know. I would have to come 
back to you, sir. I know that the interdictions over the past 
few years are in the 1,300 and 1,400 range for 2001 and 2002, 
and thus far in 2003 the number is about 1,854. But I owe you 
an answer on the number living in the United States.
    [The following information was subsequently supplied.]

    The Department of Homeland Security (DHS) reports that there are 
approximately 23,000 Haitians at large in the United States under final 
orders for deportation, and an additional 21,000 who are in the 
deportation pipeline. Most of these are immigration violators, but 
about 1,000 have other criminal convictions.
    DHS does not have an estimate of how many Haitian nationals may 
reside illegally in the United States.

    The Chairman. I raise the question because clearly the 
number of legal immigrants from other countries is very 
substantial, and currently there are a large number of people 
from Mexico, for example, in our country illegally who do not 
have the problem, I suspect, of coming by sea; they come often 
by land, across the river. In any event, this is a sizable 
phenomenon in most States, not only those that border upon 
Mexico or southern States that would be most likely.
    I noted that in my own statement about $700 million is 
being remitted by Haitians to Haiti, which is one-fifth of the 
entire economy. Obviously, the compelling economic need of many 
cases to get to the United States is there. I presume to remit 
money to support their families is a substantial item that may 
impel some of this immigration.
    What is your own analysis of that problem, the economy and 
the economic effects of the remittances?
    Mr. Grossman. That is absolutely right. All of the analysis 
that has been done shows that in these interviews that the 
Department of Homeland Security does, by far the overwhelming 
reason for people to risk this journey is to do better for 
themselves and to do better for their families.
    The Chairman. Thank you. I will call now upon Senator 
Nelson from Florida.
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Chairman, I had requested that you have this hearing. I 
want to thank you personally for it. The subject matter is not 
only important to the United States, but it is particularly 
important to my State, because often when things go bad in 
Haiti, there is the tendency of the outmigration that often 
ends up in Florida. So thank you, Mr. Chairman, for calling 
this hearing.
    With regard to the migration, I want to tell you an 
experience I had last year. Senator Graham and I persuaded the 
head of the Immigration Service to come down because we wanted 
him to see what we consider a double standard in the way that 
we treat immigrants.
    We had, in this particular case, a group of 50 Haitian 
women that had been detained, at that particular time, about 8 
months. They were detained in a maximum security prison which 
was contracted by the Immigration Service.
    After having gone and visited there with the head of INS, 
what was curious was that we saw there were other women in this 
maximum security facility--which, by the way, has been taken 
care of, and the detainees are put in much more appropriate 
circumstances and settings now--but what was curious to me was 
that there were other women of other nationalities in there; 
but when I inquired as to how long each of them had been there, 
the Haitian women had been there 8 months, the Chinese women 
had been there 2 weeks, and the other women of other 
nationalities had been there in a matter of weeks.
    Could you explain the administration's position to the 
committee, as we do our oversight of the executive branch, as 
to why this double standard exists with regard to detaining 
Haitians?
    Mr. Grossman. Senator Nelson, failure on my part--which I 
will readily admit--I certainly can explain to you the double 
standard, or as you might consider it, the different standard 
between Haitians and Cubans. Where it comes to Chinese or 
others, I apologize to you, I cannot do that. I will certainly 
submit an answer for the record.
    [The following information was subsequently supplied.]

    We do not believe that there is a double standard. All intending 
illegal migrants apprehended in U.S. territory, except for Cubans 
because of their unique circumstances, are placed in removal 
proceedings. They may be detained during their legal process at the 
discretion of the Department of Homeland Security's Bureau of 
Immigration and Customs Enforcement (BICE) and the Department of 
Justice.
    In expedited removal proceedings, under U.S. law, even if an 
individual establishes a credible fear of persecution, the Attorney 
General and BICE retain the authority to detain individuals without 
bond while their asylum hearings and any appeals take place. 
Individuals may be released for humanitarian reasons at the discretion 
of BICE.
    Decisions on the terms and conditions of detention of illegal 
migrants in the United States are made by the Departments of Homeland 
Security and Justice; however, the Department of State supports 
policies that reinforce the foreign policy objective of deterring 
illegal migration.
    Lengths of stay in detention may vary for reasons unrelated to 
nationality. The Department of Homeland Security maintains statistics 
on foreign nationals pending deportation/removal, but does not keep 
separate statistics for those who are boat migrants, illegal entrants 
by air, and legal residents subject to removal based on a felony 
conviction. In the case of Haiti, DHS reports that the proportion of 
Haitian detainees who are legal immigrants having committed crimes in 
the United States is substantial. These individuals tend to fight their 
removal through legal appeals, and this raises average lengths of 
detention.

    Senator Nelson. Let's talk about that. Clearly, the United 
States has an interest in protecting its borders. If we think 
that someone is going to get out and become an illegal 
immigrant, we have a right--indeed, a duty--to protect our 
population and protect our borders.
    In practice, what happens is that the other nationalities 
are released into the custody of families, when in practice 
Haitians are not. I would like you to discuss that?
    Mr. Grossman. Yes, sir. I think, from my perspective, the 
answer to that question is--as I tried to answer Senator 
Lugar's point--a question of perception. It is the question 
that what we do in the United States to people who come to the 
United States illegally, interdicted at sea, is reflected back 
into Haiti. I would speculate that we don't have the same 
problem with China, we do not have the same problem perhaps 
with other countries.
    Again, if you look at the numbers, in 1991, in 1992, in 
1994, where the perception of people in Haiti was that they 
would quickly and easily come into the United States, the 
numbers went way up for people who tried to get in. So it is 
the decision of the administration, it is the decision of the 
Department of Homeland Security--which we support--to pursue 
the policy that you described so the vast majority of the 
people from Haiti recognize that if they come to the United 
States, if they are interdicted at sea, if they do not have a 
well-founded claim to persecution, then they will be returned 
to Haiti. The reason for that, Senator, is to keep people in 
Haiti.
    Senator Nelson. That was what was articulated at the time. 
I will say it in my own words, and you tell me if this is the 
policy of the administration: the policy of the administration 
is that, by detaining the Haitian immigrants, not releasing 
them to the custody of their families, it would send a signal 
to those who wanted to leave Haiti, and therefore deter them 
from leaving Haiti to try to come to the United States 
illegally.
    Mr. Grossman. Yes, sir.
    Senator Nelson. Is that the policy of the administration?
    Mr. Grossman. Yes, sir.
    Senator Nelson. Mr. Chairman, I am just getting on a roll, 
so I will come back in another round.
    The Chairman. Pursue it if you wish, if you are in the 
midst of a question there, for a moment, at least.
    Senator Nelson. Thank you, Mr. Chairman.
    Well, I think if you examine the treatment between other 
nationalities and Haitians, there is a distinct difference. 
Now, let me ask you, if that is the policy of the 
administration, has it worked?
    Mr. Grossman. I believe it has. If I might just--so I get 
the statistics right--refer to some documents here.
    The three spikes in illegal seaborne immigration from Haiti 
to the United States, as I said to you, sir--in 1991, 1992, 
1994, the number of Haitian migrants intercepted by the U.S. 
Coast Guard at sea remained around 2,000 to 4,000 from 1984 to 
1990, and less than 2,000 from 1996 on. In 1991, however, the 
number of interdictions leapt to 10,087, followed by 31,000 in 
1992. Interdictions then dropped in 2000 to 404 in 1993, 
followed by a third spike to 25,069 in 1994, and then a drop 
down, as I have reported to you.
    Our belief is that expectations and perceptions of changes 
in U.S. immigration policy had been the spark for all three of 
these large-scale migrations. So when I report to you, sir, 
that over the last 3 years our numbers have been 1,400, 1,300, 
1,800, then yes, sir, I conclude that this policy has some 
effect.
    Senator Nelson. Mr. Chairman, in my next round of 
questioning I would like to pursue that I think that the most 
important policy of the U.S. Government in stopping the 
outmigration from Haiti is the policy with which we approach 
the Government of Haiti and the NGOs of Haiti in trying to 
bring about economic and political stability in that country, 
so there is not the surge, the urge to want to leave the 
country. I will pursue that in the next round of questioning. 
Thank you.
    The Chairman. Thank you.
    Mr. Grossman. May I say, Mr. Chairman, that in advance of 
that, we both look forward to that line of questioning, because 
of course that would be something we completely agree with. So 
I do not want my answers to the Senator to be left here that 
the only policy that we have in Haiti is a policy on migration. 
So we very much look forward to that, Senator.
    Senator Nelson. Get ready for my question: Why did it take 
you 2 years to do it?
    The Chairman. You have been forewarned.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman. I had the 
opportunity to live in south Florida in the Pompano Beach area 
in the early eighties and in my neighborhood there were many 
Haitians living there. They were just terrific people. I know 
we have enormous challenges ahead of us.
    From what I understand from your questioning, Senator 
Nelson, you were asking, why are Haitians treated differently 
than other undocumented migrants. Did I hear an answer to that? 
Why are they treated differently? Or are they, first of all?
    Mr. Grossman. I apologize to the Senator. I said I was 
prepared to answer the question in terms of why they were 
treated differently than Cubans. I owe you and other members of 
the committee a further answer about other undocumented aliens. 
I don't know, and I don't want to pretend that I do.
    Senator Chafee. Thank you.
    Also, to followup on the same line of questioning, are you 
comfortable with the treatment that these undocumented aliens 
are receiving? I see from the briefing papers there was a story 
in the Sun Sentinel from down in south Florida about the poor 
treatment of the incarcerated Haitians as they await 
deportation.
    Are we confronting that? Do you disagree with the article, 
if you are familiar with it at all?
    Mr. Grossman. I am not familiar with it, Senator. But from 
our perspective--again, part of the answer, of course, now 
comes from the Department of Homeland Security--but my 
understanding is that they interview all migrants, whether 
interdicted at sea or detained in the United States, to 
establish a credible fear of persecution and determine whether 
or not they have this well-founded fear. People who are not 
granted asylum are returned to Haiti.
    As I say, I would be glad to look into any of these stories 
that you wish, but I am not familiar with the one to which you 
refer.
    Senator Chafee. OK.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman. Thank you for 
having this hearing. Thank you, Senator Nelson, for your 
passion and focus. I felt this hearing was important to the 
full committee and the subcommittee. Senator Nelson has been 
very insistent that we have that discussion. Thank you for 
raising that.
    Mr. Chairman, I have a more complete statement I would like 
to enter into the record.
    The Chairman. Your statement will be placed in full in the 
record.
    Senator Coleman. I would note, similar to my colleague, 
Senator Chafee, I grew up in Brooklyn, New York, the first half 
of my life and lived over in Eastern Parkway. It was part of a 
very vibrant Haitian community, a very entrepreneurial, active 
community.
    It pains me as I sit here to listen to what the chairman in 
his opening statement talked about, the tragedy and failed 
States and corruption, and all of the terrible things and the 
challenges we are facing that we are trying to correct. We 
should be doing better. The Haitian people deserve better. The 
question is, how do we get there?
    Mr. Chairman, in your line of questioning you talked a 
little bit about the issue of narcotics trafficking. Secretary 
Grossman, in your testimony you note that, sadly, narcotics-
related corruption is pervasive in the Haitian National Police. 
I understand that Haiti has seen a revolving door of police 
chiefs, none of whom seem to stay in the position long enough 
to make substantial improvements in Haiti's security.
    I am wondering, what is it that we are doing--what role can 
we play? You can't have economic security without national 
security. Haiti clearly does not have national security. What 
is the United States doing to improve security in Haiti and 
help professionalize the Haitian police force?
    Mr. Grossman. Senator, thank you very much. I know that 
John Taylor would agree, too, that one of the tragedies here, 
as Under Secretary Taylor testified to, is that Haitians are so 
successful around the world, and certainly in the United 
States. That is one of the reasons to have hope that this is 
possible, with the right economic and political and security 
policies.
    Let me make a general comment about the police, if I could, 
since, as you say, it is extremely important that the police 
piece of this come out right. You will see, I think, in 
Resolution 822 and in the report of the Special Mission that 
went from the OAS, and in our own comments, that focusing on 
the police is extremely important. I actually think that one of 
the reasons that we have not been successful in Haiti over the 
past few years is precisely because there are not enough 
police. You find us, No. 1, rhetorically supporting 822, 
supporting the Special Mission, supporting the need for serious 
police efforts in Haiti.
    Second, we are also trying to make sure that whatever 
assistance we can give, either to the Coast Guard or those 
parts of the Haitian National Police in terms of training, goes 
to people who are actually then going to do their jobs.
    The other side of this, as I said in my testimony, is we 
have also focused in on visa revocations for high-level police 
people and also others who are involved. We have revoked about 
15 visas over the past couple of years, to try to get people's 
attention.
    So all of these areas are extremely important to us. When 
you talk about the revolving door, it has always seemed to me 
that one of the best examples of why the Government of Haiti 
has not yet met its obligations under Resolution 822 is the 
appointment--and then 2 weeks later the resignation--of the 
police chief some months ago.
    As you know, from the podium--and from Secretary Powell as 
well--we condemn that whole business. That man was not allowed 
to do his job, to make his decisions, to have his budget.
    Senator Coleman. If I may followup, then, one further 
question on the security issue. Secretary Powell's comments 
reflect your testimony, Secretary Grossman. You remarked if by 
September the Government of Haiti has not created the climate 
of security essential to the formation of a credible, neutral, 
and independent provisional electoral council, we should 
reevaluate the role of the OAS in Haiti.
    Is the OAS the appropriate vehicle for pressing improvement 
in Haiti? Help me understand what our vision is as to the role 
of OAS as a partner in dealing with the security concerns.
    Mr. Grossman. We have very much supported the role of the 
OAS in all of what they do. I have great admiration for what 
they have tried to accomplish. If you read Resolution 822, 
first of all, and then the report of the Special Mission, the 
followup reports of the Special Mission, I think that the OAS--
the Caribbean countries and the OAS Secretariat are trying to 
do their very best.
    Yes, sir, I would continue to work very strongly with the 
OAS; because this is not just a problem for the United States, 
it is a problem for the region and a problem for the Caribbean. 
So the fact that the Special Mission was a joint CARICOM 
mission was a very good thing.
    Secretary Powell made that statement in Santiago precisely 
because, like this hearing, we would like to get people's 
attention to what is going on in Haiti, and to say to people--I 
am not prepared to say we will do this or we will do that as 
part of a reevaluation; but to get people's attention that 
there is a sense that patience is running out and that more 
needs to be done, both by the government and often by civil 
society, as well. We just can't continue to do the same things 
over and over and over again.
    We hope it will be something the people will lift up their 
heads and say, Oh, Powell said something important; this 
hearing is important.
    We need a reevaluation in September. What we reevaluate I 
think will be a matter of consultation in the hemisphere, and 
certainly a matter of consultation with this committee.
    Senator Coleman. Thank you, Secretary Grossman.
    Mr. Grossman. Thank you, sir.
    [The prepared statement of Senator Coleman follows.]

               Prepared Statement of Senator Norm Coleman

    Haiti is the second-oldest country in the Western Hemisphere, just 
thirty years younger than the United States. During its two hundred 
years of independence, Haiti has had a particularly tumultuous history.
    Hopes were high in 1994, when the U.S. led a multinational force to 
Haiti to reinstall the democratically-elected President Aristide, who 
had been deposed by a military coup. While many hoped this would 
inaugurate a new era of democracy, Haiti's problems have continued.
    A series of disputed elections have brought politics in Haiti to 
its current impasse. The lack of effective authority has meant that 
Haiti today is a dangerous place, an impoverished country, and a major 
drug-transit location. Haiti's per capita income is the lowest in the 
Western Hemisphere, at just $225 per year. The government of Haiti was 
also singled out in a recent State Department report, for failing to 
make sufficient efforts to combat human trafficking.
    For some time the Organization of American States (OAS) has been 
involved in efforts to restore a functioning democracy in Haiti. 
Unfortunately, little progress is evident. Secretary Powell suggested 
last month that if progress is not made in creating an atmosphere 
suitable for the formation of a credible, neutral and independent 
electoral council, the U.S. should ``reevaluate the role of the OAS in 
Haiti.'' The OAS is not responsible for the problems in Haiti, but 
neither is the OAS approach succeeding in bringing about real change in 
Haiti.
    Compounding the challenges facing Haiti is the AIDS crisis. 
Infection rates in Haiti, 6 percent of the population between the ages 
of 15 and 49, are the highest outside sub-Saharan Africa. 
Appropriately, Haiti is one of two countries in this hemisphere 
targeted to receive assistance under the Global AIDS bill as signed by 
the President.
    The U.S. cannot afford to ignore Haiti's humanitarian needs. I 
strongly support the assistance we will be providing under the 
President's AIDS initiative, as well as the food aid and other programs 
now in place.
    In this hearing, I'm sure we will take a look as U.S. immigration 
policy concerning Haiti. Already there are over 400,000 Haitians living 
in the U.S. While I believe our nation should continue to provide 
refuge to people at risk, I worry that a further breakdown in Haiti 
could lead to more than we can handle. This is why it's so important to 
look at what U.S. policy can do to improve conditions inside Haiti--
supporting fair elections there, strengthening institutions, 
professionalizing the police force, and supporting economic 
development. Given the correlation between surges of Haitian refugees 
on our shores and the cycles of political crises in Haiti, it's easy to 
see why it is directly in the U.S. interest to be engaged in Haiti.
    I look forward to discussing with the witnesses ways the U.S. can 
help the people of Haiti to share in the democracy and prosperity that 
so many other countries in this Hemisphere have come to enjoy.

    The Chairman. Thank you, Senator Coleman.
    Senator Brownback, we are in the 5-minute round of 
questioning, the first round. I would like to recognize you.
    Senator Brownback. Thank you very much, Mr. Chairman. I 
appreciate you doing that. I appreciate you holding this 
hearing on Haiti. Welcome to our guests.
    Secretary Taylor, if I could ask this question of you--and 
it is as much in the form of a comment, because we have been 
working with the administration a lot on this--one of the areas 
that I have had concern about regarding Haiti is a lack of 
respect for private property rights there.
    As I note in your testimony, talking about the Millennium 
Challenge Account--which you would think Haiti would be a good 
candidate for--but it is to be applicable to those countries 
that are ruling justly, promoting economic freedom, and 
investing in people.
    I have a specific situation of a group, Bridges Farms, farm 
operations. It is a not-for-profit group based out of the 
United States. It is to create employment in Haiti. Yet, they 
have consistently had difficulties getting the Haitian 
Government to recognize their title to the land. The government 
itself has been building buildings on the edges of the 
property, and also not allowing the people to use the airstrip 
that they have on their property, as well.
    The Haitians have ignored various requests, despite the 
fact that the U.S. Government has come to them, and I have 
presented requests to them. The whole reason for the operation, 
Bridges Farms, is to provide employment for Haitians.
    That is a terribly impoverished country. Yet, I look at 
this narrow, specific example and I'm thinking, if we are 
wanting to provide additional support for Haiti, if we want it 
to grow, and we do, and we want greater economic opportunity, 
and we do, yet they are not willing to recognize private 
property rights--and in particular for a nonprofit group that 
is just trying to create employment there--I am not sure that 
they are anywhere near meeting their end of the bargain of what 
we would think of if we get the Millennium Challenge Account 
established and moving forward.
    I would hope they could respect the private property rights 
so there can be growth taking place in the country. I don't 
know if you know about this particular case. If you don't, I am 
happy to have made you familiar with it. I hope we could get it 
resolved. But to me it is indicative of a governmental system 
not yet willing to do the things that it can do to be able to 
allow the people to grow and prosper.
    Mr. Taylor. Senator, I would like to learn more about that 
particular example. It is just the kind of example that shows 
the problems with poor respect for property, poor rule of law, 
and how that holds the people of Haiti back and it holds 
foreign investment back. Those are just the kind of policies 
that we would like that government to change so that prosperity 
can begin to grow in Haiti.
    We are just beginning to see some positive changes that I 
emphasized in my testimony on the transparency side of the 
budget. But there is a long, long way to go in this respect. 
Your example just points to that.
    Right now, the Millennium Challenge Account holds out some 
very specific things for countries to achieve. Ultimately, of 
course, we say we would like every country to qualify, but 
countries like Haiti have a long way to go.
    Right now, there are some things that Haiti can do to get 
more assistance by improving its policies just directly from 
the World Bank. The World Bank has a performance allocation 
method where, as countries improve their policies, they get 
more funds. Right now, Haiti is quite down low on the list with 
respect to the amount it gets. If it improves the policies--
just as the kind you are indicating: better certainty about 
private property, better rule of law, better transparency, 
better ways to deal with corruption--it will get more financial 
assistance; and, more importantly, that financial assistance 
will be more valuable to the people, so growth will improve.
    Senator Brownback. I would like to see us help Haiti. I 
would like to see us do the Millennium Challenge Account. But 
if they can't get some of these basics right, I don't think 
these are wise investments on our part. I don't think they are 
ready yet.
    So I am really hopeful that the Haitians take your points 
and those from the World Bank and others to heart, because for 
us to help them, they have to be willing to help themselves. It 
appears to me from the information that I have that they have 
not been willing to take those steps that they need to yet.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Brownback. We will have 
another round of questioning of the panel.
    Let me begin by saying that Secretary Powell--in comments 
that you have already mentioned, Secretary Grossman--has stated 
that if the Haitian Government has not created the security 
climate necessary for performing a credible electoral council 
to have elections by September 2003, then we should reevaluate 
our policy to Haiti, and that of the OAS.
    I would appreciate some discussion of what the right 
security climate would be. What are the elements that would be 
required to have a credible election? I suppose, beyond that, 
there is the dilemma that seems to me to be posed as we try to 
work with Haiti to do the right thing. Yet, at the same time, 
there are the overwhelming circumstances in the country that 
seem to lead to adverse results or responses to most of these 
pleas, which then leads our response to be adverse to Haiti or 
to the people.
    There is sort of a revolving dilemma here: How do you get 
some bedrock stability, or at least some minimal stability, so 
that Haiti can be forthcoming, as opposed to censured? I don't 
say this as criticism of either the Haitians or Secretary 
Powell, but just an observation.
    We are discussing, very delicately, the fact that this 
country has very, very little income per capita, very little 
going for it economically and politically. People are trying to 
flee to get to the United States to support their loved ones 
back home. This doesn't negate the fact that people might want 
to have a fairer electoral system. Indeed, they might do so in 
the midst of this gross poverty and the difficulties that you 
have described.
    Yet as a practical measure, how do we help? Is it enough 
for us to be involved? How does the OAS fit into this? Is the 
OAS taken more credibly than comments by even our own Secretary 
of State?
    Mr. Grossman. Mr. Chairman, we hope that the OAS' 
credibility is helped by the comments of the Secretary of 
State, and vice versa, that the Secretary of State is 
attempting to put focus on the importance of the OAS.
    Let me answer your question in a couple of ways, if I 
could. First, I think all of the things that you have said to 
describe Haiti and the challenges of Haiti are right. But I 
think also what has come out in this hearing, both from the 
testimony and the questioning, is that countries have choices 
to make. Haiti has some choices to make. In this case, they are 
not mysterious choices to make.
    If we were having a hearing and it was unclear about what 
the path forward was or what should be done next, I would have 
a harder time answering your question. But there are choices 
out there, and those choices, it seems to me, are extremely 
well delineated in the report of the Special Mission of the 
OAS, for example. They are extremely well delineated in 
Resolution 822. In fact, if you go back a couple of years, they 
are extremely well delineated in the eight points President 
Aristide signed, first with President Clinton, and then were 
reaffirmed by President Bush.
    So if you ask me for a list, what list do I give you? I 
don't say this is a complete list.
    First, there is going to have to be an independent, 
neutral, and credible central electoral commission that will 
run this election. Now, I don't say--because I agree with you--
that only having an election is the answer to all problems. 
There is the rule of law, a free market, the rights of 
property. But the election is very important, it seems to me, 
in moving this process forward.
    The first thing is a real electoral commission.
    The second thing is, think of the other four or five things 
in the Special Mission's reports to the OAS: to finish paying 
off the people who were hurt on the 17th of December; to arrest 
some of the people who are out currently, with real impunity, 
in Haiti, and to make some arrests; to follow some of the 
judicial process to deal with people who are murdering 
journalists and labor leaders.
    There also has to be--when you talk about what is the 
fundamental basis for security, there has to be an end to these 
government-sponsored and party-sponsored gang attacks. There 
was a terrible one just the other day on July 12 in which 
members of the diplomatic corps and members of our embassy were 
involved. Our Ambassador reported to me that they were lucky to 
get out unharmed.
    So there is a list out there. It is not a mysterious list. 
I think if the Haitian Government and the Haitian people would 
commit themselves to ticking off the things that were provided 
to them by the Special Mission of the OAS and CARICOM, there 
would be a way forward here.
    The Chairman. Thank you very much.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman. I want to pick up 
where I left off with regard to detainees.
    Last October the whole world saw--by means of television--a 
boat coming in on Key Biscayne, which is just south of Miami 
Beach, and all of the Haitian migrants jumping out into the 
water and trying to come to America in that way, which we 
clearly have tried to discourage. We certainly should try to 
discourage that.
    But the question is, here we are now in July, and a number 
of those people are still being detained without being released 
on bond in their application for seeking political asylum; 
whereas, the standard procedure is that you release someone on 
bond. I am not talking about migrants from Cuba, because there 
is a special law that deals with them. I am talking about all 
others.
    Could you explain the policy of the administration with 
regard to the detention of those from October?
    Mr. Grossman. Yes, sir. Again, because of our view that 
there is a perception question back in Haiti, as I understand 
it, there is the capacity of the Department of Justice and the 
Department of Homeland Security to continue to detain people 
before they go back, and to continue to detain people without 
the posting of bond.
    That is a choice that the Attorney General and the 
Department of Homeland Security has made in this case; and, I 
would say, with our support. I am not pushing this off, because 
our belief is that the numbers show that when there is 
confusion, it is a magnet.
    Senator Nelson. Then you need the feedback from the south 
Florida community that there is a difference with regard to the 
origin of the migrant and the perception that is there.
    One of the purposes for which I wanted this hearing, and 
there are many--and again, I thank the chairman and the 
chairman of the subcommittee for doing this--is that that 
perception needs to be cleared up. You have to be proactive in 
doing it. I am telling you, it took Senator Graham and me four 
times requesting that the INS head come to Miami to see the 
conditions firsthand. Since then, we have absorbed the INS into 
parts of Homeland Security, but still that has been a problem.
    Let's go on to the question of the IDB. Now, there are a 
lot of problems in Haiti. There are a lot of problems with the 
Government of Haiti. That is what is clearly in our interest to 
stabilize politically and economically. It is in the interest 
of the United States. Clearly, it is in the interest of Haiti.
    But just until recently, for 2\1/2\ years, the IDB had not 
decided to clear the arrears so that Haiti could become 
eligible for additional loans. What happened was--additional 
loans for what? For potable water, for basic living kinds of 
things.
    The cycle got more vicious and vicious. The IDB, which is 
clearly influenced by the U.S. Government, said, Well, we can't 
give anymore loans unless you clear the arrears. But this was 
not a normal situation, so the problem got worse and worse.
    In a bipartisan way, there have been some Senators up here 
raising cain about it. This Senator is one. Senator DeWine of 
Ohio is another one. So now the IDB finally, 2\1/2\ years 
later, has started the process of making these loans available.
    Could you explain the administration's policy as to why it 
has taken 2\1/2\ years?
    Mr. Taylor. Senator, one of the principles of our policy is 
to provide support for economic development where the policies 
are conducive to making that work, as I tried to indicate in my 
testimony. To make a program like the IDB has to offer work, 
there has to be some basic fiscal stability, monetary 
stability, accountability with respect to the accounts and the 
way the moneys are used, and the overall fiscal stability in 
the country.
    As I also indicated, we have been working with the 
Government of Haiti. In the last year and a half, we have had 
many meetings--and they intensified late last year and early 
this year--many meetings with the Finance Minister explaining 
how important it was to get the policies in a position where 
the IMF could have a program, and thereby the IDB could arrange 
for this program of arrears clearance.
    We worked with them and they developed, as I indicated, a 
substantial change in their fiscal policy, their monitoring 
policy, their accountability with respect to their accounts. 
Once they did that, the IMF staff worked out this staff 
monitoring program. Once that was put in place, the process of 
doing the arrears was ready to go.
    As soon as it was there, in very short order, I believe, 
the technical arrangement for the arrearage was done, which was 
to borrow money from the central bank so the arrearage would 
clear, so the next disbursement of the loans--which we hope 
will be next week--can be used to just offset that, and more 
additional loans can come from that.
    So it seems to me this follows a policy of focusing on 
rewarding or working with countries that are following good 
policies, making sure those are in place before we proceed. I 
just might add, I think that the more Haiti can do to have 
better policies, the more funding will be there. I can give 
examples from the World Bank and the IDB that will illustrate 
that.
    Senator Nelson. Mr. Chairman, I will wait until the next 
round of questioning. I just want to say that I appreciate the 
public service of these two representatives of the 
administration. This has nothing to do personally with you all. 
I just want you to know, because of bipartisan surfacing of 
this issue, this Senator feels that something is finally 
getting done, because the policy toward Haiti has been adrift 
for 2\1/2\ years. I am glad to see that something is happening. 
Thank you all for contributing to it.
    Thank you, Mr. Chairman.
    The Chairman. Senator Chafee, do you have further 
questions?
    Senator Chafee. No, thank you.
    The Chairman. Senator Coleman, do you have further 
questions?
    Senator Coleman. If I could, just one question, Mr. 
Chairman.
    Secretary Taylor, you have talked about some of the 
progress that is being made; but in your testimony you have 
mentioned the concern about narcotics trafficking, and that 
barring progress by October 1, that you may be in a position 
where Haiti would not be able to receive some assistance. What 
do you mean by ``progress?'' What are we looking for here?
    Mr. Taylor. The particular things are to have laws in place 
that are not in place now, as I understand it, against these 
activities; some better enforcement of those laws once they are 
in place; and basically a concerted effort to deal with this 
problem of trafficking.
    The legal situation for us, if those are not in place--the 
State Department has an apparatus to make the judgments about 
those. But if those are not in place, we are obligated to vote 
against the programs of assistance from the international 
financial institutions. That is by law.
    Senator Coleman. Secretary Grossman.
    Mr. Grossman. To further what Under Secretary Taylor said, 
I don't want you to think that we have left the Government of 
Haiti guessing as to what is required. We have been in touch 
and given them essentially a 90-day set of ideas about what 
might be possible, given their circumstances and given their 
resources, to move back or to stay with tier 2.
    Senator Coleman. Thank you, Mr. Chairman.
    The Chairman. Senator Nelson, would you complete your 
questioning?
    Senator Nelson. Yes, sir. Then I have a question that I 
need to ask for Senator DeWine, who is not a member of this 
committee. Thank you.
    Under the Haitian Refugee Immigration Fairness Act, it 
requires people to reapply for asylum status if they turn 21 
while their case is pending. We recently had a case that has 
caused a good bit of a stir in south Florida.
    If a child comes to the United States with his or her 
parents, and the application is for asylum when that child is 
18 and less than 21, he is considered. But if for some reason 
that child has not applied and is there with the parents and 
passes his 21st birthday, then the child has to apply and go 
back all through the procedures, and is subject to deportation.
    Could you address what appears to be a technical flaw in 
the law?
    Mr. Grossman. It is not an answer you are going to 
appreciate, Senator. But asylum--these questions go to Homeland 
Security and Immigration. I would be glad to take the question 
and give you an administration response. I apologize. As I said 
to others, I won't pretend that I know the answer to that 
question.
    Senator Nelson. As with the other cases in the past, we 
have deemed it to be appropriate public policy to keep families 
together. In this particular case, it looks like the 
technicality of the law is keeping the families apart.
    Mr. Grossman. I will be glad to take that question, sir.
    [The following information was subsequently supplied.]

    The Haitian Refugee Immigration Fairness Act allows certain Haitian 
nationals and their dependents residing in the United States to become 
lawful permanent residents. The children of applicants qualify for 
similar treatment, but under the law have to be under 21 years of age 
at the time legal permanent residency is granted. If the child of an 
applicant turns 21--``ages out''--before a parent's application is 
approved, he or she remains eligible as an unmarried son or daughter 21 
years of age or older, provided that he or she has been continuously 
present in the United States commencing not later than December 31, 
1995. An unmarried son or daughter who cannot meet this physical 
residence requirement may still be eligible for adjustment of status 
under other provisions of the Act, but is not eligible for HRIFA 
benefits. This requirement reflects U.S. immigration law.

    Senator Nelson. OK.
    Now, for Senator DeWine, he, along with my support, has 
introduced the Haitian Economic Recovery Opportunity Act of 
2003. What this is is that some favored treatment of other 
Caribbean nations--indeed, African nations, as well--allows 
textiles to be exported into the nation, and then they can be 
value-added by making those textiles into garments, and that 
can be shipped to the United States duty-free or with lessened 
duties.
    So the theory is if we are going to help Haiti get itself 
on its economic feet, then this is something we can do. If we 
are doing that with regard to other nations in Africa or the 
Caribbean, why wouldn't we do that with Haiti?
    So Senator DeWine has filed this bill. The administration 
has not taken a position on the bill. Is the administration 
going to take a position? When will that be, and what will it 
be?
    Mr. Grossman. Yes, we will take a position. I hope it will 
be soon. I don't know what it will be yet. I think the reason 
is obvious, sir. I could not agree with you more in all of this 
conversation, that we need to do everything we can to make sure 
that there is success in Haiti for Haiti.
    But we are trying to balance in the Treasury Department, 
the State Department, and other parts of government--exactly 
the point that you made--the interests of those people in the 
United States who are interested in textiles, because it is not 
an insubstantial part of our economy, and our interests in 
making sure we are open to free trade, and doing things in 
Haiti or Africa, as you described, that will help people.
    All I can give you is a status report today, but that is my 
status report.
    Senator Nelson. I will look forward to receiving the answer 
to that so that I can pass it along to Senator DeWine. Thank 
you.
    [The following information was subsequently supplied.]

    Promoting private investment and job creation in Haiti are goals 
that we share with the bill's sponsors. However, we need to consider 
the bill in the context of our overall trade strategy. Given these 
factors, relevant agencies are discussing the issue with a view to 
establishing an Administration position. It would be premature to 
speculate about the outcome of those discussions.

    The Chairman. Thank you very much, Senator Nelson. We thank 
both of you, Secretary Grossman and Secretary Taylor, for your 
testimony and your responses to our questions.
    Senator Chafee.
    Senator Chafee. Thank you for your patience. I was just 
skimming through some of the subsequent testimony. I know Dr. 
Farmer has some rather scathing testimony about IDB, 
International Development Bank, loans.
    Have you had a chance to look at his testimony? I know you 
will be leaving after this session. The Inter-American 
Development Bank, IDB loans--Secretary Taylor, do you know the 
status of these?
    Mr. Taylor. I haven't seen the testimony that you are 
referring to.
    Senator Chafee. Dr. Farmer will succeed you in the next 
panel.
    Mr. Taylor. I have not seen that; but as I indicated in my 
testimony, now that the arrears have been cleared with the IDB, 
they are prepared to begin making loans again.
    Next week, we hope there is approval of $50 million and 
then a quick disbursement of $35 million. After that, there is 
a total of $146 million in loans for roads, health, education, 
water and sanitation, which then can go in the works. On top of 
that, there will be a dialog between the IDB and the government 
about what other kinds of assistance there can be.
    So that process as of July 8, when the arrears clearance 
was completed--and that was following the IMF program--things 
are on track now to move ahead.
    Senator Chafee. That sounds positive. Thank you.
    The Chairman. Thank you, Senator Chafee. Once again, I 
thank the witnesses.
    We will call now upon the second distinguished panel. That 
will include Dr. Paul Farmer, co-founder of the Program in 
Infectious Diseases and Social Change, Department of Social 
Medicine, Harvard Medical School, Cambridge, Massachusetts; Mr. 
Steven Forester, senior policy advocate for Haitian Women of 
Miami, Florida; and Dr. Rudolph Moise, president and CEO, 
Haitian Broadcasting Network, Miami, Florida.
    We welcome the second distinguished panel. I will ask you 
to testify in the order I introduced you, which would be first 
of all Dr. Farmer, then Mr. Forester, and then Dr. Moise.
    Dr. Farmer, let me indicate to you and to the other 
panelists that your full statements will be made part of the 
record. You need not ask for that to occur. You may proceed to 
either summarize or to present your testimony any way you wish.

 STATEMENT OF DR. PAUL FARMER, FOUNDING DIRECTOR, PARTNERS IN 
 HEALTH; CO-DIRECTOR, PROGRAM IN INFECTIOUS DISEASE AND SOCIAL 
CHANGE, DEPARTMENT OF SOCIAL MEDICINE, HARVARD MEDICAL SCHOOL, 
 CAMBRIDGE, MA; CHIEF, DIVISION OF SOCIAL MEDICINE AND HEALTH 
     INEQUALITIES, BRIGHAM AND WOMEN'S HOSPITAL, BOSTON, MA

    Dr. Farmer. Thank you very much.
    Mr. Chairman, This invitation is a great privilege. I 
actually have come up from Haiti for this occasion. I would 
like to thank Senator Chafee, and, having grown up in Florida, 
want to tell you, Senator Nelson, that it is an honor to meet 
you.
    I would also like to thank the other Senators, members of 
this committee, for allowing an American citizen who has been 
living and working in Haiti for 20 years to testify as a 
physician. In addition to directing a hospital in Haiti, I am 
also a professor at Harvard Medical School, and have been going 
back and forth between these two places, Harvard and Haiti, for 
20 years. I am given, I am told, 5 minutes, so I'm going to 
make five points very briefly.
    The Chairman. You may take longer than that.
    Dr. Farmer. Professors always do.
    Senator Chafee mentioned that part of my testimony was 
scathing. You will see shortly why that might be.
    Senator Nelson was kind enough to mention that it took 2\1/
2\ years to unblock these humanitarian development assistance 
loans to Haiti--if they are indeed unblocked; that remains to 
be seen. That means loans for potable water, health, education, 
and roads have been denied to those most in need. As a doctor, 
I am the person who cleans up the messes that result from these 
blocked loans.
    Rural Haiti has one doctor for every 20,000 people. I 
happen to be one of them. I am very proud to be counted in that 
number, but it has been a very difficult 2\1/2\ years. I 
believe that is why it is important to underline--as Senator 
Dodd did on the Senate floor some time ago last year--that it 
is political maneuverings that have blocked these loans and 
not, as is often said, the question of arrears. I will go into 
some detail on that, if I am allowed.
    The first thing I would like to say before I testify as a 
doctor is that the United States and Haiti are the two oldest 
countries in this hemisphere, so we have a more intertwined 
relationship than any other two countries. I think that is an 
important fact. It is certainly important in Florida, where I 
grew up. These two countries have had very divergent paths, of 
course. I have my own special relationship with Haiti. I was 
born in the world's most affluent and powerful country, and now 
work as a doctor in one of the poorest places in the world.
    I have, of course, lived through the Duvalier family 
dictatorships, the military juntas that were mentioned earlier, 
and also the democratic regimes that get such bad press here in 
Washington. I would like to speak a bit in the first person 
about the enormous difference there has been for me as a 
physician trying to work for poor people in Haiti during those 
three periods of Haitian history.
    What is it like to be a doctor in central Haiti? I live in 
a squatter settlement that was created by a development 
project, a hydroelectric dam, so I will turn to the World Bank 
and its policies in a second.
    Just to give an example of the adverse impact of recent 
U.S. policies, when we see children come into our clinic--and 
some of you have been good enough to visit us down in central 
Haiti--we see the results of bad policy. Allow me to give the 
example of a boy whom I was able to introduce to a U.S. 
congressional delegation a that came to central Haiti. This 15-
year-old boy, Isaac, had typhoid fever. Bacteria had drilled 
holes in his intestine. He went to the operating room and 
underwent the correct procedure, but we knew he wasn't going to 
make it. A few days later, after the congressional delegation 
left, Isaac died.
    We doctors call those children ``IDB kids,'' now. We feel 
deeply about this blocked humanitarian assistance because we 
believe lives could and should be saved. I am the only American 
doctor there; the others are Haitian.
    Every day it is the same--hundreds of patients and scant 
resources--but we have nonetheless managed to do a great deal. 
That is the other message I would like to give today: that a 
great deal can be done in Haiti. The current circumstances are 
the best, certainly, in the 20 years that I have been working 
in Haiti, not only for health care but with regard to 
government, respect of law, human rights, and certainly freedom 
of the press.
    I can give personal experiences from the past 20 years but 
I would like to focus, instead, on how we can move forward, and 
make progress in terms of bringing Haiti out of its epic 
poverty.
    I work through a group that is sometimes called a 
community-based organization or a non-governmental organization 
[NGO]. Some people think of us as a faith-based organization, 
so you would perhaps expect me to argue on behalf of funneling 
American aid through such organizations. I may surprise you by 
saying that I think that is exactly the wrong thing to do.
    Haiti does receive assistance from the United States--and 
from the European Union and Canada and Japan also--but the 
total amount of aid has been reduced by about two-thirds since 
1995. The growing health care crisis that I describe in my 
testimony--a resurgence of polio, declared eradicated from this 
hemisphere; a resurgence of death from measles; death from HIV 
and tuberculosis--has all happened in the face of declining 
overall contributions to Haiti as it tries to struggle out of 
180 years of dictatorship.
    Our country, my country, has cut its donations to Haiti by 
more than half since 1999. The United States contributes about 
$50 million a year. None of it goes to the Haitian Government, 
however, except to the Coast Guard--both boats of it--as they 
are being called upon to help interdict refugees and cocaine 
trafficking.
    Now, this is not the way to help Haiti. The way to move 
things forward is to work with the Haitian Government, as my 
organization does. We work with the Ministry of Health, and 
also, to a certain extent, with the Ministry of Education. In 
doing so, especially over the last few years, we have started, 
for example, the world's first integrated HIV prevention and 
care project, which has been declared a success. Haiti was the 
first country in the world to receive money from the Global 
Fund to Fight AIDS, Tuberculosis, and Malaria--the direct 
result of a public-private partnership with the Haitian 
Government.
    I could give story after story of our own work with the 
Haitian Government around reducing maternal mortality, 
increasing rates of vaccination for children, and reducing 
malnutrition in central Haiti. Each and every time we've tried, 
we can claim a success. We are very proud of that. It is 
because we work with the Haitian Government. However, no NGO 
has national reach. I think it is very important that this 
committee and the Senators present--and also people like 
Senator DeWine, who has been a great friend of Haiti--push 
forward the idea of public-private partnerships that really do 
include the public part.
    One last word about the IDB loans, and then I will close, 
knowing that my written testimony is appended. The reason that 
the IDB loans may flow at all is because last week Haiti did 
something very frightening, even to a doctor who does not claim 
expertise in economic matters. The government depleted its 
national treasury by 90 percent. They spent $32 million, I 
believe, to pay the arrears--many of them accumulated 
illegally, as I have laid out in my testimony--because of, 
again, a U.S. memo that blocked these loans after they were 
already approved by the IDB's executive board and by the 
Haitian Government.
    Now, the charter of the IDB states that that should not 
happen and may not happen. I am not a lawyer, though I am a 
doctor. I would like to go back to my clinic. What we would 
like to see in our clinic and hospitals, actually, is no need 
at all for many of our services. We don't want to see these 
children and adults with preventable and treatable diseases who 
are dying unnecessarily.
    So as a physician and as an American, I would ask members 
of this committee to set just policies toward Haiti, which will 
necessarily include working with the elected Government of 
Haiti. The responsibility is on us, as well as on the Haitian 
Government. If the World Bank, for example, looks back on its 
own performance and gives a dismal report, I am not sure why 
that should reflect poorly on the Haitians. I think the World 
Bank should look a little harder at its own practices and 
reassess those, as well.
    We need to move forward a human rights-based culture for 
the rule of law in Haiti. That can only be done by working with 
the NGOs, who are the targeted beneficiaries of huge amounts of 
money, and the Haitian Government, which is not. For example, 
the Bush plan would allocate $15 billion for AIDS. Haiti is in 
that group of countries that would receive funds. To spend that 
money wisely, to be accountable, we are going to have to rely 
on public-private partnerships and not try to skirt the public 
sector.
    That, of course, will also lead, we believe, to increased 
respect for the rule of law--which, granted, is very difficult 
in such a poor setting--and also lead to greater respect for 
human rights, including the right to health care.
    Thank you all, especially you, Mr. Chairman, for the 
privilege of testifying.
    [The prepared statement of Dr. Farmer follows:

   Prepared Statement of Dr. Paul Farmer, Presley Professor, Harvard 
 Medical School, Boston, Massachusetts and Medical Director, Clinique 
                       Bon Sauveur, Cange, Haiti

    First, allow me to thank Senator Lugar for this invitation, Senator 
DeWine for his longstanding commitment to Haiti, and Senators Kerry, 
Kennedy, and Dodd for having suggested that I be afforded this 
opportunity to comment on the current health situation in Haiti.
    Haiti and the United States are the two oldest independent 
republics in the Western hemisphere. And Haiti, our oldest neighbor, is 
living a true health crisis. This means, of course, that our neighbors 
are dying because of a health crisis. This health crisis can be 
described concisely. It has many causes but none of them are 
mysterious. This crisis has solutions that are well within our reach. 
Because some of what I say will be contentious, I will do two things 
today. First, and very briefly, I make mention of my own acquaintance 
with the health problems of Haiti. Second, I will document extensively 
all of my remarks and am making this documentation available for those 
of you here today and for the Congressional Record.
    I am a professor at Harvard Medical School but for the past 20 
years have had the good fortune of spending at least half of my time in 
central Haiti, where I direct a large charity hospital. This past year 
alone we have seen over a quarter of a million patients and done our 
best to provide modern medical services to a population living in dire 
poverty. Indeed, the hospital I direct sits in a squatter settlement 
and it would be difficult, I suspect, to find a more impoverished site 
in which to build such a facility. I've called this settlement home 
since 1983. During the past two decades, I've lived under the rule of 
dictatorships, military juntas, and elected governments. Our clinical 
facility has remained open during almost all of these long and often 
violent years, and we have developed strong feelings regarding the 
difference between working with unelected versus elected governments. 
These views are less political than pragmatic because doctors, nurses, 
and community health workers tend to be a pretty pragmatic bunch: we 
want to help our patients get well or, even better, to prevent them 
from getting sick. Our group, I should add, is a church-affiliated but 
ecumenical non-governmental organization, and it's been our privilege 
to work extensively, especially in recent years, with the Haitian 
Ministry of Health.
    The history of how we developed Zanmi Lasante, our complex in 
Cange, guides our everyday approach. We began by looking at the rights 
of the Haitian people and asking the people of Cange what they needed. 
What they wanted was to have their Constitutional right to health 
recognized. So we set up a clinic which grew into a socio-medical 
complex. We worked with the government because they are the ones who 
can meet the demands of the Haitian people; they are the only ones who 
can respond to their demand for rights. Our patients' assertion of 
rights is codified in the Cange Declaration which is their patients' 
Bill of Rights. Using this approach, we have worked to put children in 
school, improve the water supply, and tackle new health challenges, 
some of them deemed--incorrectly, it transpires--intractable. None of 
the problems I will discuss today, from AIDS to malnutrition among 
children, are intractable.
    Finally, I'll note for the record that I have written several books 
and dozens of scholarly articles about health conditions in Haiti. In 
short, I've spent my entire adult life worrying about the topic we're 
here to discuss today and feel well-placed to comment on Haiti's health 
crisis, its causes, and--most importantly--what we might all do to help 
our neighbor overcome this crisis.
                  1. health conditions in haiti today
    Describing the current situation is the easy part: put simply, 
health conditions in Haiti are among the worst in the world. This part 
of the story is undisputed and should, in and of itself, trigger 
immediate action from anyone well-placed to help a neighbor in need. 
All of Haiti's public health indices are bad. Life expectancy, for 
example, is the lowest in our hemisphere. I rely mostly on data from 
either the Pan American Health Organization or the World Health 
Organization, but if our own CIA's Web site is to be believed, Haiti is 
the only country in the hemisphere in which life expectancy at birth is 
under 50 years and falling.\1\ As elsewhere in the world, infant 
mortality rates fell fairly slowly but steadily over the course of the 
past few decades, but in Haiti some of these trends have been reversed 
and infant mortality now stands at 80.3 per 1,000 live births.\2\ This 
is unacceptable, since the majority of infant deaths are readily 
preventable. Juvenile mortality rates, similarly, are the worst in the 
region, in large part because of malnutrition, low vaccination rates, 
and other by-blows of poverty. Maternal mortality rates are--no other 
way to put this--appalling. Even the low-end estimates (523 per 100,000 
live births) \3\ are the worst in the hemisphere, and one community-
based survey conducted in the 1980s pegged the figure at 1,400 per 
100,000 live births.\4\ For a sense of scale, those same figures in the 
United States, Costa Rica, and Grenada are 7.1, 19.1, and 1.0 per 
100,000 live births, respectively.\5\ \6\ \7\
    Losing one's mother is a nightmare for any child, but for children 
living in poverty it all too often means that they too are doomed to 
penury and premature death. When food and water are in short supply, 
who is there to fight for the survival of infants and toddlers if not 
their mothers? Orphans who do survive are often pressed into servitude, 
where their childhood years are filled with abuse and, as often as not, 
cut short by AIDS or some other dreadful side effect of poverty.\8\
    What, then, of infectious diseases, my own specialty? Polio, 
announced eradicated from the Western hemisphere in 1994,\9\ resurfaced 
on the island in 2000.\10\ This unexpected resurgence occurred because 
of a sharp decline in vaccination rates under military rule. Haiti's 
self-appointed leaders had scant interest, it would seem, in public 
health. National vaccination rates for measles and polio reached their 
lowest point ever, with one PAHO survey suggesting that, in 1993, only 
30% of Haitian children had been fully vaccinated for measles, polio, 
mumps, and rubella.\11\ It was only a matter of time--in this case, a 
few months to a few years--before these diseases came back. The measles 
epidemics came quickly, as we documented in central Haiti.\12\ But even 
polio, deemed vanquished forever, could and did return. The strain of 
polio that spread was actually derived from a vaccine, I should point 
out: but a strain fully capable of causing paralysis and death and able 
to spread only because so few children had been vaccinated during the 
early nineties.\13\
    You know already that AIDS is a serious problem in Haiti, perhaps 
the only country in this hemisphere in which HIV stands as the number-
one cause of all adult deaths.\14\ The Haitian epidemic has been 
described as ``generalized,'' since it affects women as much as or more 
than men; is not confined to any clearly bounded groups; and has spread 
from urban areas to the farthest reaches of rural Haiti, such as the 
villages in which I work. What's worse, HIV not only kills 30,000 
Haitians each year and orphans 200,000 more,\15\ it has also aggravated 
an already severe tuberculosis epidemic. In one careful survey 
conducted in an urban slum in Port-au-Prince, fully 15% of all adults 
were found to be infected with HIV.\16\ Stunningly, the rate of active 
and thus potentially infectious tuberculosis among these HIV-positive 
slum dwellers was 5,770 per 100,000 population. Again, for a sense of 
scale, the number of Americans with active TB is pegged at 5.6 per 
100,000 population.\17\ For Jamaica, Haiti's neighbor, the number is 5 
per 100,000 population;\18\ for Cuba, rates of active TB are only 
slightly higher than those registered in Jamaica.\19\ Only 8 of every 
100,000 Israelis are sick with active tuberculosis.\20\
    You get the picture, I'm sure. I could go on, telling you about 
anthrax, which in Haiti is a zoonosis associated with unvaccinated 
livestock. As one Haitian veterinarian explained wearily, Haitians are 
victims of a sort of bioterrorism linked to poverty--in this instance, 
a failure to vaccinate goats, itself a symptom of our failure to share 
the fruits of science with the poor, including our very closest 
neighbors.
    In poor countries, doctors must also take an interest in 
education--not merely medical education, but the education of women and 
children. We know from many studies, including some conducted in poor 
regions of Mexico, that good health outcomes among poor children are 
related ``independently'' to the educational status of the mother.\21\ 
That is, poverty is far and away the primary predictor of poor health 
outcomes for Mexican children, but even poor mothers who are better 
educated can hope to do a better job protecting their children. Whether 
this association holds true in far poorer countries, such as Haiti, has 
not yet been demonstrated.\22\ But the fact remains that Haiti's 
illiteracy rates are the highest in Latin America,\23\ which is why the 
Haitian government has declared its alphabetization campaign the top 
public priority. All those interested in the health of the Haitian 
people would do well to support these efforts.
    As for food and water, again the story is grim. According to the 
World Bank, Haiti is the third hungriest country in the world,\24\ the 
only hungry country located close to our shores. The water story is 
even worse: a group in the U.K., the Centre for Ecology and Hydrology, 
recently developed a ``water poverty index'' and carefully surveyed 147 
of the world's countries for supply and quality. Haiti was ranked in 
147th place.\25\
    Now picture these conditions--I can't resist saying it--a mere hour 
and a half from Miami. From door to door, Harvard to central Haiti, my 
monthly journey takes only 12 hours, and a third of that is spent 
jolting along in a Jeep. This brings me to one last point about current 
conditions: Haiti's roads are a threat to public health and have a 
horrific impact on health care.
    Allow me to share the story of Isaac Alfred, a boy who came to 
Cange in January of this year. Isaac contracted typhoid by drinking 
unclean water. Isaac traveled eight hours from his village near 
Thomazeau to Cange. The journey was much longer than needed because of 
roads much more treacherous than most of us in the United States can 
imagine. Microbes had borne holes through his intestines and when he 
was at the clinic, hooked up to morphine and antibiotics, he was in 
excruciating pain. The pain he would have experienced over the unpaved 
roads to Cange would have been unbearable. By the time Isaac reached 
Cange, he received medical treatment, but it was too late. Isaac died a 
few days later. Isaac died because of unsafe water and Haiti's often 
impassable roads. The story that is even closer to home is that of an 
AIDS patient at the Zanmi Lasante. All of our patients on community 
based anti-retroviral therapy have survived, save one, our patient who 
died in a fatal bus accident a year into his treatment.
    So far, I've mentioned roads, public health, water, and education 
and I'm doing so on purpose. These disparate factors are linked 
together. One must ask who is to blame for these problems. Are the 
Haitian authorities blind to the obvious need for urgent action in each 
of these arenas? Do they care nothing for their own people? Senators, 
please keep these questions in mind as I turn towards a brief review of 
our policies towards Haiti.
                   2. policies healthy and unhealthy
    Our own country is the richest in the world, and encompasses a 
third of the world's GDP. It's also, the world's superpower. Having 
established that Haiti, our oldest neighbor, is the poorest country in 
this hemisphere, it stands to reason that U.S. policies towards that 
country have an overwhelming influence. This too should be an 
undisputed claim.
    Has the influence of our policies been a good one? Here, of course, 
is where the dispute comes in. I wish to argue the case as a doctor 
might; I'm not a politician, nor do I have any wish to leave my clinic. 
What I want to see is a healthy Haiti, and I believe--I need to 
believe--that this desire is shared by all of us in this room today.
    I will not dwell on what some non-Haitians would call ``ancient 
history'' (that is, anything that occurred prior to the 21st century), 
but can't resist noting that while the Haitians willingly sent troops 
to aid us in the Battle of Savannah, in 1779,\26\ our own response to 
their appeal for assistance in their war of independence was to support 
the slave owners. And when, against all odds, the Haitians defeated the 
French on the battlefield--which led, according to John Adams and to 
many others, to the Louisiana Purchase--we continued to behave 
ungraciously. From 1804 until 1862, when Lincoln changed our policy, we 
simply refused to recognize the existence of ``the Black Republic.'' 
\27\ Worse, we later pressured other countries in the hemisphere not to 
recognize Haiti's sovereignty.\28\ Our policies did not improve much 
during the late 19th century, and in the early 20th century we invaded 
and occupied Haiti militarily.\29\ In fact, the modern Haitian army, 
which would later come to be the bane of my medical staff's existence, 
was created right here in this city, by an act of the United States 
Congress.\30\ Evidence shows that our past policies towards Haiti were 
remarkable for their consistently antidemocratic tilt. Modern U.S. 
historians agree on this, as do the Haitians.
    More recent policies may appear, to the untrained eye, a bit more 
haphazard. But there have been discernible trends. As of today, almost 
all U.S. aid to Haiti goes through NGOs or through what are now called 
``faith-based organizations'' rather than through the Haitian 
Ministries of Health, Education, or Public Works. Some of you here 
today will applaud this situation, and you'd think I would, too: after 
all, I represent an NGO, belong to a faith-based organization or two, 
and am not part of any government.
    But I do not applaud this trend, not at all. I think these policies 
are unhealthy. I think these policies are unfair and poorly 
conceptualized because in a country like Haiti, that has suffered from 
180 years of poor governance, we need to build a human rights culture. 
It is a long process and one that is far too long overdue. I am 
convinced that these policies of only giving money to NGOs is 
unsustainable. These policies cannot succeed.
    First, allow me to note, since my Haitian patients invariably do, 
that during the reign of both the Duvalier family dictatorship, which 
lasted almost 30 years, and the military juntas that followed, the 
United States was unstintingly generous through official channels.\31\ 
\32\ That is, hundreds of millions of our dollars went to and through 
these Haitian governments, such as they were. If the aid was supposed 
to better the lot of the Haitian poor, it wasn't very efficiently 
targeted, I'd say. But you don't have to trust me: in 1982, the U.S. 
General Accounting Office summed up its own activities as follows: 
``The United States has provided Haiti about $218 million in food aid 
and economic assistance. After 8 years of operating in Haiti, AID 
[Agency for International Development] is still having difficulty 
implementing its projects.'' \33\
    This report appeared at almost exactly the same time that I arrived 
on the scene, your typical young American do-gooder. I did not have a 
lot of preconceived notions about how best to do health and development 
work, but as an American I was of course suspicious about working with 
dictatorships, and I didn't like the way the Duvalier kleptocracy 
siphoned off such significant fractions of all aid for 
``extrabudgetary'' activities of their own. Again, the assessments of 
officialdom (the GAO, as mentioned, but also the World Bank, USAID, and 
most of the large multilateral agencies that dominated, and still 
dominate, the international health scene) were grim enough. And the 
verdicts of the rural poor with whom I cast my lot--they were even more 
scathing. ``Why does your government support the dictators and 
military?'' they asked me, politely enough. I was then a young medical 
student and so I replied, ``I don't know. I'm just a young medical 
student.''
    But this was a disingenuous response, and I knew it. It was 
important for me to come to understand what was going on if I, a U.S. 
citizen, were ever going to be able to defend the policies of my own 
country.
    That proved impossible, frankly. When you hear this, it will be 
July 15th. But I am writing this on July 4th, since I am taking the day 
off and using it to prepare these remarks. I thus refer you to another 
July 4th speech, made in 1985, my third year in Haiti. One month 
earlier, the Haitian Parliament had unanimously passed a ``political 
parties law,'' allowing political parties to exist as long as their 
statutes recognized ``Baby Doc'' Duvalier as President-for-Life.\34\ 
The same law gave the army and the Ministry of the Interior the 
unconstrained power to recognize and suspend parties. Three days 
previously, the Haitian Constitution had been amended to give this 
President-for-Life even greater powers, including the right to 
designate his successor. These changes were approved by a referendum on 
July 22, 1985. According to ``official'' statistics, 90% of voters 
turned out and 99.98% voted ``yes.'' \35\
    Being at the time a young medical student on summer break, I was in 
Haiti on July 4th, 1985, when, in a speech, U.S. Ambassador Clayton 
McManaway called the political parties law ``an encouraging step 
forward.'' Newsweek quoted an unnamed U.S. State Department official as 
saying, ``With all of its flaws, the Haitian government is doing what 
it can.'' \36\ A generous assessment, and the State Department also 
added that ``the press in Haiti has known a growing freedom of 
expression in recent months.'' \37\ (I should add here that the only 
free ``Haitian'' press at the time was that published in New York, 
Miami, and Montreal; and all of these newspapers have since relocated 
to Haiti.) The U.S. administration then certified to Congress that 
``democratic development'' was progressing in Haiti, allowing more than 
$50 million in military and economic aid \38\ to flow to the 
government, if that's the word we want.
    Being a medical student at the time, I assumed these matters were 
beyond me. Better to stick to pathophysiology and clinical medicine 
rather than to seek to understand why this all seemed like complete 
garbage. There was, no doubt, a reason for it.
    Let's flash ahead to 2001, when such excuses deceived nobody, least 
of all myself. By then I'd been in Haiti for the better part of two 
decades, before and after getting my M.D., and was weary of seeing 
children die of diarrheal disease, adults of typhoid and tuberculosis 
and AIDS, and everyone of road accidents. I was a doctor tired of 
seeing children unable to attend school because they could not pay 
tuition or buy uniforms--even in ``faith-based'' schools that should've 
done better. And so in 2001 I looked into a series of four humanitarian 
and development loans that had been blocked. Many other international 
financial institutions had also cut off aid to Haiti, but I focused on 
the Inter-American Development Bank, since these loans, I learned, had 
already been approved by the Haitians and by the Bank's board of 
directors. And it seemed only fitting that an American doctor should 
inquire, as one loan was for health care, another for education, one 
for potable water, and one for road improvement. And they'd been 
blocked for some time--for ``political reasons,'' I'd been told. Haiti 
had held local and parliamentary elections in May 2000, and eight 
senatorial seats were disputed, requiring run-offs. And I'd heard, from 
sources both Haitian and American, that it had been the United States 
that had asked the Inter-American Development Bank to block the loans 
until these electoral disputes had been worked out.
    Again, I was tempted to assume that, as a doctor, I couldn't 
possibly fathom the reasons that would lead my country, the world's 
richest and most powerful, to try and block humanitarian assistance to 
one of the world's poorest. But as a boy who'd grown up in Florida and 
had followed recent electoral problems there (my mother, who lives near 
Orlando, was sending me reams of material), I must admit that I was 
angry. Angry, as a doctor, that the Haitian government, with a national 
budget smaller than that of the Harvard teaching hospital in which I'd 
trained, could not have access to credit in order to clean up water 
supplies and revitalize its public health system. And angry about our 
shouting down the Haitians for elections that didn't seem all that bad 
compared to some of the problems my family in Florida described. 
Besides, the Haitian senators occupying the disputed seats had all 
resigned, and the loans were still blocked.
    So this time I did try to find out more, and I encouraged others to 
help me do so--my students from Harvard, research assistants, and 
influential friends in business who are donors to our charity. Anyone I 
could find.
    Of course I also tried to go directly to the source. I asked to 
meet with staffers from the Inter-American Development Bank. One of 
them shouted at me, in a very public forum (again, right here in this 
city), but the others were very courteous and kind. Still, they told 
discrepant stories. One told me, in 2001, that Haiti owed arrears, 
whereas another told me that no, Haiti had paid its arrears. However, 
the Haitian authorities said they had paid $5 million for arrears owed 
(they were current on their payments at that time) and had been 
promised that the loans would be disbursed immediately. Despite this, 
the IDB did not release the loans and the government of Haiti fell into 
arrears again. It was clear that the decision to withhold the loans was 
a political malfeasance that was brought upon by pressure from the U.S. 
government to block the loans. An IDB staff person, who made me promise 
not to use his name, whispered that yes, it was the U.S. government 
that was blocking the loans. I even called a nice fellow at the U.S. 
Secretary of the Treasury, since I was told that that's where the 
levers were pulled. And he informed me that, yes, such matters were in 
the hands of the State Department. But when I asked how I, a doctor, 
might help to get clean water to the Haitian poor, I couldn't get a 
straight answer anywhere. This went on and on and was very time-
consuming. And I needed to get back to our patients.
    On July 8, 2003, in a move applauded by the international 
community, the government of Haiti paid the IDB $32 million to satisfy 
the outstanding arrears owed the Bank. It is outrageous that the 
government was forced to pay these arrears because it was the 
malfeasance of the U.S. which helped to create them. I am told that 
this move by the government will pave the way for lending to resume 
with Haiti. I ask this Senate body to help us to ensure that the U.S. 
will not stand in the way of future loans from the Bank to Haiti.
    A friend of mind, a famous American writer, promised to look into 
the blocked loans. ``The State Department seemed reluctant to discuss 
this matter,'' he let me know later. ``I was granted an interview with 
a senior department official only on condition that I not use his name. 
He told me it wasn't just the United States that had wanted to block 
the IDB loans to Haiti, that the Organization of American States (the 
OAS) was also involved. It was `a concerted effort,' the official said, 
and went on to explain that the legal justification for blocking the 
loans originated at an OAS meeting called the Quebec City Summit, which 
produced something called the Declaration of Quebec City. But that 
document is dated April 22, 2001,\39\ and the letter from the IDB's 
American executive director asking that the loans not be disbursed is 
dated April 8, 2001. So it would seem that the effort became concerted 
after it was made.''
    I wasn't surprised. The fact is, a concerted effort has long been 
underway to upset the Haitian people's efforts to build an egalitarian 
society. It began in 1791, and the only independent country in the 
hemisphere, our own, weighed in on the side of the slave owners, as 
noted. And so it has gone on for years, as Haiti grew poorer and we 
grew richer. In fact, few Americans know much about Haiti but few 
Haitians can afford to not know about our country. These blocked loans 
do not surprise the Haitians, but do surprise the good people with whom 
I speak up here in the country of my birth. Why on earth, family and 
friends and medical colleagues asked, would we want to block assistance 
to Haiti?
    Why indeed. But it's possible to make a long list of embargoes 
against Haiti, and I recently did so for a British medical journal, The 
Lancet.\40\ It is an article which seeks to document the unsurprisingly 
bad impact of blocking water assistance to the thirsty, education to 
the unschooled, and health care to the sick. I did my best to argue 
that such policies are not only illegal--an argument of limited value, 
I'm told--but also noxious. Deadly. Morally atrocious. I submit this 
Lancet article to you in the hopes that it too might become a part of 
the Congressional Record.
    In any case, I know the discussion could go 'round and 'round. And 
that would make us all dizzy and I'd be the only one here, besides 
Senator Frist, qualified to resuscitate you should you collapse in 
Senate chambers. But since I am a doctor, I hope you will permit me to 
use medical language. These are sick policies. They have a long 
history. And I hope I will not be dismissed as ``playing the race 
card'' when I argue that our sick policies towards Haiti are rooted in 
our own country's shameful past. Again, this is easy to prove. One has 
only to look, again, to the U.S. Congressional Record. On the Senate 
floor, in 1824, Senator Robert Hayne of South Carolina declared, ``Our 
policy with regard to Hayti [sic] is plain. We never can acknowledge 
her independence. . . . The peace and safety of a large portion of our 
union forbids us even to discuss [it].'' \41\
    But now, thank God, we are allowed to discuss it. Unacknowledged or 
not, these are the roots of our unhealthy policies toward Haiti. And 
one does not have to be a neurologist or a psychiatrist to know that 
there are many reasons that some forget and others remember. We 
Americans have forgotten because we can afford to forget.
           3. towards a healthier haiti: some success stories
    I do not wish to squander your generous invitation by focusing only 
on the negative. Many good things are happening in Haiti, and surely 
the most important of these is the transition, however painful, from 
dictatorships to democracy. There are medical victories, as well--and 
most of them are the result of genuine public-private partnerships. 
That means groups like ours working with the Haitian public sector.
    Allow me to give a couple of success stories. First, I mentioned 
that the island was the site of the hemisphere's first polio outbreak 
since the disease was declared eradicated from our half of the world. 
But did polio's resurgence or huge measles epidemics in Haiti 
constitute insuperable problems? Not at all. PAHO and UNICEF worked 
with the Ministry of Health in order to launch a massive campaign to 
eradicate polio and stop epidemic transmission of measles. I'm proud to 
say that we too were part of this movement and prouder still to report 
that it worked.
    What about AIDS, the world's latest rebuke to optimism? Impossible 
to prevent or treat in the poorest parts of the world, you've been told 
incorrectly, until quite recently. Here again, Haiti is more of a 
success story than one might imagine. First, NGOs working closely with 
the Ministry of Health have spent a decade developing culturally-
appropriate prevention tools, providing voluntary counseling and 
testing, and working to improve care for people living with HIV. Could 
these efforts be among the reasons why the predicted ``explosion'' of 
HIV did not occur in Haiti? That is, the situation is grim and AIDS is, 
as noted, the leading killer of young Haitian adults. But 
seroprevalence studies suggest that the Haitian epidemic is slowing 
down. Again, Haiti formed a public-private partnership, one of the 
strongest in the world, in order to pull together a successful proposal 
to the Global Fund for AIDS, Tuberculosis, and Malaria.\42\ The 
National AIDS Commission is chaired by the First Lady, Mildred 
Aristide, who has made AIDS and the rights of poor children her primary 
concerns as a public figure. As I stand before you, Haiti is probably 
the one country in the poor world with the most promising integrated 
AIDS prevention and care project already up and running. Over the past 
year, our project has hosted scores of visitors from as far away as 
Zambia, South Africa, Uganda, and even Japan.
    What about maternal mortality? Can nothing be done to prevent this 
horror? Again, PAHO is engaged in efforts to make childbirth safer and 
so are we--and we all work with the Haitian government. There is, as 
noted, a huge challenge before us. And yet modern medicine has made it 
possible to make childbirth safe, even in the very poorest corners of 
the world. In part of central Haiti, where we work with traditional 
birth attendants and community health workers to offer at-risk women 
high-quality obstetric services (for example, cesarean sections or 
treatment of eclampsia), maternal mortality is under 200 per 100,000 
live births and dropping. We still have a long way to go, granted, but 
we're moving in the right direction. Again, this success owes much to 
our close ties with the Ministry of Health which, though flat broke, 
has assigned publicly-trained nurse-midwives to assist us. UNICEF has 
supplied many of our traditional birth attendants with birthing kits. 
We are also vaccinating our staff against hepatitis B and making sure 
they have gloves and aprons and other supplies. If we were to work 
assiduously with the Ministry of Health, how difficult would it be to 
replicate these practices throughout a country about the size of the 
state of Maryland?
    We are proud of our work in Cange because our methods incorporate a 
community-wide approach that focuses on the Haitian people's right to 
health. This sets us apart from the other NGOs that are operating in 
Haiti. Zanmi Lasante is a successful public/private partnership which 
supports poor Haitians' demands upon the government for the right to 
health and further develops a strategy with them to engage the 
government and civil society so their demands are respected and can be 
met. We have a proven success rate using the human rights based 
approach, rather than the framework of handouts by rich countries and 
donors that most NGOs in Haiti work under. This human rights approach 
to development, not only in the health sector, is a model that can be 
and should be used by other NGOs to build sustainable solutions.
                          4. a few conclusions
    Everyone who speaks today will tell you that the situation in Haiti 
is awful. And so it is, especially from the point of view of a 
physician who serves the poor. But there is so much that could be done. 
Permit me to continue speaking to you as a doctor. First, we need a 
diagnosis. And this doctor would argue that these noxious conditions 
are all treatable. What is the etiology of these problems? Haitian 
culture, as some have argued? Ridiculous--this has nothing to do with 
Haitian culture. Nor is bad governance the problem. How on earth could 
we say this when we were so willing to fork over hundreds of millions 
of dollars to the Duvaliers and the Haitian army, which in over a 
century had known no enemy other than the Haitian people? What is even 
more horrendous is that the Duvalier regime was well known for its 
human rights abuses internationally. Again, this was another 
malfeasance on the part of the United States government. It has led to 
an enormous and odious debt to the international community, much of 
which has not been repatriated from the Duvaliers. Considering this, it 
is appropriate for the U.S. government and the international financial 
institution to pursue debt forgiveness for Haiti's odious debt.
    The problem in Haiti is poverty and, alas, we have failed to do our 
best to help our neighbors rebuild their ravaged country. But we can 
certainly start doing so.
    Rebuilding Haiti will require resources. The Haitians have a 
saying: you can't get blood from a rock. It is critical that capital 
begins to flow once again to Haiti's public sector in order to stay the 
human rights and humanitarian crises I've described. But this capital 
cannot go only to groups like ours--to NGOs or ``faith-based 
organizations.'' It must be spent well using new approaches that 
provide Haiti's poor the ability to demand health, to demand potable 
water, to demand nutrition and have those demands met. That is 
precisely what building the environment and culture that respects the 
full spectrum of human rights is about. We're proud of our work in 
central Haiti, but that's where we live and work: in a circumscribed 
bit of central Haiti. Only the Haitian government has both national 
reach and a mandate to serve the Haitian poor.
    Haiti still receives assistance from the United States and the 
European Union and Canada and Japan and various United Nations 
organizations. But the total amount of aid has been reduced by about 
two-thirds since 1995. Our country has cut its donations by more than 
half since 1999. The United States contributes about $50 million a 
year, but none of it goes to the Haitian government \43\--except for a 
small amount to Haiti's coast guard, both boats of it, given in the 
hope that this might help prevent refugees from disembarking for 
Florida and cocaine-shippers from getting their product to the same 
destination. Again, for a sense of scale, recall that the U.S. 
government pumped an estimated $200 million through the Haitian 
military government in the 18 months following February 1986.\44\ The 
World Bank, the self-proclaimed lead agency addressing world poverty, 
has shut down all future lending to this hemisphere's poorest country. 
It has, in fact, closed its Haiti office, leaving behind only an 
administrator and a chauffeur. Hardly an impressive strategy for 
poverty alleviation.
    As the United States continues to ramp up spending for global AIDS, 
TB and malaria, both through the Presidents emergency AIDS initiative 
and the millennium challenge account, it is important to consider the 
application of those spending packages. Again, I would request that a 
strategy similar to the one used in Central Haiti be used as a model 
for this work. This model works in Haiti and can work in other 
developing countries and resource poor settings.
    Haiti needs our help. Haiti needs resources. But Haitians need us 
to remember some of the things we forget all too expediently. Technical 
assistance is also of great importance, but we need to be respectful of 
our Haitian partners. In 1804, Haiti taught the world a great lesson, 
perhaps the greatest lesson ever. Haiti taught us that slavery, the use 
of other humans as chattel, is a crime against humanity. The French 
claimed to have done this in 1789, but every Haitian knows that it was 
Napoleon himself who in 1801 sent 40,000 troops to reconquer Haiti, and 
reclaim it as France's most valuable slave colony. Napoleon failed. And 
where were we, Haiti's only neighbors at the time? Where were we who 
should have helped Haiti rebuild an island devastated by a decade of 
war? The answer: Haiti had no friends. There was no assistance.
    That was then and this is now. We now have a chance to make up for 
past errors. How are we doing? Poorly. Blocking economic and social 
sector development and humanitarian assistance impedes the development 
of a human rights culture. With holding health, water and sanitation, 
education and transportation funding is a terrible tactical and moral 
error; it is also a medical and epidemiological error. And this error 
could be corrected, almost effortlessly, by the U.S. government. If I 
were you, I would not listen to a lot of palaver about arrears or other 
technicalities. The United States has the power to unblock aid to Haiti 
in a heartbeat.
    That was my final medical metaphor, I promise. In closing, I would 
ask the members of this committee to call for a formal reexamination of 
our policies towards Haiti. I would ask that we acknowledge, as a 
people, our errors and that we try for a fresh start. We certainly have 
all that is necessary to do so. Call it a ``Marshall Plan for Haiti,'' 
call it reparations, call it whatever you want. But let us, at long 
last, do the right thing. And then we will know the gratitude of our 
neighbors. Certainly, you will know the gratitude of a doctor who would 
like to see everyone have the chance to live full and happy lives. And 
although I care deeply for all my patients, I think you will forgive me 
for wishing this most ardently for the Haitian people.
    Thank you for the privilege of testifying.
                               footnotes
    \1\ United States Central Intelligence Agency. The World Factbook 
2002. Available at: http://www.cia.gov/cia/publications/factbook/geos/
ha.html.
    \2\ Infant mortality in Haiti has actually risen since 1996, when 
it was 73.8 per 1,000 live births; PAHO attributes this rise to 
increasing poverty, the deterioration of the health system, and HIV. 
See Pan American Health Organization. Country Profiles: Haiti. 2003. 
Available at: http://www.paho.org/English/DD/AIS/be_v24n1-haiti.htm.
    \3\ Pan American Health Organization. Country Profiles: Haiti. 
2003. Available at: http://www.paho.org/English/DD/AIS/be_v24n1-
haiti.htm. These numbers are likely to be even higher if one measures 
maternal mortality at the community level.
    \4\ The only community-based survey done in Haiti, conducted in 
1985 around the town of Jacmel in southern Haiti, found that maternal 
mortality was 1,400 per 100,000 live births. See Jean-Louis R. 
Diagnostic de l'etat de sante en Haiti. Forum Libre I (Medecine, Sante 
et Democratie en Haiti) 1989: 11-20.
    During that same period, ``official'' statistics reported much 
lower rates for Haiti, ranging from a maternal mortality rate of 230 
for the years 1980-1987 and a maternal mortality rate of 340 for 1980-
1985 to a higher estimate in the years that followed, 1987-1992, of 600 
maternal deaths per 100,000 live births. See United Nations Development 
Programme. Human Development Report, 1990. New York: Oxford University 
Press for UNDP, 1990; and World Bank. Social Indicators of Development. 
Baltimore: Johns Hopkins University Press, 1994; respectively.
    For additional maternal mortality data from that period, see World 
Health Organization. Maternal Mortality: Helping Women Off the Road to 
Death. WHO Chronicle 1985; 40: 175-183.
    \5\ Pan American Health Organization. Country Health Profile: 
United States. 2001. Available at: http://www.paho.org/English/SHA/
prflUSA.htm.
    \6\ Pan American Health Organization. Country Health Profile: Costa 
Rica. 2001. Available at: http://www.paho.org/English/SHA/prflCOR.htm.
    \7\ United Nations Development Programme. Human Development 
Indicators 2003: Grenada. Available at: http://www.undp.org/hdr2003/
indicator/cty_f_GRD.html.
    \8\ Mildred Aristide has recently published an excellent overview 
of the problem of children who become ``domestic servants,'' grounding 
this phenomenon in its historical context and at the same time 
revealing the enormous social cost of such abuse. She writes, ``It is 
clear that Haiti's rural development and the faltering road to a 
national public education system have been and remain at the center of 
the propagation of child domestic service in the country. This explains 
why the prototypical image of a child in domestic service is one of a 
child from the impoverished countryside seeking an education, working 
in the city.'' See Aristide M. L'Enfant En Domesticite en Haiti: 
Produit d'un Fosse Historique (Child Domestic Service in Haiti and Its 
Historical Underpinnings). Port-au-Prince, Haiti: Imprimerie H. 
Deschamps, 2003; p. 89-90.
    \9\ Centers for Disease Control and Prevention. International notes 
certification of poliomyelitis eradication--the Americas, 1994. 
Morbidity and Mortality Weekly Report 1994; 43(39): 720-722.
    \10\ Centers for Disease Control and Prevention. Outbreak of 
poliomyelitis--Dominican Republic and Haiti, 2000. Morbidity and 
Mortality Weekly Report 2000; 49(48): 1094, 1103.
    \11\ Pan American Health Organization and World Health 
Organization. Haiti--L'Aide d'Urgence en Sante. Port-au-Prince: Pan 
American Health Organization, 1993.
    \12\ Farmer PE. Haiti's Lost Years: Lessons for the Americas. 
Current Issues in Public Health 1996; 2(3): 143-151.
    \13\ Kew O, Morris-Glasgow V, Landaverde M, et al. Outbreak of 
poliomyelitis in Hispaniola associated with circulating type 1 vaccine-
derived poliovirus. Science 2002; 296 (5566): 269-70.
    \14\ Pan American Health Organization. ``Haiti.'' In: Health in the 
Americas 2002: Vol. II. Washington, D.C.: Pan American Health 
Organization, 2002: 336-349.
    \15\ Joint United Nations Programme on HIV/AIDS. Epidemiological 
Fact Sheets on HIV/AIDS and Sexually Transmitted Infections: Haiti. 
2002. Available at: http://www.unaids.org/hivaidsinfo/statistics/
fact_sheets/pdfs/Haiti_en.pdf.
    \16\ Desormeaux J, Johnson MP, Coberly JS, et. al. Widespread HIV 
counseling and testing linked to a community-based tuberculosis control 
program in a high-risk population. Bulletin of the Pan American Health 
Organization 1996; 30(1): 1-8.
    For a more comprehensive overview of Haiti's burden of treatable 
and preventable infectious diseases, see Farmer P. Infections and 
Inequalities: The Modern Plagues. Berkeley, CA: University of 
California Press, 1999.
    \17\ Centers for Disease Control and Prevention. Reported in 
Tuberculosis in the United States, 2001. Atlanta, GA: U.S. Department 
of Health and Human Services; 2002. Available at: http://www.cdc.gov/
nchstp/tb/surv/surv2001/content/T1.htm.
    \18\ United Nations Development Programme. Human Development 
Indicators 2003: Jamaica. Available at: http://hdr.undp.org/reports/
global/2002/en/indicator/indicator.cfm?File=cty_f_JAM.html.
    \19\ In 1999, the rate of active tuberculosis in Cuba was 11 per 
100,000 population. See United Nations Development Programme. Human 
Development Indicators 2003: Cuba. Available at: http://hdr.undp.org/
reports/global/2002/en/indicator/indicator.cfm?File=cty_f_CUB.html.
    \20\ United Nations Development Programme. Human Development 
Indicators 2003: Israel. Available at: http://hdr.undp.org/reports/
global/2002/en/indicator/indicator.cfm?File=cty_f_ISR.html.
    \21\ For a review of these studies in Mexico, see LeVine RA, LeVine 
SE, Richman A, et al. Women's schooling and child care in the 
demographic transition: A Mexican case study. Population and 
Development Review 1991; 17(3): 459-496. See also Cleland J and van 
Ginneken J. Maternal education and child survival in developing 
countries: The search for pathways of influence. Social Science and 
Medicine 1988; 27: 1357-1368.
    \22\ Educational status is so tightly linked to social class in 
Haiti that it difficult to know whether or not educational status is an 
independent predictor of better outcomes for children. But relevant 
data from Haiti indicates that of mothers who had received at least a 
primary school education, 94% received prenatal care and 74% were 
vaccinated against tetanus. Among women with no formal schooling, on 
the other hand, only 53% received prenatal care and 58% received 
vaccination against tetanus. See Pan American Health Organization. 
``Haiti.'' In: Health in the Americas 1998: Vol. II. Washington, D.C.: 
Pan American Health Organization; 1998: 316-330.
    \23\ Only 50.8% of adults over age 15 are literate. See United 
Nation Development Programme. Human Development Indicators 2003: Haiti. 
Available at: http://www.undp.org/hdr2003/indicator/cty_f_HTI.html.
    \24\ United Nations Food and Agriculture Organization. The State of 
Food Insecurity in the World. United Nations Food and Agriculture 
Organization: Rome, 2000. Available at: http://www.fao.org/FOCUS/E/
SOFI00/img/sofirep-e.pdf.
    \25\ Sullivan CA, Meigh JR, and Fediw TS. Derivation and Testing of 
the Water Poverty Index Phase I. Centre for Ecology and Hydrology: 
Wallingford, 2002. Available at: http://www.ciaonet.org/wps/suc01/
suc01.pdf.
    \26\ Madeline Diaz, in the U.S. Consulate's Haiti newsletter, 
describes the event this way: ``. . . Haitian soldiers fought and died 
on a Georgia battlefield to help the United States gain its 
independence from England. About 1,500 volunteers from their country, 
then a French colony, joined forces with the Americans to fight the 
British in the 1779 Siege of Savannah.'' See Diaz MB. Haitians seeking 
recognition of war effort in U.S. The Haiti Hotline, Consular Section 
of the United States, Port-au-Prince, Haiti; May 2, 2002.
    \27\ Lawless R. Haiti's Bad Press. Rochester, VT: Schenkman Books, 
1992.
    \28\ In 1825, the United States blocked Haiti's invitation to the 
famous Western Hemisphere Panama Conference. See Lawless R. Haiti's Bad 
Press. Rochester, VT: Schenkman Books, 1992.
    \29\ Heinl R and Heinl N. Written in Blood. Boston: Houghton 
Mifflin Co., 1978.
    \30\ See the account of Gaillard R. Hinche Mise en Croix. Port-au-
Prince, Haiti: Imprimerie Le Natal, 1982. This book is part of a seven-
volume overview of the U.S. occupation of Haiti.
    \31\ Hancock G. Lords of Poverty: The Power, Prestige, and 
Corruption of the International Aid Business. New York: Atlantic 
Monthly Press, 1989.
    \32\ Lawless R. Haiti's Bad Press. Rochester, VT: Schenkman Books, 
1992.
    \33\ United States General Accounting Office. Assistance to Haiti: 
Barriers, Recent Program Changes, and Future Options. Washington, D.C.: 
United States General Accounting Office, 1982; p. i.
    \34\ Americas Watch. Haiti: Human Rights Under Hereditary 
Dictatorship. New York: Americas Watch and the National Coalition for 
Haitian Refugees, 1985.
    \35\ Americas Watch. Haiti: Human Rights Under Hereditary 
Dictatorship. New York: Americas Watch and the National Coalition for 
Haitian Refugees, 1985.
    \36\ Cited in Americas Watch. Haiti: Human Rights Under Hereditary 
Dictatorship. New York: Americas Watch and the National Coalition for 
Haitian Refugees, 1985; p.30.
    \37\ Cited in Americas Watch. Haiti: Human Rights Under Hereditary 
Dictatorship. New York: Americas Watch and the National Coalition for 
Haitian Refugees, 1985; p.32.
    \38\ Hooper M. ``Haiti's Despair.'' The New York Times 27 August, 
1985.
    \39\ Declaration of Quebec City, Third Summit of the Americas. 
United States State Department, 2001. Available at: http://
usinfo.state.gov/regional/ar/summit/declaration22b.htm.
    \40\ Farmer P, Smith Fawzi MC, and Nevil P. Unjust embargo of aid 
for Haiti. The Lancet 2003; 361: 420-423.
    \41\ Cited in Schmidt H. The United States Occupation of Haiti, 
1915-1934. New Brunswick, NJ: Rutgers University Press, 1971; p. 28.
    \42\ For information on Haiti's proposal to the Global Fund, see 
http://www.globalfundatm.org/proposals/round1/fsheets/haiti.html.
    \43\ United States Agency for International Development. 
Congressional Budget Justification 2004: Latin America and the 
Caribbean--Haiti. Available at: http://www.usaid.gov/policy/budget/
cbj2004/latin_america_caribbean/haiti.pdf.
    \44\ Farmer PE. The Uses of Haiti. Monroe, ME: Common Courage 
Press, 1994.

               [Reprinted with permission from Elsevier.]

           (The Lancet, Vol. 361, 420-423, February 1, 2003)

                               viewpoint

                    Unjust Embargo of Aid for Haiti

            (Paul Farmer, Mary C Smith Fawzi, Patrice Nevil)

    Many analyses suggest that social and economic inequalities have 
deepened most quickly between rich and poor countries over the past 
three decades.\1\ Adverse health effects of social inequalities are 
obvious in wealthy countries,\2\ and are matters of life and death for 
vulnerable populations in many least developed countries, where life 
expectancy has dropped in these same decades.\3\ Some negative health 
trends are caused by HIV/AIDS and other emerging threats; war and 
social disruption can be to blame. Indeed, many of the growing health 
problems of the world's destitute sick are now regarded as humanitarian 
crises, and to address these, large international aid bureaucracies 
have emerged over the past half century.
    Although most public health and disaster relief experts have argued 
against the politicisation of aid, most bilateral, and much 
multilateral, aid remains tied to the political aims of wealthy 
countries. Such linkage can be subtle (eg, aid will be disbursed only 
if specific economic policies or political systems are adopted). \4\ 
Here, we consider the health consequences of less subtle forms of the 
politicisation of humanitarian and development aid--ie, embargoes and 
blockades.
    In the minds of Haitians, modern-day embargoes against their 
country are linked to the long string of those in their nation's 
history (panel). However, we believe that the present freeze of 
humanitarian aid is especially unjust. For the past 18 years, we have 
delivered health services in Haiti's central plateau. Social conditions 
in this region are deteriorating, mostly because resources and medical 
personnel are scarce, and because there is a growing burden of disease. 
There are many reasons for worsening conditions, but it is important to 
assess the connection between unnecessary suffering, increased 
mortality, and an aid embargo which has greatly diminished the ability 
of the public-health system to respond to the needs of the Haitian 
people.
    Although the Haitian government mismanaged foreign aid during the 
Duvalier family dictatorship, generous aid continued to flow during 
much of that time, mainly from the USA.\5\ \6\ \7\ During the early 
1990s, with Haiti under military control after a violent coup d'etat, 
the UN imposed a trade embargo on Haiti to push forward the restoration 
of the nation's first democratically elected president, Jean-Bertrand 
Aristide. However, US political commitment to this embargo was, at 
best, tenuous. The US National Labor Committee was later able to report 
that, ``In 1992, despite the OAS [Organization of American States] 
international embargo, U.S. apparel firms and retailers--`under a 
loophole benefiting US-owned exporters'--imported $67,629,000 worth of 
clothing sewn in Haiti.'' \8\ An embargo on petroleum was openly 
flouted, with a tanker from Texas delivering oil in full view of the 
international bodies charged with enforcing the embargo against the 
military regime.
    On Aristide's return to office in 1994, the USA, other ``donor 
nations'', and multilateral organisations promised US$500 million 
dollars over 2-3 years in development aid to rebuild Haiti's battered 
health, education, and sanitation infrastructure, and to stimulate what 
had become one of the weakest economies in the world. Most of this aid 
has been withheld, thus further crippling Haiti's new democracy.
    For example, three loans totalling US$146 million--intended for 
health sector improvement, education reform, potable water enhancement, 
and road rehabilitation--were approved through the Inter-American 
Development Bank (IDB) and by the Haitian government. But these loans 
have been blocked by a US veto in response to alleged irregularities 
during national parliamentary elections held in May, 2000.
    According to the OAS, seven legislators elected should have gone to 
run-off elections. Six months after this election, presidential 
elections were held and Aristide, was again elected with a landslide, 
was inaugurated in February, 2001. Despite the fact that the 
legislators in question have stepped down, the USA continues to block 
the IDB loan on the grounds that Haiti has not shown adequate 
commitment to democratic governance.
    What are the public-health implications of withholding $500 million 
in development assistance and blocking $146 million in loans for water, 
health, and education? Clearly, Haiti is highly vulnerable to external 
economic determinants, especially those coming from the USA. During the 
military rule in the early 1990s, Haiti's public health situation 
deteriorated greatly. Causality is hard to establish because the 
noxious effects of a leaky embargo and the consequences of military 
rule cannot be disentangled. The effect of the military coup was severe 
in the short term, with thousands of people killed and hundreds of 
thousands displaced. In view of a striking, yet unsurprising, absence 
of commitment to public health on the part of the Haitian army, and 
also severe repression of the population, there was a sharp fall in the 
quality and coverage of services for Haiti's poor. For example, child 
mortality doubled in a population-based sample in the central plateau 
(Maissade area) from 1991 to 1992.\9\ This rise was related to a 
measles outbreak--itself a consequence of the deterioration of the 
public health infrastructure during that time--as well as to shortages 
of food, medicine, and other supplies. Furthermore, many parents, 
especially fathers, were in hiding during those years and in this time 
of great insecurity, crops were not planted. In 1992, some 22% of child 
deaths in Maissade were associated with severe malnutrition or 
kwashiorkor, a higher death rate related to malnutrition than in the 
years before the military coup.\9\ Other evidence exists of the 
deterioration of public health and healthcare infrastructures during 
the early 1990s.\10\ \11\ For example, maternal mortality was estimated 
to be as high as 450 per 100,000 births in 1994, a rise of 29% from 
that reported in 1989.\11\
    Elsewhere in central Haiti, we documented worsening social and 
economic conditions, and a paradoxical decline in the number of 
patients seen; our clinic was threatened during the military occupation 
of the country.\12\ In our catchment area, the decline in health status 
during the 3 years after the coup was catastrophic: epidemics of 
measles and other vaccine-preventable diseases were reported, as were 
outbreaks of dengue fever.\13\ \14\
                 beyond haiti: embargoes and healthcare
    During the past 10 years, evidence has accumulated, showing that 
economic sanctions and embargoes are most harmful to the vulnerable 
populations within countries that are targeted.\10\ Sanctions and 
economic embargoes have been associated with declines in health status 
in Cuba, Iraq, the former Yugoslavia, and Nicaragua\15\ For example, in 
southern and central Iraq, mortality in children aged less than 5 years 
rose after sanctions from 56 per 1000 live births to 131 per 1000 live 
births.\16\ The long-term effects of the Gulf War might also be 
contributing to this increased mortality. Daponte and colleagues\17\ 
investigated the effects of economic sanctions on Iraq and noted that 
even before the war, child mortality increased strikingly during 6 
months of sanctions.
    After UN sanctions were imposed on Yugoslavia, UN agencies, 
including the UN High Commissioner for Refugees and WHO, reported a 
rapid rise in tuberculosis rates, a tripling of mortality in mental 
institutions in less than a year, a drop in immunisations rates, and 
deaths because of a shortage of fuel to transport patients to 
hospital.\18\ Cuba has a highly functional health-care system, but the 
US embargo has nevertheless exacerbated difficulties in importing 
medication. Several drugs became unavailable after the embargo was 
tightened in 1992 when the US government passed the Cuban Democracy 
Act. Since then, the cost of many medical supplies has increased 
because of restrictions placed on medical suppliers. In 1994 there was 
an outbreak of Guillain-Barre syndrome in Havana linked to water 
contaminated with Gampylobacter spp, but chlorination chemicals were 
not available for water purification.\19\
                       health status and poverty
    An important difference between Haiti and countries such as Iraq 
and Cuba is that severe poverty is pervasive in Haiti. The baseline 
economic situation should be taken into account if we are to understand 
the health effects of an economic or aid embargo on a specific country. 
The $146 million in IDB loans that are blocked by the US administration 
are urgently needed. During the past 2 years, we have seen further 
deterioration in regional public health infrastructure and worsening 
health status of patients and people living within and beyond our 
catchrnent area.
    The decline in health status has had an effect on the 80-bed 
hospital we direct in the lower central plateau. With a staff of ten 
Haitian physicians and a large body of community health workers, Zanmi 
Lasante is one of the largest community-based charity hospitals in 
Haiti. Our financial support comes largely from private donors and 
foundations rather than bilateral or multilateral aid from institutions 
such as the IDB.
    In our clinic we have enough staff to receive 35,000 visits per 
year, but in 2002, we saw almost 200,000 ambulatory patients--a more 
than three-fold increase from the previous year. Meanwhile, other 
nearby private and state-run facilities have very few patients; 
although they remain open, they sell or prescribe medications at prices 
that are too high for most people in Haiti, over 80% of whom live in 
poverty.\20\
    We have noted a rise in the number of trauma cases attributable in 
large part to road accidents. The sequelae of accidents are more 
serious than they would be in other settings because patients have to 
travel long distances to receive care, and many need but do not receive 
the care of orthopaedic and trauma surgeons. Malaria also remains a 
major contributor to anaemia, and is the most frequent sole diagnosis 
during the rainy season from May to October. Deaths from this disease 
continue, even though Haiti has not yet registered chloroquine-
resistant cases. Access to care has deteriorated during the present 
embargo and remains the main obstacle in delivery of health-care. 
Poliomyelitis, which was thought to have been eradicated from the 
western hemisphere, has resurfaced on the island.\21\ Whether a wild-
type or vaccine-related strain, poliovirus will continue to spread if 
national vaccination efforts are not supported through ministry 
programmes, since national coverage is imperative. We have also noted 
outbreaks of other infectious diseases such as anthrax, meningitis, and 
drug-resistant tuberculosis.\22\ The degree to which these pathogens 
can be contained will depend largely on the capacity of the public 
health system to respond.
    Outside our hospital's expanding catchment area, there has been an 
overall decline in the population's health during the past 2 years. 
There has also been a notable reduction in availability of potable 
water, especially in Port-au-Prince ($54 million of the blocked IADB 
loan was intended for improvement of water treatment). This situation 
is similar to that seen after the military coup in the early 1990s 
when, in that city, 53% of the population had access to potable water 
in 1990, but this rate fell to 35% in 1994.\10\
                    embargoes and collateral damage
    During the past several years, average life expectancy has dropped 
in Haiti to 49-6 years at birth.\23\ Although the fall cannot be 
attributed directly to the embargo, humanitarian assistance is being 
withheld while the country's health profile is deteriorating. 
Furthermore, aggressive humanitarian aid could have an immediate and 
beneficial effect if it were channelled through institutions with 
national reach--namely, the public health system. Increasingly, 
however, aid has been reduced or directed to non-governmental 
organisations that make only local contributions.
    Even when embargoes are judged to be legitimate, provision of 
humanitarian aid is necessary and consistent with the implementation of 
sanctions and embargoes in other settings. For example, the UN Security 
Council implemented the oil-for-food programme in Iraq to address 
humanitarian needs of the population, irrespective of changes in the 
political situation. This programme resulted in a slight improvement in 
child mortality in northern Iraq.\15\ UN agencies and other 
multilateral organisations, therefore, need to provide humanitarian 
assistance to vulnerable populations in Haiti to mitigate the effects 
of the US-advocated aid embargo. Better yet, promised aid should be 
released to Haiti, for these sanctions are in many ways worse than 
those in other countries. In most embargoes (eg, Haiti 1991-94, and 
Iraq), the suffering of ordinary citizens is termed collateral damage, 
an undesired result justified by the greater good of removing the 
target, an unpopular dictatorship. However, when sanctions are levelled 
against an elected government, there is no collateral damage; ordinary 
citizens, who made the ``wrong'' choice at the polls, are the targets. 
Their suffering and the social discord that necessarily ensues seem to 
be the intended result.
    We have seen US aid flow smoothly and generously during the 
Duvalier dictatorship and military juntas that followed. As health care 
providers, we believe that the present embargo enforced during the 
tenure of a democratically elected government is immoral. Such policies 
are both unjust and a cause of great harm to the Haitian population, 
especially to those living in poverty.

Conflict of interest statement
None declared.

Acknowledgments
    We thank Juan Salazar, Laura Tarter, Nicole Gastineau, Brian 
Concannon, and Daniel Baudin for their help in preparation of this 
manuscript; and the medical staff of Zanmi Lasante.
                               references
    \1\ Galbraith KJ. A perfect crime: global inequality. Daedalus 
2002; 131: 11-25.
    \2\ Wilkinson RG. Unhealthy societies: the afflictions of 
inequality. London: Routledge, 1997.
    \3\ Stephenson J. Apocalypse now: HIV/AIDS in Africa exceeds the 
experts' worst predications. JAMA 284: 556-57.
    \4\ Kim JY, Millen JV, Irwin A, Gershman J, eds. Dying for growth: 
global inequality and the health of the poor. Monroe, Maine: Common 
Courage Press, 2000.
    \5\ Farmer P. The uses of Haiti. 2nd edn. Monroe: Common Courage 
Press, 2002.
    \6\ Lawless R. Haiti's bad preas. Rochester: Schenkman Books, 1992: 
56.
    \7\ Hancock G. Lords of poverty: the power, prestige, and 
corruption of the international aid business. New York: Atlantic 
Monthly Press, 1989.
    \8\ National Labor Committee. Haiti after the coup: sweatshop or 
real development. http://www.nlcnet.org/Haiticoup.hrm (accessed Sept. 
17, 2002).
    \9\ Chen L, Berggren G, Castle S, Fitzgerald W, Michaud C, 
Simunovic M. Sanctions in Haiti: crisis in humanitarian action. In: 
Program on human security, working papers series 93-07. Cambridge: 
Harvard University Center for Population and Development Studies, 1993.
    \10\ Chelala C. Letter from Haiti: fighting for survival. BMJ 1994; 
309: 525-26.
    \11\ Gibbons E, Garfield R. The impact of economic sanctions on 
health and human rights in Haiti, 1991-94. Am J Public Health 1999; 89: 
1499-1504.
    \12\ Farmer P. Haiti's lost years: lessons for the Americas. Curr 
Iss Pub Health 1996; 2: 143-51.
    \13\ Pan American Health Organization and WHO. Haiti: Aide 
d'urgence en sante. Geneva: World Health Organization, 1993.
    \14\ Centers for Disease Control and Prevention. Dengue fever among 
US military personnel: Haiti: September-November 1994. MMWR Morb Mortal 
Wkly Rep 1994; 43: 845-48.
    \15\ Garfield R, Devin J, Fausey J. The health impact of economic 
sanctions. Bull NY Acad Med 1995; 72: 454-69.
    \16\ Ali M, Shah IH. Sanctions and childhood mortality in Iraq. 
Lancer 2000; 355: 1851-57.
    \17\ Daponte BO, Garfield R. The effect of economic sanctions on 
the mortality of Iraqi children prior to the 1991 Persian Gulf War. Am 
J Public Health 2000; 90: 546-52.
    \18\ Black ME. Collapsing health care in Serbia and Montenegro. BMJ 
1993; 307: 1135-37.
    \19\ Barry M. Effect of the US embargo and economic decline on 
health in Cuba. Ann Intern Med 2000; 132: 151-54.
    \20\ Central Intelligence Agency. The world factbook 2001. http://
www.cia.gov/cia/publications/factbook/index.html (accessed Aug. 27, 
2002).
    \21\ Kew O, Morris-Glasgow V, Landaverde M, et. al. Outbreak of 
poliomyelitis in Hispaniola associated with circulating type 1 vaccine-
derived poliovirus. Science 2002; 296: 356-59.
    \22\ Farmer P. Infections and inequalities: the modern plagues. 
Berkeley: University of California Press, 1999.
    \23\ Central Intelligence Agency. The world factbook 2002. http://
www.odci.gov/cia/publications/factbook/geos/ha.html (accessed Jan. 2, 
2003).

    The Chairman. Thank you, Dr. Farmer, for coming all the way 
today for this testimony. It was very important to us and we 
appreciate it.
    Mr. Forester.

    STATEMENT OF STEVEN DAVID FORESTER, ESQ., SENIOR POLICY 
          ADVOCATE, HAITIAN WOMEN OF MIAMI, MIAMI, FL

    Mr. Forester. Thank you, Mr. Chairman and Senators. I first 
want to thank especially Senator Nelson for having focused the 
committee's attention on two of the key points I will focus on: 
our really draconian indefinite detention policies; and on the 
need for Congress to remedy, with a fix-it bill and as 
unfinished business, defects in the Haitian Refugee Immigration 
Fairness Act of 1998 [HRIFA], as a result of which families are 
in deep peril.
    First, there are alternatives to our detention policies. 
National security would be better served by passing Senator 
DeWine's Haiti trade bill. It puts people to work, enables them 
to feed their families, creates hope, and discourages illegal 
immigration and the concommitant diversion of Coast Guard, 
Border Patrol, and detention resources which our country needs 
to fight terror.
    Similarly, meaningful in-country refugee and immigrant 
processing in Port-au-Prince and other towns, and regionally in 
the Dominican Republic and in Bahamas, would provide--as it 
does in Cuba--a regulated means of immigration for a 
predetermined number of persons, and it would act as a safety 
valve against illegal sea voyages and the diversion of our 
Coast Guard and other resources.
    To the same end, we should definitely also include Haitians 
in any guest worker program that may be adopted. I deal in my 
written testimony with that. We should prevent unnecessary 
deportations to ensure the continuing flow, now and in the 
future, of the remittances which--Mr. Chairman and others--you 
have alluded to that are so incredibly important, and vastly 
outweigh foreign aid to Haiti; and remittances on which so many 
Haitians rely for their subsistence.
    We also should find creative ways to make absolutely sure 
that Haiti's people receive the millions in aid that would 
alleviate their suffering; and to make sure, as Dr. Farmer was 
alluding to, that these loans really should be released. 
Conversely, our security is ill-served by unprecedentedly 
harsh, indefinite detention policies which waste our resources, 
divide our communities, and demean our values as people.
    Cuba, ironically, is one of the few countries on our 
government's list of States that sponsor terrorism, but we 
don't detain the Cubans. There is no mass outflow from Cuba. We 
don't detain Cubans, but we do detain indefinitely all arriving 
Haitians. Haiti isn't even on that list of States that sponsor 
terrorism. Haitians fit no terrorist profile, and there is no 
substantiated evidence of any terrorists in Haiti.
    Alternatives like the trade bill and in-country and 
regional refugee and immigrant processing would deter illegal 
departures and render harsh detention practices unnecessary. We 
indefinitely detain, at tremendous expense, Haitian infants, 
children, and mothers--for example, this 3-year-old and her 
mother and sister--for 6 long months, at tremendous expense.
    We detain even Haitians who have won political asylum from 
immigration judges, as about one-quarter of them have. Most 
have been released; but some, as their cases are pending on 
appeal, are still detained. That has never happened before. 
When judges granted bonds, upheld on appeal, the Attorney 
General this spring overruled them across-the-board, and all of 
those people remain detained months later, despite those bonds 
and despite, of course, willing family sponsors.
    For the first time, we are detaining and prosecuting 
Haitian airplane refugees. They have been coming since about 
1981, which ensures their imprisonment back in Haiti under 
life-threatening conditions, because they have the criminal 
alien label when they are deported. They get thrown in those 
prisons.
    Detention means expedited hearings with no or limited 
access to counsel. In December, a few dozen detained Haitians, 
unable to get counsel, were denied asylum and ordered deported 
without counsel in shortened, expedited hearings. It means 
trauma, despair, transfer to locations remote from family and 
legal help. There are people who have been sitting in other 
States for months without legal help. Money for isolation 
cells, but not for adequate attorney visitation space.
    My written testimony documents an unfortunate history of 
discrimination dating back 26 years, but I want to now focus on 
the HRIFA need.
    We are deporting to Haiti the parents of U.S.-born American 
children. These parents own houses and businesses. They work, 
pay taxes, and they have been sending those remittances to 
Haiti that are so crucial. These parents have been here for at 
least 8 years, because HRIFA's eligibility date was pre-1996.
    Most of these people came between 1997 and 1993, so they 
have been here 10 to 15 years. They fled when President Clinton 
was saying, of Haiti's military regime, and it is a quote, 
``They are chopping people's faces off.'' Or they fled in the 
eighties, under prior dictators.
    Their exclusion from HRIFA was an unintended result, 
ironically, of trying to treat Haitians like differently 
situated Nicaraguans who fled over land borders, and who had 
benefited from a more generous bill a year earlier.
    Now, the question, of course, for these U.S.-born children, 
should they wave goodbye as their parents are deported; or 
should they move to Haiti, a land they have never known, giving 
up, of course, the promise of their birthright as Americans? As 
Senator Bob Graham has said, we should do everything possible 
to fulfill our commitment under HRIFA and to keep these 
families from being torn apart.
    Last, HRIFA permits the adjustment--this is the aging-out 
question that I believe was raised earlier--the adjustment to 
permanent residents of the children of approved HRIFA 
applicants. But delays in processing their parents' 
applications have already caused hundreds of children to reach 
the age of 21 and to age out of eligibility.
    More than 3 years after the March 31, 2000, filing deadline 
under HRIFA for principals, nearly 28,000 applications--nearly 
three-quarters of the applications under the 1998 law--still 
remain unadjudicated. At that rate, approvals may take up to 
another decade, and hundreds more will age out and face removal 
proceedings to Haiti, even as their parents are eventually 
approved to remain here. Senators, Haitian Americans live in 
all of your States, and they appeal to your sense of right to 
protect these families.
    Before I conclude, if there is still a moment, I would like 
to add something, briefly, because there is something that the 
Secretary on the prior panel mentioned that really cries out to 
be addressed.
    The only rationale for any detention policies--and I would 
like to remind the committee, if I may, that in the late 1990s, 
when our detention policies were much less severe, there was no 
mass outflow from Haiti. How in heaven's name it helps our 
country and deters anyone to detain infants and children for 6 
months, at great expense, is beyond me.
    The Secretary alluded to spikes in outflow in 1991, 1992, 
and 1994, but there was a really glaring omission in that 
testimony. I deal with this in great length in my written 
testimony, which I hope you may allude to. I referred to it 
earlier when I quoted President Clinton as saying they were 
chopping people's faces off back in 1994.
    What happened in 1991, 1992, and 1994, there was a brutal 
coup on September 30, 1991. It was estimated that at least 
3,000 people were murdered. That is why the people were flowing 
out. There has always been a correlation between political 
instability--and here we are talking about the most incredible 
repression one can imagine.
    So perhaps I should leave it at that. I wish to say that 
this idea of a perception question I believe is much overdrawn 
given that reality, that those spikes occurred under conditions 
of persecution and repression that were really immense, and 
that I document in my prepared statement. Thank you.
    [The prepared statement of Mr. Forester follows:]

   Prepared Statement of Steven David Forester, Esq., Senior Policy 
              Advocate, Haitian Women of Miami, Miami, FL

    Senators, there are Haitian-Americans in Indianapolis, Minneapolis 
and all of your states. They are decent, hardworking people with 
families and are concerned about their people and homeland.
    Our detention policy is draconian. There are constructive 
alternatives which better serve our need to deter illegal emigration 
from Haiti. My testimony discusses each of these in turn: the Haiti 
Economic Recovery Act (HERO), S. 489, H.R. 1031; meaningful in-country 
and regional refugee and immigrant processing; and a guest worker 
program. We need to adopt all of these measures.
    But I begin with an issue which has received far too little 
attention recently: \1\ the ongoing and imminent deportations of the 
long-resident parents of U.S.-born American children who don't speak 
Creole and have never been to Haiti.
---------------------------------------------------------------------------
    \1\ Not so in the past. See e.g., ``Haitian Immigrants in U. S. 
Face a Wrenching Choice,'' New York Times (top of front page), March 
29, 2000; ``No room for 5,000 Elians'', San Francisco Chronicle lead 
editorial, April 3, 2000; NBC Nightly New with Tom Brokaw, April 6, 
2000; ABC Evening News, July 4, 2000; ABC's Nightline with Ted Koppel 
(full program entitled ``Equal Justice?''), May 25, 2000; ABC's 
Nightline with Ted Koppel (segment during Miami townhall meeting on 
Elian), April 7, 2000; ``A cruel choice for Haitian parents', Tampa 
Tribune editorial, April 10, 2000; ``Elian's Case Should Shed New Light 
on Haitians' Plight'', op-ed by nationally syndicated columnist Mike 
Harden, Columbus Dispatch, April 12, 2000; ``Haitian parents facing 
deportation fearful for U.S.-born children'', Sun-Sentinel (front page 
of local section), April 16, 2000; Tavis Smiley show, Black 
Entertainment Television (full hour), April 24, 2000; ``Haitian Parents 
of U.S. Kids Deserve to Remain Here Together,'' Miami Herald lead 
editorial, May 4, 2000; ``Protect 5,000 American Children, Don't Deport 
Parents'', op-ed, Miami Herald, May 5, 2000.
---------------------------------------------------------------------------
The Need for a Bill to Remedy Defects in the Haitian Refugee 
        Immigration Fairness Act of 1998 (HRIFA) \2\
---------------------------------------------------------------------------
    \2\ P.L. 105-277.
---------------------------------------------------------------------------
    To begin I must go back to an earlier time, perhaps exemplified by 
something which occurred during a June 15, 1994 hearing of the House 
Judiciary Committee's Subcommittee on International Law, Immigration, 
and Refugees. The hearing concerned how well--or poorly--we were 
screening Haitians for refugee status. Representative Nadler of New 
York, a subcommittee member, had set up on display an extremely 
explicit graphic which he used to cross-examine our government 
officials who testified. It spoke a thousand words.
    It was the photo of the mutilated face of a young Haitian youth 
leader, Omann Desanges, whose case had been well-documented.\3\
---------------------------------------------------------------------------
    \3\ ``How U.S. error sent Haitian to his death,'' Miami Herald, 
April 18, 1994.
---------------------------------------------------------------------------
    Omann's fate is extremely relevant to the tragic dilemma faced by 
hundreds of wonderful American families. Permit me to explain.
    Like hundreds of thousands of his compatriots, Omann had been 
ecstatic during the brief period leading up to the December 1990 
elections and until the September 1991 coup which ousted President 
Aristide. Like him or not--virtuous or flawed--Aristide back then was 
adored by literally millions of Haitians, kind of like JFK, to use a 
very inexact analogy. Haitians all over the country--illiterate or 
not--plastered their homes with his photograph; young people everywhere 
formed youth groups. They met regularly, discussing excitedly all kinds 
of desired local projects, like building roads, etc., things which for 
lack of funds rarely came to fruition. Exiled Haitians love to talk 
politics, but those in Haiti had never been able to speak freely; now, 
for the first time in their lives, euphoric, they could, and they 
``came out of the woodwork'' in support of Aristide's candidacy and 
then during those few months of hope before the coup.
    It was grassroots democracy in action.
    And then came the coup. The military had been there, waiting in the 
wings, and they knew exactly who to target, everywhere, all over the 
country. No one knows how many they killed; some said 3,000, some said 
more. But there was lots of blood. Repression by the Tonton Macoutes 
under Duvalier, and by their various incarnations--``Zenglendo'' was 
one--under the military dictators who followed him in the late 1980's, 
Namphy and Avril, had always been bad; historically Haiti had been a 
kleptocracy, a government by thieves, and the Macoutes and their 
followers, in exchange for supporting the current dictator, had always 
had carte blance to steal, rape and kill vendors and other common poor 
people when they hadn't gotten their way.
    But the post-coup repression was, quite literally, systematic, 
because the military knew exactly who to go after. Thousands of people 
went into hiding and fled any way they could.
    Omann Desanges was one of them. From 1981 to mid-1994, the U.S. 
Coast Guard had been interdicting and repatriating virtually every boat 
person, with the brief exception of the immediate post-coup period, and 
even then it returned two-thirds of them.\4\ Desanges, a simple youth 
leader in his twenties, had managed to get to Guantanamo during that 
brief period, but we erroneously sent him back to Haiti, where after 
hiding for nearly two years, he was found, arrested, tortured and 
killed in the most extreme manner imaginable.
---------------------------------------------------------------------------
    \4\ ``Between 1981 and 1991, the U.S. Coast Guard interdicted and 
forcibly returned only Haitians. During those 10 years, out of 24,558 
interdicted Haitians, INS shipboard screeners allowed only 28 persons 
to pursue their asylum claims in the United States. . . . Those 
Haitians who managed to register asylum claims during the 1980s (the 
time of Duvalier and other dictators) had the lowest asylum approval 
rate of any nationality, 1.8 percent. By contrast, Soviet asylum 
approvals at that time were 74.5 percent.
---------------------------------------------------------------------------
  ``In May 1992, for the first time in our history, the United States 
began forcibly returning interdicted asylum seekers with no screening 
whatsoever--Haitians only. . . .
  ``[In contrast,] from the 1960s to the present, hundreds of thousands 
of Cubans have been paroled in and, after a year, allowed to adjust 
automatically to permanent resident status. . . . the `Guantanamo 
Cubans' were paroled in under much more favorable conditions that the 
Haitians [and] the Haitians not the Cubans--were required to pass a 
`credible fear' screening before being paroled from Guantanamo and--
two-thirds were returned to Haiti. . . .''
  Bill Frelick, Senior Policy Analyst, U.S. Committee for Refugees, 
``Most Favored Refugees?,''Washington Post, April 20, 1998.
    Now for the relevance of his story. Since at least 1981, when 
President Reagan initiated our Coast Guard interdiction and 
repatriation policy, Haitians had been fleeing by air to avoid it. 
Since dictators don't give travel papers to those they want to repress, 
they were obliged to get false papers as the only way to get on the 
airplane. This manner of exit is well recognized in asylum and 
international law and tradition; one of the few persons we made an 
honorary U.S. citizen is Raoul Wallenberg, for helping Jews escape 
Nazi-occupied Hungary with phony identity papers.
    When the Haitians who fled this way arrived at Miami International 
Airport, they invariably gave their real names, disclaimed the document 
and indicated their need for asylum. They were promptly paroled into 
the community, where they got work and formed families, and their 
exclusion and asylum hearings proceeded apace, much like their boat 
person compatriots who, unlike Omann Desanges, had managed to get here.
    Ironically, it is the more bona fide refugee--the soldier sought by 
the military for refusing to shoot unarmed demonstrators, the union 
member shot by the military, the sister of activists slain when 
soldiers invaded their common home--who was forced to flee this way: 
the more real and bona fide the threat of repression, the more suicidal 
it would have been for the person to flee by boat, since the Coast 
Guard, even during the worst periods of repression, was continuing to 
promptly sail interdicted boat persons back to Port au-Prince, handing 
them over on the docks to uniformed and armed soldiers of the Haitian 
military regime we were simultaneously so roundly condemning.\5\
---------------------------------------------------------------------------
    \5\ In 1994 President Clinton accurately said, ``They're chopping 
people's faces off, killing and mutilating innocent civilians, people 
not even directly involved in politics.'' He referred to them in his 
September 1994 television address justifying U.S. intervention. 
Secretary of State Christopher on July 10, 1994 said Haiti's military 
was raping the wives of Aristide supporters, and respected human rights 
groups documented the regime's use of rape as an instrument of 
political terror. Assistant Secretary of State John Shattuck wrote:

        Beginning last summer, politically motivated killings in 
---------------------------------------------------------------------------
      Port-au-Prince rose sharply, . . .

        Human rights abuses have qualitatively and quantitatively 
      worsened in recent months. Soldiers and armed thugs stage 
      almost nightly raids on neighborhoods where many Aristide 
      supporters, live, raping the wives and children of 
      political activists and critics of the regime, abducting 
      young people, and disfiguring victims' faces.

        Raids have been conducted on clergy, fires set in private 
      homes, and the bodies of men shot with their hands tied 
      behind their backs are appearing on the streets of Port-au-
      Prince, part of a new practice designed to terrorize the 
      people.

        A delegation from the IACHR [Inter-American Commission on 
      Human Rights] has identified 133 cases of extrajudicial 
      killings between February and May alone, and attributed 
      full responsibility for those and other atrocities to the 
      de facto authorities, i.e. the military and their 
      supporters. The US government fully shares this conclusion.

        Haiti today presents a picture of brutality and 
      lawlessness--in the unaccountability of the regime and its 
      wide scale violations of human rights. . . .

``Human rights abuses in Haiti worsen,'' op-ed, Miami Herald, July 14, 
1994 (emphases added).
    Another irony: if Omann had been brought here instead of being 
repatriated, he would eventually have been covered by HRIFA; it is only 
his ``airplane refugee'' compatriots, who fled by air to avoid such a 
fate as his, who tragically have been excluded from coverage by an 
ironic, unintended error.
    It is on their behalf--on behalf of their U. S.-born children, 
their families, and on behalf of their extended families in Haiti who 
rely on the remittances they've been sending to them for years--that I 
appeal to this august Committee to support a ``HRIFA fix-it'' bill to 
prevent the deportation of these parents and the destruction of these 
families.
    As HRIFA's champion and your colleague, Senator Bob Graham of 
Florida, said about their plight:

          I was pleased to read your May 4 editorial ``Haitian parents 
        of U.S. kids,'' about a problem that threatens to tear apart 
        innocent families. . . . We shouldn't punish Haitians who fled 
        tyranny and came here seeking refuge, freedom, and justice. To 
        ensure that they have the opportunity to embrace these 
        protections, Congress passed HRIFA in 1998. . . . We should do 
        everything possible to fulfill our commitment and keep families 
        from being torn apart.

Senator Graham, letter to the editor, Miami Herald, May 13, 2000.\6\
---------------------------------------------------------------------------
    \6\ Indeed, HRIFA's intent and purpose was to end ``two decades of 
discrimination against the Haitians,'' as others of your colleagues 
stated, 144 Cong. Rec. S 13003 (Nov. 12, 1998), and to finally provide 
a semblance of equal treatment to Haitians, following the enactment a 
year earlier, in 1997, of the Nicaraguan Adjustment and Central 
American Relief Act (``NACARA'), from which Haitians had been excluded.

    In South Florida today, they are facing deportation; some have 
already been deported, leaving behind forfeit houses and devastated 
families. An immediate administrative deportation halt is needed to 
protect them pending enactment of a solution to their plight in a HRIFA 
``fix-it'' bill.
    These otherwise-HRIFA-eligible ``airplane refugees'' have been here 
for at least eight years, and most for an average of ten to fifteen 
years. They own houses and businesses, work and pay taxes, send 
remittances to Haiti, and love and support their families.
    What are their U.S.-born American-citizen children to do if their 
parents are deported? These children are the promise and future of 
their communities. They've never been to Haiti and don't speak Creole 
very well if at all; they are going to school here and pursuing their 
young lives. Are they to waive goodbye as their beloved parents are 
deported so that they may remain behind to pursue their birthright to 
the American dream? Or should they voluntarily move to Haiti to join 
their families, forfeiting that birthright and dream, so as to be able 
to grow up with their mothers and fathers? What would each of us do 
faced with such a wrenching and un-American dilemma?
    There is another irony about the airplane people, namely that their 
exclusion from HRIFA was an unintentional consequence of trying to 
treat Haitians like the Nicaraguans who had benefited a year earlier 
from the Nicaraguan Adjustment and Central American Relief Act of 1997 
(NACARA). What happened was that a ``one-size fits all'' approach left 
the Haitian airplane people ``in the lurch.''
    The Nicaraguans had fled Haiti surreptitiously over land borders; 
they hadn't needed to have any papers, so exclusory language in NACARA 
for persons using such papers never mattered to them and has never been 
an issue for them. But the identical exclusion grafted onto HRIFA in an 
attempt to treat the two groups the same has had this devastating 
consequence because of the completely dissimilar geography and Coast 
Guard policies which faced these Haitians back during the coup years 
and earlier.\7\
---------------------------------------------------------------------------
    \7\ NACARA granted residence to Nicaraguans present in the U. S. 
before December 1995. HRIFA restricted eligibility to those paroled in, 
or who had filed for asylum, in both cases before 1996. All of the 
otherwise-eligible Haitian ``airplane refugees'' therefore by 
definition fled Haiti before that date, the vast majority ten to 
fifteen years ago.
---------------------------------------------------------------------------
    The deportation of these persons, and the devastation of the lives 
of their children, unless HRIFA's vitiated purpose is restored in a 
HRIFA ``fix-it'' bill, should haunt us. And it will destabilize Haiti, 
adding more mouths for that country to feed, and depriving many 
extended families of the remittances on which so many rely for 
subsistence.
Deserving Children ``Aging Out'' of HRIFA for whom a ``fix-it'' bill is 
        also needed
    HRIFA provides for the adjustment to legal permanent resident 
status of the children under age 21 of approved HRIFA applicants. But 
according to the GAO, only 9,555 of 37,295 HRIFA applications had been 
approved as of March 31, 2003--three years after HRIFA's March 31, 2000 
filing deadline for principal applicants.\8\
---------------------------------------------------------------------------
    \8\ U.S. General Accounting Office, Subject: Immigration Benefits: 
Ninth Report Required by the Haitian Refugee Immigration Fairness Act 
of 1998, April 21, 2003.
---------------------------------------------------------------------------
    This means that nearly three quarters or 28,000 of the applications 
still remain unadjudicated today, since very few have been finally 
denied, a fact of enormous significance for the minor children of 
eventually successful applicants.
    At that rate, it will take nearly another decade for all of the 
applications to be adjudicated. Hundreds of deserving minor children 
have already reached the age of 21 and therefore ``aged out'' as a 
result of this tardy processing--some have already been placed in 
removal proceedings and all are so threatened \9\--and many hundreds if 
not a few thousand more will ``age out'' and face removal proceedings 
and deportation to Haiti long before their parents' HRIFA applications 
are eventually approved some years from now, unless the problem is 
remedied legislatively.
---------------------------------------------------------------------------
    \9\ Conversations with attorney Michael Ray, Esq., other attorneys, 
and an immigration official, Miami, Florida, July 2003.
---------------------------------------------------------------------------
    These delays are only the latest which contributed to this problem: 
HRIFA did not become law until October 1998, a full year after NACARA; 
applicants had to wait nine months more, to mid-1999, before they could 
begin applying; and final HRIFA rules were not published until 
literally the week before the March 31, 2000 HRIFA filing deadline.
    Unless fixed, the converse of the ``airplane refugee'' dilemma will 
occur: the parents will have obtained legal permanent residence under 
HRIFA, but their ``aged out'' children tragically will be deported.
    There are ways to fix this problem. The Child Status Protection Act 
fixed ``aging out'' problems in other contexts, but not in this one; a 
second reason a HRIFA ``fix-it'' bill is needed is to fix the problem 
in this context.
    Now I wish to turn to the plight of current Haitian migrants and 
refugees.
Current Unprecedentedly Harsh Indefinite Detention Policies
    Our security is disserved by unprecedented and harsh policies which 
waste our resources, divide our communities and demean our values as a 
people. Discrimination against Haitian refugees is nothing new.\10\ But 
today's detention policies violate internationally accepted legal 
norms. And they are unnecessary, given meaningful alternatives--the 
Haiti Economic Recovery Act, ``in-country'' and regional refugee and 
immigrant processing, a guestworker program--each of which would deter 
illegal emigration.
---------------------------------------------------------------------------
    \10\ See footnote 4, supra. Between 1977 and 1991 at least ten 
federal court decisions in class actions described our violations of 
their rights. Haitians were unlawfully denied their statutory and 
treaty rights to a hearing before an immigration judge in exclusion 
proceedings on their claims for political asylum. Sannon v. United 
States, 427 F. Supp. 1270 (S.D.Fla. 1977) vacated and remanded on other 
grounds, 566 F.2d 104 (5th Cir. 1978). They were unlawfully denied 
their right to notice of the procedures that the government intended to 
use against them in exclusion proceedings. Sannon v. United States, 460 
F. Supp. 458 (S.D.Fla. 1978). They were unlawfully denied the right to 
work during the pendency of their asylum claims. National Council of 
Churches v. Egan, No. 79-2959-Civ-WMH (S.D.Fla. 1979). They were 
unlawfully denied access to information to support their asylum claims. 
National Council of Churches v. INS, No. 78-5163-Civ-JLK (S.D.Fla. 
1979). They were unlawfully denied the right to be heard on their 
asylum claims and subjected to a special ``Haitian Program'' designed 
to expeditiously deport them in violation of their basic rights. 
Haitian Refugee Center v. Civiletti, 503 F. Supp. 442 (S.D.Fla. 1980), 
aff'd as modified sub nom. Haitian Refugee Center v. Smith, 676 F.2d 
1023 (5th Cir. Unit B 1982). They were unlawfully denied their right to 
counsel and to fair process in their exclusion hearings by being 
shipped like cattle to remote areas of the country and subjected to a 
``human shell game.'' Louis v. Meissner, 530 F.Supp. 924, 926 (S.D.Fla. 
1981). They were singled out and discriminated against in their 
incarceration where they remained for over one year while being 
subjected to physical abuse and substandard medical care that resulted 
in the suicide of a named plaintiff; a panel opinion described that 
discrimination as ``as stark as that in Gomillion . . . or Yick Wo.'' 
Jean v. Nelson, 711 F.2d 1455, 1489 (11th Cir. 1983). Although the 
Court of Appeals en banc later vacated this decision on the ground that 
Haitians had no constitutional rights, it never disturbed the panel's 
factual findings. Haitians were denied the right to a ``meaningful 
opportunity to be heard'' in the amnesty program. Haitian Refugee 
Center v. Nelson, 694 F.Supp. 864, 879 (S.D.Fla. 1988), affirmed sub. 
nom. McNary v. Haitian Refugee Center, Inc., 498 U. S. 479 (1991). See 
also Haitian Refugee Center, Inc. v. Baker, 789 F.Supp. 1552 (S.D.Fla. 
1991), vacated on jurisdictional grounds, 949 F.2d 1109 (11th Cir. 
1992).
---------------------------------------------------------------------------
    The Attorney General cites ``national security'' to justify the 
practices described below. But Haitian migrants fit no terrorist 
profile, nor is there any substantiated evidence of terrorists in 
Haiti. He argues that Pakistani or other terrorists might try to sneak 
into the U.S. by joining groups of fleeing Haitian boatpersons, but the 
two groups are entirely dissimilar and easily distinguishable, and a 
former CIA head of counter-terrorism has said that Haiti is not a 
favorable environment for suspected terrorists.\11\
---------------------------------------------------------------------------
    \11\ As here, this section relies in part on Florida Immigrant 
Advocacy Center, ``Detention of Haitian Asylum Seekers,'' late May, 
2003.
---------------------------------------------------------------------------
    Ironically Cuba, whose refugees have always received better 
treatment,\12\ is one of only seven countries our government lists as a 
state sponsor of terrorism, but we detain no Cubans and all Haitians--
indefinitely--although Haiti isn't on that list.
---------------------------------------------------------------------------
    \12\ See footnote 4, supra.
---------------------------------------------------------------------------
    Even without the alternatives discussed below, there was no mass 
outflow from Haiti in the late 1990's, when detention of Haitians was 
much less severe; and there is no such outflow from Cuba, whose 
nationals we do not detain.
    Haitian asylum seekers in the Miami District have been 
discriminated against and routinely denied release from detention since 
December 2001.\13\
---------------------------------------------------------------------------
    \13\ Prolonged detention is accompanied by another extreme policy, 
the summary return by the U.S. Coast Guard of interdicted Haitians with 
no routine screening of their asylum claims unless a person loudly and 
explicitly expresses a fear of return (the ``shout test''); while 
Creole interpreters are rare, this is not so for interdicted Cubans and 
Chinese, who are informed of their rights in their native languages.
---------------------------------------------------------------------------
    We indefinitely detain at great expense (at the inappropriately-
named ``Comfort Suites Hotel'') Haitian infants and children and their 
mothers. For example three-year old Cherlande and her mother, Zilia 
Mileus, and Cherlande's 14-year old sister were detained for six long 
months. Children under six years old like Cherlande and adults over 18 
remain confined in their rooms with no access to recreation, 
activities, fresh air or sunshine. There have been as many as six 
persons per room, and the detainees have had to go weeks or even months 
without haircut, change of underclothes, and deodorant. Medical care 
has been inadequate, interpreters often unavailable.
    For the first time we are detaining Haitians even after immigration 
judges have granted them political asylum, while the government is 
appealing their grants.
    When immigration judges last Fall granted bonds to detained 
Haitians after ruling that the person was neither a flight risk \14\ 
nor a threat to the community, the government refused to release any of 
them, appealing every case; when the Board of Immigration Appeals ruled 
favorably this Spring in the lead case, that of 18-year old David 
Joseph, that the government must release those Haitians for whom bonds 
had been set, the Attorney General on April 17, 2003 intervened, 
overruled his own tribunals, and ruled across-the-board that no Haitian 
may bond out of detention, even while conceding that David posed no 
security risk. All of this was unprecedented; months later all of these 
persons remain locked up.\15\
---------------------------------------------------------------------------
    \14\ Recent Executive Office of Immigration Review (EOIR) 
statistics in the Miami district indicate that Haitians have a higher 
than average court appearance rate. See footnote 11, supra.
    \15\ See ``Illegal Aliens Can Be Held Indefinitely, Ashcroft 
Says,'' New York Times, April 26, 2003; ``More Illegal Immigrants Can 
Be Held,'' Washington Post, April 25, 2003.
---------------------------------------------------------------------------
    Our practices in South Florida vis-a-vis current Haitian airplane 
refugees are similarly new, and they imperil lives. Haitians have been 
arriving by air with altered documents since at least 1981, when 
President Reagan initiated our Coast Guard interdiction and 
repatriation policy. As indicated earlier, on arrival at Miami 
International Airport they invariably give their real names, disclaim 
the document, and indicate they want asylum, and until last Fall they 
were not detained but rather promptly paroled into the community, where 
their chances in their asylum hearings were similar to those of their 
boat-person compatriots.
    Last Fall in South Florida we began not only detaining but 
criminally prosecuting them, wasting the resources of federal detention 
officers, federal prosecutors, federal public defenders, and federal 
court personnel. Such detentions and prosecutions jeopardize their 
chances of winning asylum and insure that, on deportation to Haiti--now 
with a ``criminal alien'' label--they will be imprisoned in the abysmal 
and life-threatening conditions which characterize Haiti's prisons--and 
where prisoners may languish indefinitely and die.
    Our indefinite detention policy entails expedited political asylum 
hearings with little or no access to counsel, jeopardizing basic legal 
rights and norms; last December at the Krome detention facility outside 
Miami, a few dozen Haitians were denied asylum and ordered deported 
without counsel in shortened, expedited hearings. It is well documented 
that one's chances of prevailing are vastly better with competent 
counsel able to prepare the case, and many might have won if so 
represented.\16\
---------------------------------------------------------------------------
    \16\ Of about 214 Haitian boat persons caught October 29, 2002 off 
Key Biscayne in Florida, about fifty-three (53)--about one in four--
have won their asylum claims, an unprecedentedly high rate, indicating 
the importance of counsel in these cases.
---------------------------------------------------------------------------
    Trauma and despair are common. There have been at least two Haitian 
suicide attempts at Krome since June of last year. Many of the Haitian 
women detained at the Broward Transitional Center have become anxious 
and despondent.
    When facilities like Krome, which primarily houses non-Haitian 
criminal aliens, are overcrowded, the efforts of pro bono legal service 
providers are rendered more difficult. Overcrowding has resulted in 
regular transfers of asylum seekers to out-of-state county jails far 
from South Florida, where many have family. For example, a Haitian 
woman and her infant child were transferred to rural Pennsylvania after 
arriving by boat in December 2002, where they have been unable to 
secure pro bono legal representation. This increases feelings of 
hopelessness and jeopardizes the Haitians' rights to claim asylum and 
to counsel.
    Thus detaining asylum seekers jeopardizes their rights to counsel 
and to a meaningful hearing on their claims. Their detention as a 
deterrent is illegal under international law: there must be an 
individualized analysis of the need to detain a particular individual; 
when detention is used as a general deterrent, as currently, it is not 
based on such an individualized analysis and violates these 
principles.\17\
---------------------------------------------------------------------------
    \17\ Advisory Opinion, United Nations High Commissioner for 
Refugees, April 15, 2002.
---------------------------------------------------------------------------
    Indicative of misguided priorities re Haitians, recently costly 
state-of-the-art isolation cells were completed at Krome, but no funds 
apparently are available to increase the number of attorney-client 
visitation booths to facilitate the right to counsel, as has been often 
requested. During busy periods attorneys have sometimes had to wait 
hours to see their clients.
    Detention, as indicated earlier, is of questionable efficacy as a 
deterrent. By nationality, more Ecuadorans were interdicted than 
Haitians in fiscal year 2002, and as of about June 1, 2003, the Coast 
Guard had caught more Dominicans than Haitians. Only 1486 Haitians were 
interdicted in fiscal year 2002, which was slightly higher than the 
1391 Haitians interdicted in fiscal year 2001. In January and February 
2002, no Haitians were interdicted, although the indefinite detention 
policy had not yet then been made public; between March and July 2002, 
just after it became public, 628 Haitians were interdicted.
    Now I will discuss three alternatives to the detention policy, 
alternatives which serve our national security goals as well as our 
values.
Alternatives: The Haiti Economic Recovery Act
    Improving conditions in Haiti creates hope, alleviates despair, and 
decreases the likelihood of illegal emigration and the concomitant 
diversion of Coast Guard, Border Patrol and detention resources needed 
to fight terror.
    Haiti is the poorest country in the Americas. 80% live in abject 
poverty, 70% have no formal employment. More than half of her 8.2 
million people are illiterate. Infant mortality is the highest in our 
hemisphere: one in four children under age five are malnourished.
    The trade bill would correct an oversight in U.S. trade law that 
recognized the special needs of Africa's least developed countries but 
not those of our hemiphere's poorest land--Haiti.
    The U.S. generally promotes free trade but maintains very high 
tariffs and restrictions on apparel and textiles. Although the garment 
industry is an ideal ``stepping stone'' industry for undeveloped 
countries--because it is not capital intensive--current U.S. law 
requires Haiti's manufacturers to use cloth--and even yarn--made and 
spun in the U.S. to avoid these prohibitive duties. HERO would relax 
these restrictions, which have impeded the development of Haiti's 
apparel sector and kept factories idle and Haitians unemployed.
    Specifically, HERO would amend the ``Trade and Development Act of 
2000'' to grant duty-free status to Haitian garments made of fabrics or 
yarns from countries with which the U.S. has a free trade or regional 
agreement. It is not a ``handout'' and would enable Haiti to become a 
garment production center, create jobs, improve conditions, and 
discourage emigration.
    HERO would have minimal impact on U.S. jobs and actually encourage 
job transfer from Asia to our hemisphere, including the U.S., because 
most Haitian foreign exchange earnings, unlike in the Far East, are 
used to buy U.S. products.
    Haitian apparel accounts for only 0.38% of all apparel imports into 
the U.S., and the bill would cap duty-free imports made of fabrics or 
yarns from the designated countries at 1.5 percent growing modestly 
over time to 3.5 percent. The ``Trade and Development Act of 2000'' 
already includes strong safeguards against transshipment of garments 
produced in non-beneficiary countries.
    Since the cap begins at 1.5 percent of all such imports, Haitian 
imports could increase about four-fold to take up the full initial 
quota. Since the cap increases to 3.5 percent, for this number to be 
reached in the future Haitian exports could have to increase ten-fold, 
representing increases in exports from the 2002 value of $216 million 
to an ultimate $2.16 billion, which was the extent of Dominican 
Republic exports to the U.S. in 2002. Expressed differently, employment 
could increase to over 200,000 or approximately 5% of persons of the 
working age in Haiti.
    On the basis expressed by Haitian observers that one formal job in 
Haiti feeds 6 mouths, such employment could conceivably support over 
15% of the entire population.
    Haiti has the capacity to reach these caps. The quality of such 
enterprises is high; there exists good U.S.-educated management with a 
style readily conducive to the formation and continuation of business 
with a few major U.S. companies. The availability of under- and 
unemployed labor combined with the fact that Haitians are hard-working 
and easily trainable means that that there are workers to produce more.
    HERO is a small measure which could lead to important improvements 
in Haitians' lives, giving them hope and decreasing the desperation 
which contributes to illegal emigration. This kind of market-based, 
private sector development is also crucial to promote the growth of the 
Haitian middle class of entrepreneurs, a key ingredient to democratic 
political development.
Alternatives: In-Country and Regional Refugee and Immigrant Processing
    We do not detain arriving Cubans, yet there is no mass outflow from 
that country. One deterrent is the U.S.-Cuba Migration Accord, under 
which up to 20,000 Cubans annually since 1994 have been resettled in 
the U.S. We should have something similar for Haiti.
    A meaningful program in Haiti and regionally would act as a 
``safety valve'' against illegal emigration, thereby preserving our 
resources; and it would learn from the processing lessons of the past 
and present.
    ``In-country'' processing in Haiti in the early 1990's was poorly 
conceived and understaffed. From February 1992 to mid-1994 it rejected 
98% of applicants, denying 76% of them even an interview. A requirement 
that the would-be refugee be ``high profile'' blocked most applicants 
from consideration and ignored the systematic repression of non-
prominent dissidents. Applying was dangerous, especially in the 
program's early days, when the only processing site was located across 
the street from the national headquarters of the Haitian police, easily 
observable by soldiers and paramilitary, who monitored and frequently 
harassed persons seeking access to the processing office.
    But it did offer protection to about 1,500 refugees who were 
allowed to proceed to the U.S. with the help of voluntary agencies with 
expertise in resettlement.
    More effective in-country and regional processing of Haitian 
refugees and of the beneficiaries of immigrant petitions would offer an 
alternative to risky illegal sea voyages. It would also facilitate our 
ability to meet the target goal of 50,000 refugee admissions in FY 
2003, a goal that is currently eluding the resettlement system in the 
face of security issues and other concerns. Inherent in resettlement 
are thorough security clearances before one may proceed to the U.S.
    Many Haitians are in the Dominican Republic and the Bahamas. Both 
countries have expressed concerns about Haitians there, and regional 
processing would alleviate some of these pressures and possibly 
increase the tolerance of their authorities and public for hosting some 
Haitians.
    There is no meaningful refugee protection in either country. In the 
Dominican Republic, Haitians are vulnerable to police harassment; 
children are typically deprived of an education; and families often end 
up homeless and living on the streets of Santo Domingo.
    Past in-country processing in Haiti was hindered by requiring 
multiple in-person interviews in Port-au-Prince and the completion in 
writing of complex application forms, which rendered illiterate 
Haitians virtually ineligible for resettlement. Once a person was 
identified as eligible, there were often long delays before the 
person's actual transfer to the U.S.
    The process was significantly improved when U.S. resettlement 
agencies, known as Joint Voluntary Agencies (JVAs), were used to 
identify potential resettlement candidates and assist in their 
processing. These included the U.S. Conference of Catholic Bishops and 
World Relief. The International Organization for Migration facilitated 
processing in Port-au-Prince.
    Such agencies conducted initial screenings and intakes; assisted 
Haitians in preparing for their actual refugee interviews; helped 
Haitians complete asylum applications (I-589s); and arranged travel for 
those Haitians accepted for resettlement.
    Since that experience, several successful initiatives have 
facilitated resettlement in other parts of the world that build upon 
the expertise of international and local NGOs. In Pakistan, the 
International Rescue Committee has partnered with local NGOs in an 
effort to discreetly identify those Afghan refugees most in need of 
resettlement. In Nairobi, the Hebrew Immigrant Aid Society is working 
with UNHCR, relief agencies and others to identify refugees in the 
region appropriate for resettlement. Working with local NGOs and others 
alleviates the risk of overburdening the system with clearly ineligible 
applicants. Such efforts have precedents in Haiti, where the JVAs 
frequently took referrals from local rights groups.
    Processing sites should be located not only in Port-au-Prince but 
in outlying areas. In the 1990s, processing sites eventually set up by 
the JVAs in Cap Haitien and Les Cayes alleviated the need for 
applicants to make the arduous and often risky trip to the capital to 
access resettlement processing.
    Processing and interview sites might be located in facilities where 
other activities are also taking place and in various locations away 
from government offices.
    A resettlement program in Haiti could take advantage of pilots 
implemented in places such as Pakistan under which Afghan refugees are 
referred for resettlement through NGOs working at the community level.
    Efforts should be made to limit the number of times an applicant 
must appear in-person. In the 1990s about four appearances were 
required before an applicant was accepted or rejected. This was quite 
burdensome to applicants who had to travel each time to the processing 
site.
    To facilitate quick transfer to the U.S., refugee security 
clearances of approved applicants should be prioritized and conducted 
quickly.
    Many of these recommendations would also apply to regional 
resettlement initiatives.
    Significant groundwork has been laid in Africa and other program 
sites through the use of biometric data to address concerns about 
fraud. This can be replicated in Haiti.
    In-country refugee and immigrant processing is available in Cuba, 
not Haiti, although it would act as a significant deterrent to illegal 
emigration from that country. We should implement a meaningful, 
effective and thoughtful program which in a controlled and regulated 
way will simultaneously protect refugees, ease the path of qualified 
beneficiares of immigrant petitions, diminish the incentives for people 
to flee illegally, preserve our Coast Guard and other resources and 
heal community divisiveness by establishing more equal treatment 
between Haitians and Cubans.
    But even if resettlement becomes available, identifying refugees 
interdicted at sea should be facilitated through the assignment of 
Creole speaking officers on Coast Guard vessels that are patrolling off 
Haiti. The officers should at minimum inquire as to whether an 
interdicted Haitian has concerns about returning to Haiti and should 
whenever possible interview each person individually rather than in 
groups, so that a refugee can more comfortably raise concerns about 
returning home. And interdicted Haitians should be informed about the 
availability of in-country processing if they are repatriated.\18\
Alternatives: Include Haitians in a Guestworker Program
    Our vibrant market economy is of course a magnet for desperate 
people seeking economic opportunity. We need not fear this. The pages 
of our history are filled with the stories of ambitious immigrants 
coming here in search of a better life. In turn, their dynamism, hard 
work and fresh perspectives have largely drive our own prosperity and 
freedom. Historically, immigration to the United States has been a 
tremendously successful anti-poverty program--one grounded in freedom 
and opportunity, not handouts and dependency.
    Many Haitians don't wish to immigrate but rather wish to work here 
temporarily to help their families at home and save money for their 
return. This too is good for our country; it is a win-win situation 
while they are here and helps to export our values when they leave. 
Those who return do so with a strong education in how free markets and 
democratic governance work and higher expectations for self-government 
at home.
    I am encouraged by guest worker legislation currently being 
discussed, particularly Senator John Cornyn's Border Security and 
Immigration Reform Act of 2003 (S. 1387) in the Senate and Congressman 
Jim Kolbe, Jeff Flake and Sylvestre Reyes's Land Border Security and 
Immigration Improvement Act in the House. These bills would deflect 
major portions of the flow of illegal entrants and bring millions of 
undocumented workers out from underground and into the legal market. 
Such measures would be humane and economically beneficial and would 
enhance our national security and respect for the rule of law.
    I would urge the members of the Committee to follow the progress of 
these bills and ensure that Haitians are included in them.
Conclusion
    There is an urgent need to introduce and enact a HRIFA ``fix-it'' 
bill to protect deserving individuals and families, including U.S.-born 
children, and to prevent the destruction of families. Our current 
detention policy is unprecedentedly harsh and unnecessary, given its 
lack of efficacy and the existence of appropriate measures which would 
more effectively serve our security goals: HERO, in-country and 
regional refugee and immigrant processing, and a guest worker program.

--------------------
    \18\ Thanks to the Women's Commission for Refugee Women and 
Children for specific ideas regarding appropriate refugee processing.

    The Chairman. If I could just help complete that thought, 
was that true also in 1992 and 1994?
    Mr. Forester. Absolutely.
    The Chairman. Were there conditions there, coups, or 
specific political events in Haiti that you believe were the 
proximate causes for the immigration?
    Mr. Forester. The coup was September 30, 1991. Our 
restoration of President Aristide was in the fall of 1994. At a 
subcommittee hearing in the House at which I testified in 
1994--indicative of how severe the repression was at that time 
and throughout the coups years--Representative Nadler of New 
York had had a blown-up poster made of the mutilated face of 
one of the victims who we had returned from Guantanamo, even 
during the brief period immediately following the coup. We 
returned two-thirds of those people. He was one of them, a 
youth leader.
    To understand how severe that was requires very briefly an 
understanding of what, like him or not, Aristide meant to the 
Haitian people back then. After decades of oppression, finally 
there was an election. For 7 months, whatever it was, people 
came out of the woodwork, euphoric, and joined youth groups; 
illiterate people. They plastered Aristide's photo on their 
houses.
    When the coup occurred, the military knew who to target. In 
the following couple of years, they really systematically did 
this. The State Department, the Secretary of State and others 
at that time, said that. You need not take my word, I am 
quoting from them. So that is what occurred in those 3 years.
    The Chairman. Thank you.
    Dr. Moise.

  STATEMENT OF DR. RUDOLPH MOISE, PRESIDENT AND CEO, HAITIAN 
                BROADCASTING NETWORK, MIAMI, FL

    Dr. Moise. Good morning, Mr. Chairman, members. For the 
record, I would like for the ``Mr.'' before my name in the 
agenda to be changed to ``Dr.'' I am a physician, a Haitian-
American physician in south Florida. I am also an attorney, an 
entrepreneur, and I am also a lieutenant colonel in the United 
States Air Force Reserve, where I serve as flight surgeon for 
the 482nd Fighter Squadron in Florida.
    I would like to thank Senator Nelson and everybody for 
being here, and thank you for the opportunity to talk about 
Haiti. Before I proceed, allow me to say thank you to Dr. Paul 
Farmer as a colleague for going to Haiti to do this great 
medical work. We thank you.
    As was discussed in the first panel, for the past 3 years 
Haiti has been involved in a political, economic, and social 
crisis stemming from the 2002 elections. The OAS has tried 
numerous times to mediate the conflict. Unfortunately, it has 
met with very little success.
    The U.S. policy has been one of benign neglect and 
containment, rather than engagement. It has been hopeful that 
the U.S. process will succeed so we will not have to get 
directly involved. As most Haiti watchers would agree, however 
this policy is wishful thinking, at best; cynical, at worse, 
and simply not acceptable.
    In preparation for this visitation, I traveled to Haiti 
last week and met with several organizations in the civil 
society, the opposition, government, U.S. Embassy staff, the 
private sector, and Haitian Americans. It is without 
exaggeration that I describe the situation as extremely tense 
and desperate, with a high level of frustration. There is a 
general consensus that something must be done now to avoid the 
needless human tragedy.
    A few words on security. The Government of Haiti has had 
numerous opportunities to resolve the situation. Unfortunately, 
it has not done so. The Government of Haiti will argue that, 
due to lack of funds, they were not able to meet some of the 
conditions in Resolution 822. For example, the security force--
Haiti has only a 4,000 police force for a population of 8 
million, as opposed to the Dominican Republic, which has a 
28,000 security or law officer personnel.
    What the Government of Haiti has to understand is that as 
long as the national police is an arm of the government, we 
will always have this problem of political violence. The 
national police should be a professional institution working 
for the security of all citizens.
    This climate of political recriminations and violence has 
caused an increase in violence and human rights abuses. Human 
rights groups such as Amnesty International, Human Rights 
Watch, Committee to Protect Journalists, and the National 
Coalition for Haitian Rights have documented extrajudicial 
killings, arbitrary arrests and detention, violent reactions to 
peaceful demonstrations, and intimidation of journalists, human 
rights activists, members of the political opposition, the 
private sector, and judges, which caused them to flee the 
country in fear of their lives.
    All of you have been familiar with what happens in a 
country that has had a war. Iraq is one of them. All of you are 
also aware of what happens with a country after a natural 
disaster, as what happened with Andrew in south Florida. But 
Haiti has had neither; however, it looks like a war zone. The 
country's infrastructure is almost nonexistent, due partly to 
lack of funds and partly to the bad governance on behalf of 
government.
    We thank the administration which has increased aid for 
AIDS. However, the aid was strictly for humanitarian purposes. 
As of, I guess, September of this year, the amount of funds for 
the economy--part of it has actually been reduced from $3 
million to actually $1 million, so there needs to be a balance.
    In immigration, as Mr. Forester has just described it, 
there is the double standard. Senator Nelson, as a Haitian 
American from Miami and as a member of the United States Air 
Force who swore to fight and defend his nation's ideals of 
equality, freedom, and justice for all, I cannot end this 
testimony without taking the U.S. Government to task for the 
obvious discrepancy and blatant discrimination in the treatment 
of my compatriots.
    Secretary Grossman stated earlier that the detentions will 
deter Haitians from coming to this country. I disagree. 
Haitians are high risk-takers. They may deter a few, but not 
the majority. There is no mass exodus. They are not coming 
right now just because they hope that something positive will 
happen. We will have a mess with this when we have something 
like what Mr. Forester mentioned, like a coups or serious 
political violence. Right now there have been only 1,500 to 
2,000 immigrants a year that have been coming to south Florida.
    Recommendations. This administration has a unique 
opportunity to do what no other administration has done in the 
past: to work with Haitians, Haitian Americans, and the 
international community to assist in Haiti's long-term 
development. It is obvious that a prosperous Haiti is in 
America's--and obviously Florida's--best interests.
    How do we do this? We should first of all get out of the 
current situation. The United States should pressure directly 
all parties to come to the table and remain there until a 
satisfactory compromise has been reached. The deadline for this 
should be October 1, 2003, for obvious reasons. Next year, it 
will be realized to be beyond that issue, so they can start a 
new process.
    The United States should take the leadership in creating an 
international police force composed of OAS, European Union, and 
CARICOM member States to provide a climate of security for 
campaigning and elections.
    No. 2, the United States should be involved in nation-
building in Haiti, strengthening the civil institutions. An 
investment now will cause a great return. From interviewing 
some in Haiti and asking, what will it take for an institution 
to be strengthened? Fifteen to $20 million a year for the next 
10 years would be a great boon for this area.
    Money alone is not enough. I think the United States should 
also help in recruiting Haitian Americans. We have a pool of 
Haitian American professionals with expertise that will also 
help in the rebuilding of Haiti.
    Immigration policy. Mr. Forester had mentioned the 
institution he is with and what it supports. The passing of the 
Haitian Economic Recovery Act should be done this year as a 
gift to the bicentennial. It will create 160,000 jobs in the 
service industry and also in the textile industry, and will 
support approximately 1 million people. It has bilateral 
support. I think it should be passed this year.
    Finally, I would like to say a word about the contribution 
of the Haitian American community in this Nation. Our community 
has produced individuals such as Pierre Richard Prosper, the 
U.S. Ambassador-at-Large for war crimes; Dr. Rose-Marie 
Toussaint, the first African American woman to head a liver 
transplant service in the world; Dumas Simeus, chairman and CEO 
of Simeus Foods International, the largest black-owned business 
in Texas and one of the top in the country; Mario Elie, the 
power guard that helped lead the Houston Rockets to back-to-
back championships in the 1990s; and Edwige Denticat, the 
award-winning author.
    We also have officials in the civil institutions in 
Florida. I hope that in the future we will have one in 
Congress, as well.
    Mr. Chairman, thank you, for the opportunity. I will go to 
any questions.
    [The prepared statement of Dr. Moise follows:]

  Prepared Statement of Dr. Rudolph Moise, President and CEO, Haitian 
                    Broadcasting Network, Miami, FL

                              introduction
    Good morning, Mr. Chairman and Members of the United States Senate 
Foreign Relations Committee. My name is Dr. Rudolph Moise, and I am a 
Haitian-American physician residing in South Florida. I am also an 
attorney, an entrepreneur and a Lieutenant Colonel in the United States 
Air Force Reserve where I serve as a Flight Surgeon for the 482nd 
Fighter Wing in Homestead, Florida. I would like to thank you for the 
opportunity to testify here today before you in this matter of the 
deteriorating political situation in Haiti.
                     overview, context and analysis
    Mr. Chairman and members of the Committee, as you have heard from 
the other distinguished presenters here today, for the past three 
years, Haiti has been gripped by a political, economic and social 
gridlock stemming from flawed elections in May 2000. This crisis has 
wreaked appalling devastation on what is already the poorest nation in 
the Western hemisphere. Although the Organization of American States 
(OAS) has been trying to mediate this conflict and bring about new 
parliamentary elections, the more than 20 negotiation trips made and at 
least three resolutions passed over the last 38 months have met with 
very little success, but rather with the further polarization and 
entrenchment of both sides.
    The United States, through a contradictory policy of neglect and 
containment rather than engagement, has been hopeful that the OAS 
process would succeed so that it would not have to get directly 
involved. As most Haiti watchers would agree, however, this non-policy 
is wishful thinking at best, cynical at worst, and simply untenable. In 
the next few moments, I will offer some thoughts about the most useful 
role that the United States government--prodded by this committee and 
supported by its allocations--can and should play to help bring Haiti 
out of this morass. To contextualize my comments and have a realistic 
sense of the challenge facing Haiti, Haitians and the international 
community, however, I would like to provide the Committee with an 
historical perspective as well as brief overview of the current state 
of affairs in Haiti.
    In preparation for this presentation, I traveled to Haiti last week 
and met with several individuals and organizations, including members 
of civil society, the opposition, government, U.S. Embassy staff, the 
private sector and Haitian Americans. It is not without exaggeration 
that I describe the situation as extremely tense and desperate, with a 
high level of frustration on all sides and a general consensus that 
immediate action must be taken in order to avert a needless human 
tragedy.
Historical Roots of Crisis
    Jean-Bertrand Aristide's Lavalas movement swept Haiti's first 
democratic elections in 1990. The movement was initially a broad-based 
coalition of progressive political parties and grassroots organizations 
from around the country, most of whom had banded together in the anti-
Duvalier movement in the mid 1980s. Much hope was placed on this 
administration to permanently change the repressive and anti-democratic 
traditions practiced by successive Haitian governments. Importantly, 
during the first seven months of this regime, the flow of those trying 
to flee to the United States or elsewhere trickled to almost zero.
    Aristide was deposed on September 30, 1991 in a military-led coup. 
A reign of terror was quickly resumed and, with the help of the well-
organized paramilitary organization FRAPH, the repression of Aristide 
supporters lasted through October 1994. During this time, over 4,000 
Haitians were killed, 300,000 became internal refugees, thousands more 
fled across the border to the Dominican Republic, and more than 60,000 
took to the high seas in search of protection from the rampant human 
rights abuses that were characterized by the UN and OAS as gross and 
systematic violations.
    U.S.-led efforts returned President Aristide to power in October 
1994 to complete his term in office. He quickly abolished the military, 
replacing it with a civilian police force, and hopes ran high, but the 
loose Lavalas coalition soon began to fragment. When Aristide's 
successor, Rene Preval, was elected in the 1995 elections, a divisive 
element had taken hold within the party. One year later, Aristide 
visibly withdrew his support from Preval, and broke off from his own 
Lavalas party (called OPL--Organisation Politique Lavalas) to create a 
new party with a closer faction of supporters, called Lafanmi Lavalas, 
or the Lavalas Family.
    Political turmoil began in earnest early the following year when 
disputes of the 1997 legislative elections erupted between Lafanmi 
Lavalas and OPL. Problems in which unfilled seats in parliament and the 
inability to come to a negotiated settlement resulted in Preval's 
January 1999 decision to rule--unconstitutionally--by decree. This 
action was severely criticized both in Haiti and without as highlighted 
in the U.S. State Department Country Report on Human Rights Practices 
in 1999. In addition, armed groups that began calling themselves 
``popular organizations'' (OP) loyal to Aristide began to stage violent 
protests against the Preval government. Amid the social chaos, the 
Prime Minister resigned, leaving the post unfilled for nearly 18 
months.
    In early 1999, an opposition coalition to both OPL and Lafanmi was 
formed to seek a consensus among the executive branch, certain 
opposition parties and members of civil society about setting up 
elections, although there was still no functioning legislative branch. 
It was called the Espace de Concertation pour Ia Sauvegarde de Ia 
Democratie (Space for Concord for the Safekeeping of Democracy) and 
represented a range of political views, including former Aristide 
proteges.
    These elections--deemed critical to unblocking a three-year old 
stand off--were postponed 5 times due to violence, technical 
ineptitude, sabotage and allegations of tampering and were finally held 
on May 21, 2000. The tension rose with each successive postponement, 
raising the stakes each time. The incidence of electoral violence rose 
at an alarming rate, and most sources recognize at least 15 politically 
motivated assassinations during this time. This statistic does not 
include the numerous other abuses that took place such as 
disappearances, non-fatal shootings, lynchings and the burning down of 
houses, businesses and party offices. Many of the victims were 
outspoken critics of the Lavalas government and on several occasions, 
this abuse took place under the eyes of the police. Although it was 
rare that any group would claim responsibility for these actions, it 
was widely attributed to the so-called popular organizations, or OPs, 
in the name of Lavalas.
    By the time the OAS declared the elections free but not fair 
because the method of tabulation was not done according to regulation, 
a larger and more eclectic political opposition calling itself the 
Convergence Democratique (CD) had formed. Its members included a wide 
range of parties across the political spectrum, all in opposition to 
the tally of the vote in the May elections, and they boycotted the 
presidential elections held in November 2000, which brought President 
Aristide to power for a second time. Their criticism of the Lavalas 
party and its leaders intensified during this period as did the 
backlash from sectors close to the government.
    On February 7, 2001, when President Aristide was sworn into office, 
the Convergence made a public declaration that they would not accept 
the election of Aristide since the previous elections had not been 
resolved, and declared that they were naming a parallel president to a 
parallel government. Since then, government and opposition have been 
locked in a political stale-mate in which neither side recognizes the 
legitimacy of the other. Both sides have also rebuffed serious 
negotiations despite the intervention of the OAS to settle the dispute.
    The policy of ``zero tolerance'' introduced by President Aristide 
in June 2001, which legitimizes the lynching of delinquents or those 
accused as such, has been used as a pretext for many OPs to threaten 
and harass anyone perceived as a menace to Lavalas. This was taken to 
the extreme on December 17, 2001, the day of the attack on the National 
Palace, branded as a coup attempt by the Aristide government. Less than 
two hours after the attack, around Port-au-Prince and in various 
locations around the country, bands of armed Lavalas supporters, 
occasionally accompanied by elected Lavalas officials, attacked and 
burned down the homes and offices of Convergence party members and 
supporters, attacked journalists and began to force censorship of the 
independent Haitian media reporting these incidents.
    Beginning in November and throughout December 2001, journalists and 
human rights defenders were threatened and attacked on a daily basis. 
One journalist sympathetic to the Convergence named Brignol Lindor was 
lynched and assassinated on December 2nd by a crowd who claimed to be 
getting revenge for an anonymous attack on a Lavalas supporter a few 
days earlier. Shortly afterward, approximately 30 journalists, 
particularly those from radio stations who did not auto-censure their 
broadcasts after the attacks, fled Haiti. In addition, since the 
beginning of 2002, a small number of high profile judges, social and 
political activists have continued to flee Haiti as pressure, 
harassment and attacks against person, family and property continue.
    Following an investigation of the December 17th attack by the 
Inter-American Commission for Human Rights of the OAS, a report was 
issued on July 1st, 2002, which concluded that the attack was not a 
coup attempt and that the violent mobs had to have had advance 
knowledge of what was expected of them in order to retaliate in such a 
manner.
    On September 4, 2002, the OAS unanimously agreed to Resolution 822 
as a roadmap for resolving Haiti's political impasse. It called for new 
elections, disarmament, increased security, and normalization of 
economic relations between Haiti and the international financial 
institutions such as the Inter-American Development Bank (IDB) and 
reparations to the victims of the December 17th attacks.
    The resolution and the OAS Special Mission attempting to assist in 
implementing it on the ground in Haiti have had little success. Only a 
few of the conditions have been met by the government (reparations for 
the damages caused by pro government groups against properties of 
members belonging to the opposition). The other key conditions--the 
arrest of Amiot Metayer, a gang leader, criminal and supporter of 
President Aristide; progress on the professionalization of the Haitian 
National Police; a meaningful campaign to disarm gangs and other 
illegal groups--have witnessed only cosmetic attempts with President 
Aristide regularly missing opportunities to fulfill his promises.
    It takes two to tango, however, and the opposition has, in some 
regards, been equally as intransigent, often pursuing an agenda that 
speaks to dialogue while remaining committed to seeing President 
Aristide removed from office. One example of this doublespeak is the 
CD's agreement to work for elections but refusal to cooperate in 
contributing to the composition of the CEP (provisional electoral 
council). In addition, they sought to commandeer the leadership of 
several massive anti-government demonstrations in recent months. While 
the vast majority of these protests were clearly driven by the general 
dissatisfaction of the populace at the country's deteriorating 
conditions, much of the government's opposition seized on this trend to 
declare that the protests were in support of their efforts and 
vigorously renewed their calls for the ouster of President Aristide. 
This needless politicizing of the Haitian people's very real and valid 
frustrations by both sides over the past three years has only 
exacerbated the situation.
    Recently, there have been indications from the opposition that they 
are truly prepared to get serious about compromise. They have dropped 
their demands for President Aristide's ouster and promise to cooperate 
with negotiations if President Aristide fulfills the requirements of 
OAS Resolution 822, especially regarding the issue of security.
Security, Rule of Law and Human Rights
    When one speaks of violence and a ``climate of insecurity'' in 
Haiti, it is important to distinguish between political violence and 
acts perpetrated by the criminal element that exists in any society. 
This is key because the two types of violence have different geneses 
and require different solutions. In other words, a 50,000-person strong 
police force could sharply curtail criminal activity. Numbers alone, 
however, would do nothing to improve the reign of impunity in Haiti and 
might actually serve to further facilitate the repression of human 
rights.
    Haiti currently has a police force of about 4,000 police officers 
for a population of 8 million people. In addition, most of this force 
is concentrated in Port-au-Prince and a couple of other urban centers, 
leaving much of the country with no functioning police presence and 
effectively no rule of law. The security implications of such a paltry 
force are self-evident.
    Beyond the numbers, however, are the pervasive politicization and 
corruption of the Haitian National Police which more often than not 
acts as an arm of the government rather than as an impartial, 
professional institution working for the security of all citizens 
regardless of political affiliation. This has been evident with 
documented cases of police officers attacking anti-government 
protesters at rallies. In addition, the free reign of violent ``popular 
organizations'' (OPs) that claim to act in support of the government 
and Fanmi Lavalas while others who have spoken out against the 
government's policies have been harassed, arrested or killed (with rare 
investigations carried out), calls into question the role of political 
will in determining how police resources are utilized.
    This general climate of political recriminations has, not 
surprisingly, been accompanied by a sharp escalation in violence and 
human rights abuses. Human rights groups such as Amnesty International, 
Human Rights Watch, Committee to Protect Journalists, and the National 
Coalition for Haitian Rights have documented extrajudicial killings; 
arbitrary arrests and detention; violent reactions to peaceful 
demonstrations; and intimidation of journalists, human rights 
activists, members of the political opposition, the private sector and 
the judiciary, with scores of journalists, investigating judges and 
other targets of the government leaving the country for fear of their 
lives. The brutal, Christmas Day assassination attempt on Michele 
Montas, head of Radio Haiti Inter and widow of Jean Dominique, that 
resulted in the death of her bodyguard, Maxime Seide; the continuing 
attacks which forced the indefinite closing of the station; the 
December murders of three brothers in Carrefour in which an 
investigation revealed the involvement of several police officers who 
have yet to be brought to justice; and the sudden resignation and self-
imposed exile of Jean-Robert Faveur, the ex-police chief who has 
accused the Haitian government of interference--are all high-profile 
examples of the endemic nature of the problem.
Social Conditions and Humanitarian Concerns
    The most recent report of the United Nations Development Program 
(UNDP) paints a desperate and bleak picture of a country that, based on 
its human development indices, resembles one that has experienced a war 
or natural disaster, although neither has taken place in Haiti. 
Beginning particularly in the fall, there has been a breathtaking rise 
in the cost of living, with a precipitous decline of the gourde and 
resulting increase in prices of everyday goods and services, such as 
gasoline and public transportation. The country's infrastructure, never 
very strong, has been further weakened by the government's inability--
due partly to lack of funds and partly to bad governance--to develop 
and sustain projects for sanitation, transportation, education and 
health, etc. Dr. Paul Farmer has already spoken (or will speak) 
eloquently about the HIV/AIDS crisis in the country. And the United 
States is preparing for a looming humanitarian crisis in Haiti by 
already approving an increase of more than $10 million in the budget of 
USAID for food and other emergency humanitarian assistance programs.
Immigration
    Senators, you have heard (or will hear) from Mr. Steve Forester 
about the latest iteration of U.S. immigration policy that treats 
Haitian asylum seekers differently solely on the basis of their 
nationality. As a Haitian-American from Miami, however, and as a member 
of the U.S. Air Force who is sworn to fight for and defend this 
nation's ideals of equality, freedom and justice for all, I cannot 
conduct this testimony without noting the obvious discrepancy and 
blatant discrimination of the treatment of my compatriots.
    Since December 2001, U.S. immigration officials have applied a 
policy of mandatory detention to Haitian asylum seekers with evolving 
justifications, beginning first with a desire to 1) ``save Haitian 
lives'' by deterring them from getting on the high seas then 2) to 
avert a ``mass exodus'' and now 3) the latest Attorney General decision 
in April citing national security concerns with the reference of Haiti 
serving as a staging ground for third-county nationals, such as 
Pakistanis. The various rationales cannot blunt the ugly truth, 
however, that our government, my government is 1) keeping children and 
mothers and brothers and sons who have been convicted of no crimes 
jailed in degrading conditions for months at a time; 2) subjecting 
individuals to expedited proceedings at which they often have not had a 
chance to consult with an attorney or even received language 
assistance; and 3) deporting asylum seekers--after such sham 
proceedings--back to a country that even the State Department 
acknowledges is gripped by political upheaval and social, violent 
unrest.
    In spite of the country's tenuous political situation and 
subsequent deterioration, however, there is still no evidence to date 
to support the US government's fear of an imminent ``mass exodus.'' The 
number of Haitians interdicted over the past few years has been 
increasing slightly, but it still averages between 1,500 to 2,000 a 
year, according to the Coast Guard's own figures--certainly nothing 
like the tens of thousands in the early 1980s and early 1990s. And 
while from an analytical stand point, the circumstances that spurred 
the earlier waves do not currently exist in Haiti (no formal state 
repression mechanism as under Jean-Claude Duvalier or military coup as 
under General Raoul Cedras), we should all be clear that without a 
rational, consistent and respectful U.S. policy of engagement now, 
conditions in Haiti will eventually demand a much more forceful and 
intense involvement from this country later.
                            recommendations
    Given these challenges, the United States--and this administration 
specifically--has an unprecedented opportunity to do what no other 
administration has successfully been able to do: work with Haitians, 
Haitian-Americans and the international community to contribute 
meaningfully to a holistic, sustainable policy to assist in Haiti's 
long-term development. And while this is clearly the right and moral 
thing to do, it is self-evident why a democratic, stable and prosperous 
Haiti is undeniably in America's--and certainly Florida's--best 
interests. Although this may sound like a monumental task, with the 
United States playing the proper role, it is very achievable.
Meaningful Engagement
    The most constructive action that the U.S. government can take to 
resolve the crisis in Haiti is to pressure directly all parties to come 
to the table and remain there until a satisfactory compromise has been 
reached. To break through the impasse, it will be helpful to consider 
all options, including those suggested by other actors in Haiti, such 
as a power-sharing proposition developed by various sectors--labor, 
business, clergy, etc.--within civil society. This decision should be 
made by October 1.
    The upcoming re-evaluation of the OAS role by the U.S. in September 
will be an important test. But even if there is a determination that 
the OAS is the most appropriate major international body to remain in 
Haiti; direct, high-level, bilateral engagement by the U.S., 
accompanied by a coherent, pragmatic and humane policy, is long-
overdue. This policy should be guided by the goal of first creating a 
climate of security which can lead to unimpeded campaigning and 
legitimate elections. While bringing about such a climate will be 
difficult to achieve, an international police force composed of OAS, 
European Union and CARICOM member states provides the best hope for 
success. Additionally, sufficient resources (financial, human and 
other) need to be provided to the OAS and other institutions to ensure 
that their objectives of strengthening institutions are met this time 
around so that democracy can truly take root and flourish.
Strengthening of Civil Institutions
    Haiti's most endemic problem is the weakness of its institutions, 
which are easy to manipulate, as has been evidenced by the increased 
politicization of the police and judiciary. Beyond professionalizing 
and reforming these government institutions, however, there is an 
important role for civil society institutions to play in building the 
capacity of the populace to hold the government to account and 
participate actively in civic life. While these organizations--business 
associations, peasant cooperatives, human rights organizations, women's 
groups, labor unions, etc.--have enormous potential to bring about 
substantive change and have already started to make an impact, they are 
still quite fragile and will require significant support in order to 
thrive. In the past, the U.S. has only funded political parties (2.4 
millions through USAID) and not civil institutions. An infusion now of 
$15 to $20 million a year over the next 10 years into these groups can 
make a significant difference.
    I want to make it clear, however, that money alone, particularly 
the way that it has been invested in Haiti before, will not solve the 
country's problems. While sufficient financial resources are an 
indispensable ingredient, the United States can and should also 
facilitate the flow of a great amount of technical assistance to Haiti 
by working with Haitian-Americans and other experts to build a cadre of 
competent and skilled Haitian leaders to combat the country's long-
standing ``brain drain'' predicament. Although we send almost $1 
billion dollars annually back to Haiti and are uniquely poised to bring 
much more substantive change to Haiti, the Haitian-American Diaspora's 
potential has never been fully utilized by the international community. 
Given the appropriate structural mechanism and logistical support, 
however, perhaps through the establishment of task forces composed of 
Haitians and Haitian-Americans, the Diaspora can make an extraordinary 
impact not only on the governance of the country but also on its 
economic and social growth. Haitian-American organizations engaged in 
international policy work, such as the National Organization for the 
Advancement of Haitians (NOAH) and the National Coalition for Haitian 
Rights (NCHR) to name two with which I have worked closely, should be 
supported in this work.
Immigration Policy
    As mentioned earlier, the double standard treatment of Haitian 
asylum seekers is simply unacceptable and must end now. My community is 
not asking for special treatment, but for fairness, due process, an 
honest opportunity to make a claim and the respect accorded other 
asylum seekers. A few suggestions for the Committee to consider in 
addressing the plight of these Haitian asylum seekers include: ensuring 
humane conditions for those in detention; directing DHS to adopt 
alternatives to detention, including supervised parole; the possibility 
of in-country refugee processing; regional resettlement and appropriate 
on-board screenings during interdiction.
HERO Act
    The U.S. Congress should pass the Haiti Economic Recovery 
Opportunity (HERO) Act this year. This bill would extend certain 
preferential trade treatment for Haiti in the apparel industry, 
providing an incentive for foreign companies to invest in Haiti and 
allowing companies already in Haiti to expand their operations. In a 
study sponsored by USAID, the impact of this legislation is estimated 
at the creation of approximately 80,000 jobs in the manufacturing 
industry, with an added 80,000 in the service industry. Assuming that 
each employed person has an average of five dependents, this act could 
potentially support approximately I million people.
    The HERO Act enjoys widespread bipartisan support, and if passed 
this year will be a fitting gift to Haiti on the eve of its 
bicentennial.
                               conclusion
    Finally, I would like to say just a little about the Haitian-
American community and its contributions to this nation. Our community 
has produced individuals such as Pierre-Richard Prosper, the U.S. 
Ambassador-at-Large for War Crimes Issues; Dr. Rose-Marie Toussaint, 
the first African-American woman to head a liver transplant service in 
the world; Dumas Simeus, chairman and CEO of the Simeus Foods 
International, the largest black-owned business in Texas and one of the 
top in the country; Mario Elie, the power guard that helped lead the 
Houston Rockets to back-to-back NBA championships in the 1990s; Edwige 
Danticat, the award-winning author.
    We are elected officials--Marie St. Fleur of the Massachusetts 
House of Representatives; Phillip Brutus and Yoelly Roberson of the 
Florida House of Representatives; and Joe Celestin, Mayor of North 
Miami. We are doctors, taxi cab drivers, lawyers, home health aides, 
journalists, entertainers, artists and executives, like the Board Chair 
of the National Coalition for Haitian Rights, Eddy Bayardelle, First 
Vice President for Global Philanthropy at Merrill Lynch. We are a 
people who make an extraordinary impact wherever we land in this 
country, and the local community is enriched for it. On the eve of our 
bicentennial, there is simply no reason that Haiti and Haitians should 
always, always, always be treated with disrespect and disdain by the 
United States government.
    Mr. Chairman, again, I thank you for this opportunity to address 
the Committee today. I look forward to learning of your initiatives as 
a result of this hearing.

    The Chairman. Thank you very much, doctor, for your 
testimony.
    Let me begin by saying that this committee has been 
challenged to try to work with the administration to provide 
more funds for international assistance, for humanitarian 
assistance, for economic development. We have worked in a 
bipartisan way, with substantial support.
    Many of the statements that I have made, which are not 
unique, have pointed out that systematically for many years our 
country cut back its foreign assistance. This trend continued 
without exception throughout the last 10 or 15 years, as we 
have traced it now.
    In this particular budget cycle we have fought for--and 
been successful during the budget process--the restoration of 
even the $1 billion, $150 million that had been clipped out of 
the budget, so that we could have the Millennium Challenge 
Account idea plus other situations. That has been supported by 
the Senate as a whole.
    Our authorization bill for the State Department is in limbo 
for the moment due to other issues that have come before the 
Congress, but I have sought assurance from our leaders, Senator 
Frist and Senator Daschle, that they sincerely believe, as we 
do, that this is important.
    So I ask, in a way, for your advocacy; it is important. 
Clearly, the means for our country to respond more generously--
whether it be in Haiti or elsewhere--are going to be curtailed 
in the event that we are not successful as a matter of national 
policy, so we can be prepared to spend more of our national 
budget in these ways.
    Having said that, Haiti is the focus of the hearing today--
and you have paid tribute, as I do, to Senator Nelson, who has 
brought Haiti before us; and Senator DeWine, in the 
introduction of his HERO Act and other activities, including 
visits to Haiti. Senator Chafee has visited Haiti, as I think 
has been acknowledged.
    Thus there is personal interest on the part of members of 
this committee, as well as of others in the Senate, which will 
sustain, whatever our State Department is prepared to do, or 
whatever we are successful in doing in our legislative 
initiatives.
    I would just ask a couple of technical points.
    Dr. Moise, in your testimony you suggested an international 
police force of sorts. I wonder, first of all, if you could 
please share with us your sense of the sensitivity as to the 
sovereignty of Haiti in accepting such an idea. Theoretically, 
having persons from other nations--for instance, in Iraq now, 
to take a different situation altogether--to provide security 
after the aftermath of that conflict is one idea which the 
international community is entertaining. Yet people are not 
rushing to help unless this may in fact occur. In your 
suggestion, you thought that this might include even those, I 
gather, from the European Union or from other agencies.
    Would this be, as you foresee it, a temporary situation 
providing security up to an election that therefore might be 
seen by Haitians, as well as the international community, as 
free and fair and legitimate? Or can you outline in more detail 
your reasoning for this suggestion?
    Dr. Moise. Mr. Chairman, you have done my job. You have 
answered the question. That was it exactly, to provide a safe 
environment to go to elections.
    Right now, some of the members from the conventions and the 
opposition--they are just afraid to go and participate and 
campaign safely, for fear that they might get killed. So by 
providing an international police force, that will provide the 
environment to do that; not to wait until after the elections, 
but before, starting now, and the elections will be afterwards. 
But this is just on a temporary basis, just for the elections 
to happen.
    The Chairman. Will the Government of Haiti invite this? 
Would it accept this? What is the position of the government 
with regard to these external police officers coming in?
    Dr. Moise. I think that, as I am mentioning, the government 
is limited in terms of resources for national police. I think 
that they will, based on my opinion, welcome such a force on a 
temporary basis to allow for the elections to happen.
    The Chairman. Do you have a thought about this, Dr. Farmer?
    Dr. Farmer. I do. I live in rural Haiti, as you know. I 
have found Haitians to be a very peaceful people. Actually, the 
crime rate in Haiti is quite low compared to Boston--no offense 
to my adopted State.
    But Haiti has clearly expressed its willingness to welcome 
a temporary external police force--the Government of Haiti, in 
fact, has already invited 100 police force members from the 
CARICOM nations. The issue has been funding.
    Also, if I could be permitted just one moment of analysis, 
the modern Haitian army was created in this very city by an act 
of U.S. Congress during the time that we occupied Haiti 
militarily. That army has known no enemy other than the Haitian 
people, in all of the years of its existence. The dissolution 
of the army was, in fact, roundly cheered by the people I serve 
in central Haiti, the poor, who keep voting again and again for 
Aristide.
    Believe me, the members of the Democratic Convergence--the 
opposition--they may fear for their safety, but their fears 
should be what is going to happen in the next election. They 
will certainly be massacred at the polls, meaning by the vote, 
and they are going to lose again and again. They are not 
popular.
    The police force needs the tools to do its job. There is a 
culture of military violence to change. The Haitian Government 
has integrated the police force with women. The chief of police 
is a woman. The government has as I said, disbanded demobilized 
the army, and it is going to take a long time to build national 
institutions like a police force.
    I heard in this room earlier today, about bad governance in 
Haiti. Bad governance compared to what? To the Duvalier 
kleptocracy that stole hundreds of millions of dollars, that 
had allowed no free press? After the Duvalier governments came 
again, the military juntas whose acts were described by Mr. 
Forester wrecked havoc among the democratic forces--and I 
happened to be living in Haiti at that time, too, and can tell 
you, again, that I am one of the people who was trying to sew 
these people back together.
    So in answer to your question, Mr. Chairman, I think the 
Haitian people are a very hospitable people. They are also very 
proud of their sovereignty. Certainly, as their 200th 
anniversary comes up--making it, again, the second-oldest 
republic in this hemisphere--the subject of police assistance 
has to be broached delicately. But the current Haitian 
Government has certainly been very open, in my view.
    The Chairman. I appreciate that response. I am not 
skeptical or antagonistic to the idea; but it is an unusual 
idea for a sovereign country to have an external police force, 
and the conditions under which that occurs or how it is to 
happen are important.
    You touched upon this Dr. Moise, in an earlier 
recommendation you made. You were talking about the 
negotiations and all the parties coming together, everybody 
around the table. Describe for us again who all ought to be 
around the table. In other words, who are the parties that need 
to come to grips to make a settlement?
    Dr. Moise. I am more than happy to do this. Members of the 
civil society, members of the convergence bodies, members of 
the government should be allowed to be at the table, along with 
OAS and obviously the United States, definitely, as a referee, 
to make sure that things are done the way they are supposed to 
be done.
    The Chairman. Around this table are the parties politically 
in the country, but also the OAS and the United States; and 
from these kinds of negotiations then would come down the road 
specifications of how things are to proceed so that there can 
be elections or improvement in governance, improvement in the 
economy, all of these things?
    Dr. Moise. I would also include some representatives from 
the Haitian American community as well, all that to make sure 
that the progress is done, what is expected from everybody, so 
it can meet the deadline to make things happen.
    The Chairman. Thank you.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman. I am glad our 
colleague, Senator Dodd, has joined us, because he has been a 
guiding light for me on this issue. We have discussed it many 
times. Basically, I have been helping carry your water here 
until you arrived, and I am delighted.
    Let me just say, Dr. Moise and Mr. Forester and Dr. Farmer, 
you all have given just valuable testimony for the record here. 
As you were speaking, I just remember this incredible 
population with a great deal of dignity in one of the worst 
slums that I have ever seen, Cite Soleil. I went there three 
times.
    In the midst of the most deprived conditions, I saw people 
with dignity and pride and orderliness; in the midst of 
enormous poverty, little shacks that were kept, Mr. Chairman, 
immaculate; in the midst of an open running sewer, efforts by 
charities--by our own colleague, Senator DeWine, who has 
generously given to one of the charities--where they are not 
only teaching the kids to read and write, but they are teaching 
the parents of the kids to read and write.
    So, I mean, I was impressed. There is an opportunity, with 
a little help, for a population to pick itself up by the 
bootstraps, if we can break the shackles of this political and 
economic repression that has gone on for years and years and 
years. Dr. Moise testified something as little as $15 million 
to $20 million a year could help Haiti rebuild themselves.
    We are helping the Caribbean through the Caribbean Basin 
Initiative. We helped the African nations more generously 
through that initiative, but Haiti was excluded. So we ought to 
pass Senator DeWine's bill giving them the additional incentive 
to manufacture--since their labor is so cheap--those garments 
and export them.
    Dr. Moise, what do you think about this?
    Dr. Moise. I think this is an excellent idea. As you say, 
the Haitians are a proud people. We are not looking for a 
handout, just an incentive, something to help us move forward. 
So yes, I think that is an excellent idea and we support that.
    Senator Nelson. Mr. Chairman, Haiti has the greatest 
infection rate in the Western Hemisphere of HIV, and yet Haiti 
is making progress. Dr. Farmer, tell us about that. It was a 
Dr. Papp that I talked to in Port-au-Prince. Tell us about 
that.
    Dr. Farmer. Dr. William Pape is a great man. He is Haiti's 
chief AIDS expert. I have mentioned earlier the public-private 
partnership that our two organizations, working with the 
Haitian Government, put together, Mr. Chairman, in order to 
develop one of the first successful proposals to the Global 
Fund to Fight AIDS, Tuberculosis, and Malaria. I would add 
that, according to members of the Technical Review Committee, 
of the 300 applications received, Haiti ranked among the top 
ten in terms of its scientific validity and feasibility.
    Some years ago an explosion of HIV was predicted for Haiti. 
That has not come to pass--again because in recent years 
especially, concerted efforts--largely public-private 
partnerships, such as the one that you saw in Port-au-Prince--
have promoted HIV prevention in addition to the developing 
world's first integrated prevention and care project.
    We have had visitors to our project from across Africa, 
from Asia--imagine coming to a squatter's settlement in central 
Haiti in order to learn how to properly care for people with 
advanced HIV disease. Of course, this is a Haitian-run project, 
and my colleagues are very proud of it. I think it is a model, 
especially for the rest of the developing world.
    What we need to do, if I may be permitted to add--and this 
is something Senator Dodd has said--is to depoliticize aid to 
Haiti. There cannot be all of these ``conditionalities.'' This 
became so ridiculous that, at one point when the World Bank and 
other partner institutions, including our own government, were 
planning a Caribbean Basin AIDS plan, there were zero dollars 
allocated to the one country with 80 percent of the total 
burden of disease in the Caribbean.
    That is absurd. You cannot politicize aid in that manner 
and expect to have good results.
    Senator Nelson. Mr. Chairman, I will conclude by saying 
that we are here invested with our constitutional 
responsibility to look out for the interests of the United 
States. Here is an example where, with a minimum of investment, 
we can so much further the interests of the United States by 
furthering the interests of the people of Haiti.
    The IDB loans that have just been granted--they have not 
materialized yet, they have been announced that they have been 
granted--for potable water, for health care, for education, and 
for roads, the kind of return we will get from that--you can't 
get commerce going if you have to go over those roads that are 
almost impassible. I went to the north end of the island. With 
a little bit of investment, the interests of the United States 
can be served so very, very well.
    Thank you, Mr. Chairman, for having this hearing. The 
Congressional Black Caucus has asked me to enter this in the 
record, and I would ask unanimous consent that their letter on 
this issue be inserted in the record.
    The Chairman. The letter from the caucus will be published 
in full.
    [The letter referred to follows:]

                        United States Congress,    
                        Congressional Black Caucus,
                                        1632 Longworth HOB,
                                     Washington, DC, July 14, 2003.

Hon. Richard G. Lugar, Chairman,
Committee on Foreign Relations,
United States Senate,
SD-450,
Washington, DC.

Hon. Joseph Biden, Ranking Member
Committee on Foreign Relations,
United States Senate,
SD-450,
Washington, DC.

    Dear Chairman Lugar and Ranking Member Biden:

    We are writing to thank you for scheduling a Senate Foreign 
Relations Committee hearing on U.S. policy toward Haiti. We appreciate 
your holding the hearing and look forward to working with you on U.S.-
Haiti policy.
    As you may know, the Congressional Black Caucus (CBC) has had a 
historical relationship with Haiti for more than thirty years. Over the 
past two years, in particular, the CBC has engaged the Bush 
Administration on various aspects of U.S. policy and made a specific 
effort to work with the Administration to delink their de facto 
political sanctions from the disbursement of desperately needed 
economic assistance. Most recently, we were pleased to learn that the 
U.S. Department of the Treasury has worked out an agreement with the 
Haitian Government to pave the way for financial disbursements from one 
of the multilateral development banks. This was made possible when the 
Haitian Government recently concluded an agreement with the 
International Monetary Fund (IMF). Subsequently, Haiti also fulfilled 
its obligations to the Inter-American Development Bank (IDB) by paying 
off its arrears and is now eligible for over $200 million in 
development loans in 2003. Notwithstanding, we remain dismayed that the 
World Bank still does not have representation in Haiti and worse yet, 
does not have any program designed to deliver development assistance in 
the future. We hope that the Committee's hearing will examine the root 
causes of this problem and identify several solutions to help re-engage 
the world's largest development institution with one of the world's 
poorest counties.
    On the political side, we remain very concerned about the Bush 
Administration, and specifically the State Department, over its role at 
the Organization of American States (OAS) and in the bilateral context 
with regards to Haiti. Nearly three years ago, the OAS began to 
facilitate a dialogue between Haitian authorities and the main 
opposition parties based on the need to foster a run-off election to 
replace seven Senators who won seats in parliament under questionable 
balloting circumstances in May, 2000.
    Since that time, the OAS negotiations have drifted into a prolonged 
process where the OAS and its member states, including the U.S., have 
imposed an increasing number of conditions on the parties and, as such, 
have made very little progress toward ending the political stalemate 
that keeps the country in turmoil. This situation has become 
particularly worrisome to the CBC since it appears that the U.S., 
having led much of the effort, continues to favor the non-compliance of 
the opposition. We believe that this unbalanced approach continues to 
signal to the most obdurate parties in Haiti that there is no penalty 
for undermining democracy in the western hemisphere.
    In January 2004, the elected terms of most of the Haitian 
parliament, all of the House of Deputies and one-third of the Senate, 
will expire with no scheduled elections in sight. If an expedited 
process is not created soon, Haiti could meltdown into constitutional 
crisis. We believe that this situation is avoidable if Haiti and the 
international community act together in the next few months to 
establish a Provisional Electoral Council (CEP) and the attendant 
infrastructure to facilitate viable elections. This is a very crucial 
point and one that can have far reaching implications if not addressed.
    We hope, therefore, that this hearing will examine the current 
status of the negotiating process and ways to complete the process 
soon. We also hope that the Committee can identify the primary 
obstacles to getting democracy back on track and methods to hold 
successful elections in the near term and to discuss ideas to return 
balance and equity to U.S.-Haitian policy.
    Lastly, we would like to suggest that your Committee look closely 
at the HIV/AIDS pandemic in Haiti and what President Bush's Global HIV/
AIDS proposal will do to address the spread of the disease in a nation 
that now produces over 90% of all newly infected patients in the entire 
Caribbean. We have been informed by several State Department officials 
that the current U.S. policy is to work only with non-government 
organizations (NGOs) and not through government departments such as the 
Haitian Ministry of Health. We believe this to be poor judgment and a 
policy decision that should be corrected immediately. We do not believe 
that NGOs can replace national governments in building infrastructure, 
training health workers and ensurng nationwide implementation of 
programs.
    To the contrary, many NGOs and other foreign governments are 
working very closely with Haitian government officials with great 
success, and so should our government. For example, it was through a 
public-private partnership that Haiti wrote the HIV/AIDS strategy that 
was submitted to the Global Fund several months ago. Haiti received one 
of the highest commendations for the content of its presentation, and 
subsequently one of the largest first initial installments of funding 
from the Global Fund. The example underscores the need to find ways to 
work with all entities in Haiti to address the myriad of problems that 
keep Haiti in dire needs.
    The Congressional Black Caucus' position on U.S. policy toward 
Haiti is clear: Haiti is a democratic government in our hemisphere, and 
the U.S. should continue to identify ways to work with all parties to 
sustain democracy and to alleviate poverty and misery wherever they 
exist. We should not become an obstacle to progress, peace or 
development. We hope that this hearing will probe these issues and we 
look forward to discussing the results with you at some time in the 
future.
    Thank you again for holding this important hearing. We sincerely 
appreciate it.
            Sincerely,
                                   Elijah E. Cummings,
                                           Chair, CBC.

                                   Barbara Lee,
                                           Co-Chair, CBC Haiti 
                                               Taskforce.

    The Chairman. I'm going to recognize my colleague, Senator 
Dodd.
    Let me mention that there will be, I understand, a rollcall 
vote at 12:15, so we will plan to recess the hearing a few 
minutes before that. I mention that so Senators will know prior 
to that time why we should ask our questions and take advantage 
of the panel, because at that point we will bring the hearing 
to a conclusion.
    Senator Dodd. Thank you very much, Mr. Chairman. My 
apologies to you and the other witnesses for not being here 
earlier. I have a 22-month old daughter; enough said. So this 
morning priorities were elsewhere. I am deeply apologetic to 
the witnesses from the State Department, and also the various 
distinguished panels that have been here. I thank my colleague 
from Florida for his very kind remarks.
    Thank you, Mr. Chairman, for focusing on this subject 
matter and holding a hearing at this level, where your 
involvement and participation says a great deal, again, about 
your leadership of this committee, that you would be here 
yourself and involve yourself in this subject matter.
    Haiti is a small country. But as Senator Nelson has pointed 
out and I'm sure others have made the point during this hearing 
this morning, it is deplorable, to put it mildly, that a nation 
200 miles from our coastline has ranked near the bottom of the 
world for living conditions. The range of problems runs 
literally the gamut. It is hard to know where to begin, the 
problems are so pronounced.
    Mr. Chairman, I ask unanimous consent that this statement 
can be included in the record.
    The Chairman. It will be included in full.
    [The prepared statement of Senator Dodd follows:]

           Prepared Statement of Senator Christopher J. Dodd

    Mr. Chairman, I want to commend you for holding this hearing today 
on the current situation in Haiti. You have invited some very expert 
witnesses this morning who should help the committee members better 
understand what is happening in Haiti today and what we might do about 
it.
    As one who has been an observer of the Haitian situation for some 
time, I am deeply concerned by recent developments in that country. The 
political and economic climate have gone from bad to worse--anyone who 
has visited Haiti in recent years knows what I mean. People living less 
than 200 miles from our shores are desperately poor beyond imagination, 
have life expectancies of less than 50 years, suffer from malaria, 
diarrhea, and even polio, which has reemerged on the island. Haiti 
ranks as one of the lowest on the U.N. survey of living conditions. Out 
of 176 countries ranked by the UN--Haiti was near the bottom of the 
ladder--34th from the bottom.
    Mr. Chairman, Haiti is sinking deeper and deeper into irreversible 
poverty. The extent of the heartache now being endured by the Haitian 
people is simply unspeakable. Their suffering is devastating and it is 
far reaching. In some places there is no potable water, there are no 
sewers, there are no basic medicines on hand to treat disease, no 
medical infrastructure in place to ward off otherwise easily 
preventable diseases.
    As we know from our consideration of the HIV/AIDS legislation, 
Haiti has the highest infection rate in the hemisphere, its people are 
being devastated by this disease and more than 200,000 of its children 
made orphans.
    There are a lot of reasons for the sorry state in which we find 
Haiti today. Clearly the Haitian Government must be a key actor in 
meeting the needs of its people. That it is failing to do so is self-
evident. There are many reasons for that--some are within that 
government's power to address--others are not.
    Frankly, we need to be honest and acknowledge that until very 
recently the United States and other members of the international 
community bore a measure of responsibility for the worsening of 
conditions in that country.
    I am speaking of U.S. decisions to stop all bilateral assistance to 
Haitian Government agencies and to join with other OAS members in 
blocking Haiti's access to InterAmerican Development Bank resources.
    Both have contributed to making a dire situation worse. While it is 
true that the United States is a substantial donor of food to Haiti, 
that is simply a holding pattern to keep people from dying from 
starvation and does little or nothing to address the systemic problems 
confronting the Haitian economy and Haitian institutions.
    I have been extremely critical of the decision by the U.S. and 
others to tie Haiti's access to IDB resources to a political settlement 
of the disputed May 2000 elections, because I thought that was mixing 
apples with oranges.
    The IDB is supposed to be the premier regional development 
institution in this hemisphere, charged with alleviating poverty and 
promoting development.
    It should not have been politicized as was the case with respect to 
Haiti. If there is any country in the region that needs the IDB's help 
more than Haiti, I don't know which country that would be.
     I believe that it should be the people of Haiti who are in the 
forefront of our concerns as we make policy decisions to restrict aid 
resources to that country. At long last, it would appear that the U.S. 
Government and the international community share that view. Haitian 
authorities have reached an agreement with the IMF and have paid off 
the arrears owed to the IDB.
    Next week the president of the InterAmerican Development Bank will 
visit Haiti and sign an agreement with the Aristide government which 
will allow for the quick disbursement of some $35 million in technical 
assistance. Shortly thereafter, an additional $146 million in stalled 
IDB project assistance will be available to help address deficiencies 
in the areas of health, water, roads and education.
    That's good news.
    Finally we seem to have an international strategy for dealing with 
some of the economic challenges confronting Haiti. I would also hope 
that the Bush administration would re-engage with Haitian agencies on a 
bilateral basis as well--particularly in the areas of health and 
security. There is no way that there is going to be any measurable 
improvement in either area unless the U.S. re-engages in these sectors.
    So too the OAS needs to re-engage on the political front. For more 
than two years, I supported the efforts of the OAS Secretary General to 
end the political crisis that is rooted in earlier flawed elections. I 
believe that a proposal tabled last year by Luigi Einaudi, the 
Assistant Secretary General of the OAS, which provides for a series of 
steps leading ultimately to elections, made a great deal of sense. It 
still does.
    The Aristide government supports the OAS plan--some elements of the 
opposition have not. This has caused an impasse. That impasse has meant 
that there has been virtually no progress on the political front. I am 
concerned that lack of progress at some point is going to produce a 
major crisis.
    By the end of this year, the electoral terms of the entire Haitian 
Congress and one-third of the Haitian Senate will have expired. How is 
the Haitian Government supposed to function in the absence of a 
functioning legislature?
    To be kind, the OAS seems to be in a holding pattern. But in Haiti, 
there is no such thing as the status quo. The ongoing political 
stalemate has fostered even greater divisions in Haitian society--
positions continue to harden, making compromise even more difficult 
than it would have been six months ago. I am concerned that neither the 
U.S. administration nor the leadership of the OAS seems to have 
developed a strategy for what is likely to come next in Haiti if OAS 
Resolution 822 is not successfully implemented soon.
    Last month during the OAS annual meetings, Secretary of State Colin 
Powell announced that in September the United States would be reassess 
its support for the OAS efforts, including the OAS mission in Haiti.
    I will be very interested to hear from Secretary Grossman exactly 
what Secretary Powell meant by those words. It is not clear to me that 
either the U.S. administration or the OAS leadership has any game plan 
for helping Haiti resolve the political impasse it finds itself caught 
in--namely wanting and needed to have elections either by the end of 
the year or shortly thereafter--but not being able to get all the 
players to join with the government in those elections.
    Mr. Chairman, the Haitian people are a proud people--they love 
their families and they love their country. Next year, Haiti will 
celebrate its bicentennial anniversary of independence making it the 
second oldest independent nation in our hemisphere. This should be a 
time of joy and celebration. It is not going to be so in the current 
climate of mistrust and insecurity.
    I look forward to hearing from our witnesses this morning what they 
think should be done on the economic and political fronts to address 
the many challenges which confront Haiti so that the upcoming 200th 
Haitian anniversary of independence can be more than a date on the 
calendar.

    Senator Dodd. Let me raise a few questions that I am told 
by Janice O'Connell, my staff person, were not raised, or not 
terribly fully.
    First of all, on the HIV/AIDS issue--again, let me preface 
the comments--and Senator Nelson has set the table well with 
his description of the country and the conditions there. In 
trying to expand the Global AIDS Project to include other 
islands in the Caribbean, we made the point that Guyana and 
Haiti were obviously included.
    Eighty thousand children in the non-designated countries in 
the Caribbean were already orphans. I know my colleagues were 
shocked to hear that that many children in these various other 
countries throughout the Caribbean were living in orphan 
status, and that 500,000 people on these small islands of the 
Caribbean were infected with AIDS, with little or no health 
care.
    To put it in perspective, Haiti has the highest rate of 
HIV/AIDS in the hemisphere, about 6 percent; now probably 
higher than that. Dr. Farmer would know that figure. But 
200,000 are orphans in Haiti. There are 80,000 for the rest of 
the entire region, and 200,000 on half of the island or one-
third of the island of Hispaniola; so you get some sense of it.
    I think you responded to this in part, and to Senator 
Nelson. But just to quickly frame it, if we could, I wasn't 
clear whether or not you thought that these were Haitian 
authorities or nonprofits that were functioning or actively 
engaged in attempting to prevent and treat HIV/AIDS on the 
island.
    Dr. Farmer, is the Haitian Government involved in that, or 
is it really more the nonprofits that come offshore through 
international organizations that are getting the job done?
    Dr. Farmer. First of all, Senator, thank you for the 
question. It is critical that this be addressed explicitly. The 
Haitian Government has definitely been very involved. This is a 
true public-private partnership. That is why it succeeded.
    The chair of the National AIDS Commission is the First 
Lady. She has written and testified extensively on this 
project. She can even tell you the dosing of AZT to prevent 
mother-to-child transmission..
    Senator Dodd. Mrs. Aristide?
    Dr. Farmer. Yes. She is deeply involved in AIDS work in 
Haiti. In fact, when we hosted the first human rights-based 
AIDS conference in rural Haiti 3 years ago--we already had many 
patients on therapy. Mrs. Aristide drove on those deplorable 
roads that Senator Nelson mentioned in order to be there to 
testify along with the patients, people living with HIV.
    So the idea that there is not adequate political will on 
the part of the Haitian Government on AIDS is just not true. 
Dr. Pape would second me very roundly, were he here.
    Furthermore, the Haitian Government has put in investments, 
human investments. That is, they have no money. You missed the 
part about what happened to the national treasury last week: 90 
percent of it went to the IDB. Ninety percent of Haiti's public 
wealth was transferred from Port-au-Prince to Washington last 
week in order to pay arrears that were accumulated in the 
bizarre fashion that you, Senator Dodd, pointed out on the 
Senate floor last year.
    So there is no money in Haiti, but there is political will. 
There is also staff. The government is providing physicians, 
nurses, midwives. We benefit enormously from the Ministry of 
Health and its support. What they are able to give us, we get. 
These are true public-private partnerships, as i said 
previously.
    I have to say, Senator Dodd, that my colleagues and I 
believe this model is the way forward in Africa as well. That 
is one reason why we in Haiti have hosted so many African 
visitors. Haiti, obviously, wants to help its own citizenry, 
but it also wants to help other countries that are behind it in 
progress toward reducing the impact of infectious diseases such 
as AIDS and tuberculosis. And one of the reasons they look to 
Haiti is because of the Haitian Government's considerable 
assistance in this effort.
    Senator Dodd. Two other quick questions in this context.
    Briefly here, what is the United States and the 
international community doing to assist in this effort as well?
    Dr. Farmer. I have to say that I think the future looks 
very bright. The bill passed recently by the Senate to build--
if I could use Senator DeWine's words--a shell of money so we 
can have an architecture, as it were, in order to do the right 
thing. Now we have to make sure that money goes for both 
prevention and treatment of HIV. These have been arbitrarily 
pulled apart by many policy makers. No physician or nurse 
working in this field would agree that you can make this 
artificial distinction between prevention and care.
    When we started treating HIV correctly in Haiti, we saw a 
profound decline overall in the number of hospitalizations, but 
also a sharp rise in people's interest in being tested and 
interest in the subject matter at large. Yet, right now most 
U.S. assistance goes to prevention and monitoring, not to 
treatment.
    Senator Dodd. To what extent is there government-to-
government or agency contacts?
    Dr. Farmer. At this point it is almost nil, unfortunately. 
At this time the government works through groups like ours. And 
that is a mistake.
    Of course, we are grateful for U.S. largesse--as an 
American, I am very grateful but it is a tactical error. As Dr. 
Moise has pointed out, it won't help bring Haiti forward. We 
have to help build these institutions over time by engaging 
directly with the government. It can't just be through groups 
like ours; it has to be through the Ministry of Health and the 
Ministry of Education. They have zero dollars now. What money 
there is, is all going through NGOs and faith-based 
organizations.
    Senator Dodd. I wanted to expand on the point that Senator 
Nelson and you made. I don't know how anyone--despite whatever 
disagreements there are, obviously, on the politics of Haiti, 
holding hostage very sick people is just unbelievable to me. 
This is not my America.
    The disagreements with President Aristide, considering the 
ones that we ought to have with others, are relatively minor. I 
am hopeful they can resolve their political differences. But 
why in the world we are asking innocent civilians in that 
country to pay the price because we are unwilling to share a 
little bit of our largesse with a nation suffering as much as 
Haiti is is beyond me.
    It has gone on way too long. It is more than embarrassing; 
it is mortifying to me. My anger with the IDB has relaxed to 
some degree. But the fact that even that international 
organization would succumb to pressure and deny that kind of 
economic assistance, where the IDB historically has tried to 
stay away from those kinds of pressures, has been terrible. 
They are doing a better job, but it has been terribly 
disappointing.
    Last, I am concerned about the increased violence. It 
didn't get much reporting, but last Saturday there was some 
violence when a civic organization, the Group of 184, as it is 
called, marched through the city of Soleil, the very area my 
colleague described so accurately. This was known as the St. 
Simone under the Duvalier government going back. I have known 
that area for 40 years. I served as a Peace Corps volunteer on 
the border between Haiti and the Dominican Republic. I spent 
time in Haiti. This is as poor an area as you could find 
anywhere in the world.
    This Group of 184 marched into that area and there was 
violence that occurred. This was against the Aristide 
government, the Group of 184. What do you think was the 
intention of this organization? It struck me as being sort of 
like the marching season in northern Ireland, where 
particularly people go and march right through the very 
neighborhoods where you know you are going to have the 
predictable response.
    Why would you possibly do that in one of the poorest 
neighborhoods or barrios in Haiti?
    Dr. Farmer. Since I am the one member who came up here from 
Haiti, I would like to comment on that. I, of course, wasn't 
there; I was doing my own work, which is medical. But my 
response was identical to yours.
    Just for those who are not familiar with the arcane 
vocabulary of Haitian politics, the Group of 184 is seen quite 
correctly and sociologically as the elite: the middle class and 
beyond. I have very little experience as a physician, of 
course, with that population since I live in rural Haiti. 
``Civil society'' is very often a code word in Haiti for the 
elite. There is, of course, with this extreme poverty--I'm sure 
Senator Nelson knows, and I know you have witnessed, Senator 
Dodd--with such grotesque indices of social inequality there 
are quite necessarily conflicts. There is conflict all the 
time.
    I am just amazed at how pacific and thoughtful and kind the 
Haitian people are, and how rarely they do resort to violence, 
given these violent conditions in which they live. That there 
was only a question of rock throwing still astounds me. To walk 
through a neighborhood of the poorest part of town in a way to 
taunt the local people living in the slum--who are, as is well 
known, largely supporters of the elected government--to me it 
is asking for trouble.
    Now, maybe everyone should have the have the right to walk 
through neighborhoods like that. I don't do it in Boston, 
frankly. I don't do it in Los Angeles. I think that there are 
serious problems in all of our cities. The fact that Port-au-
Prince is a city of 2 million people with a tiny police force, 
and still has less violence than one would imagine, is 
astounding to me, and again, another marker of the dignity and 
peaceful nature of the Haitian people.
    Senator Dodd. I have asked questions of all of you.
    Let me ask Mr. Forester or Dr. Moise if they have any 
comments on anything I have raised, or if they would like to 
add to this discussion.
    Dr. Moise. Yes, I do. In correction of what Dr. Farmer 
said, the Group of 184 includes the elite and also others, 
peasant cooperatives and women's groups, as well. It is not 
just elite.
    Senator Dodd. What were they doing marching in the Cite 
Soleil? You know the reaction that that would have.
    Dr. Moise. I believe that peaceful demonstrations can take 
place anywhere in Haiti. The government would argue that this 
is a provocation, but take your pick.
    I would say, based on my conversations when they were 
planning on doing this, this is the fact, that Haiti is Haiti. 
They should be able to have a peaceful demonstration wherever 
they go. That was the opinion.
    Senator Dodd. I don't want to dwell on it.
    Do you think we ought to be lifting the U.S. ban on 
financial aid to Haiti? Should we lift the financial ban on 
economic aid to Haiti, the United States?
    Dr. Moise. Yes. Yes.
    Senator Dodd. What about government-to-government support 
on the HIV/AIDS effort? How about doing that, as well?
    Dr. Moise. Yes, I think we should.
    Senator Dodd. Mr. Forester, any comments?
    Mr. Forester. I concur. I could not have stated it better 
than you did yourself, Senator, and Dr. Farmer. That is my 
personal belief.
    Senator Dodd. I appreciate that.
    Mr. Chairman, I feel very grateful to you for letting me 
have a little extra time. I thank our witnesses. I may have 
some additional questions which I will submit in writing.
    Dr. Moise, I appreciate your candor, as well and your 
expression of views on the subject matter. Hopefully, we can 
break the cycle a bit. As I say, with 200,000 children as 
orphans and a staggering number of people, 6 percent of that 
nation and growing, with HIV, although there has been some 
success.
    I am glad you said that there is some brighter light there. 
You can get awfully depressed about the conditions there, but 
there have been some positive signs that things are moving in a 
better direction. I commend your work there. Thank you, Dr. 
Farmer, for your commitment and that of your colleagues.
    I know many in the archdiocese that I live in in 
Connecticut have dedicated themselves to Haiti, and the Norwich 
Diocese in Connecticut. A very good friend of mine who is a 
dentist who started that clinic on that remote peninsula.
    It is just unbelievable what these people do; and doctors 
in the United States who go down periodically, take turns, 
spend a week or two at a time, and just do remarkable work. 
They rarely get recognition, they don't read their names in the 
press or paper every day, but that is the America I am familiar 
with. While we don't hear about these people very often, I know 
the Haitian people appreciate the efforts of yourselves and 
others.
    I feel hopeful the day will come shortly when we get beyond 
this problem we have with not liking President Aristide and 
realize a lot of people are being hurt as a result of that 
terribly myopic, almost adolescent attitude about a country 
that deserves a lot better. Thank you.
    The Chairman. Thank you very much, Senator Dodd.
    I would express my appreciation again, as you have, for the 
extraordinary testimony we have had. We appreciate each one of 
you coming and being so forthcoming in your responses.
    I appreciate my colleagues and their devotion, really, to 
not only this subject but--likewise Senator Dodd, Senator 
Nelson--to all affairs with regard to our hemisphere. They have 
been persevering. We appreciate these opportunities, really, to 
have colloquy with people who have been there, as you have.
    I appreciate the fact that the hearing has been well 
attended by a public that believes that this is important. We 
appreciate your attendance.
    Having said that, the vote is under way, and the hearing is 
adjourned.
    [Whereupon, at 12:20 p.m., the committee adjourned, to 
reconvene subect to the call of the Chair.]
                              ----------                              


       Responses to Additional Questions Submitted for the Record


Responses of Hon. Marc Grossman, Under Secretary of State for Political 
 Affairs, Department of State, to Additional Questions for the Record 
               Submitted by Senator Joseph R. Biden, Jr.

    Question 1. Secretary Powell recently commented that if the Haitian 
government has not created the security climate necessary for forming a 
credible electoral council by September 2003, ``we should re-evaluate 
the role of the Organization of American States (OAS) in Haiti.'' That 
date is quickly approaching, and I understand that the opposition is 
still not fully committed to establishing a provisional electoral 
council as outlined in Resolution 822.
    How likely is it that the government of Haiti and the opposition 
will have agreed upon an electoral council by September? How does the 
OAS intend to bring the opposition into the process?

    Answer. OAS Resolution 822 provides the means for bringing the 
opposition into the process. It offers a clear guide for resolving the 
political impasse through free and fair elections. The Government of 
Haiti joined consensus at the OAS when Resolution 822 was adopted in 
September 2002. In doing so, it committed itself to a series of steps 
designed to build confidence for the participation of all political 
parties in free and fair elections. Resolution 822 clearly stated what 
these steps were--an end to impunity, disarmament, an independent and 
professional police force, and a climate of security conducive to the 
formation of a credible, neutral, and independent Provisional Electoral 
Council (CEP) as the essential first step toward elections.
    We have made clear to the opposition and civil society that they 
must participate in formation of the CEP when the government takes 
concrete steps in good faith to comply with Resolution 822. Primary 
responsibility for breaking the political impasse must lie with the 
Haitian government. We cannot expect the opposition to participate in 
forming the CEP without government action to establish a climate of 
security, given the numerous acts of repression and intimidation that 
have occurred during the current political crisis.
    The likelihood of agreement by September on forming the CEP will 
depend on the success or failure of the Haitian government in acting to 
establish the necessary climate of security.

    Question 2. What are we, the United States, doing to support the 
creation of an electoral council?

    Answer. The United States supports a Provisional Electoral Council 
(CEP) that is credible, neutral, and independent, formed with the full 
participation of the opposition and civil society. Elections managed by 
any other CEP, most especially one that is formed by the government 
acting alone, will not be considered as free and fair.
    The U.S. and its hemispheric partners in the OAS and Caribbean 
Community (CARICOM) support the formation of a credible CEP by 
insisting on the process laid out in Resolution 822. This process 
requires the Government of Haiti to establish a climate of security as 
the means to generate confidence among the opposition for its full and 
willing participation first in forming the CEP and then in free and 
fair elections. A joint OAS/CARICOM high-level delegation that visited 
Haiti in March, on which the U.S. was represented by Ambassador Otto J. 
Reich in his capacity as Presidential Special Envoy for Western 
Hemisphere Initiatives, delivered a strong message to President 
Aristide about the importance of meeting commitments and laid out a 
series of concrete steps the Government needed to take. The high-level 
delegation urged the opposition and civil society to participate in 
forming the CEP once the Government took these steps.
    The U.S. assists the process established in Resolution 822 by 
continuing to provide political and financial support for the OAS 
Special Mission to Strengthen Democracy in Haiti.
    The OAS Special Mission was formed in January 2002 by agreement 
between the Government of Haiti and the OAS. Its original mandates were 
assistance to the Haitian government in democracy, human rights, 
governance, and security for elections. Resolution 822 expanded the 
role of the Special Mission to include supporting and monitoring the 
efforts of the Haitian government to comply with commitments it made in 
the Resolution. Pursuant to that expanded role, the Special Mission has 
negotiated Terms of Reference for assistance to the government on 
disarmament, electoral security, elections, and creating a professional 
police force.
    The Special Mission, with a staff of only fifteen, has endeavored 
to fulfill its important role with limited financial resources. The 
U.S. has contributed $2.5 million of the approximately $5.3 million 
received to date, with Canada being the other major contributor.

    Question 3. What are the prospects for elections to be held in the 
near future in Haiti?

    Answer. It appears unlikely that elections will be held in 2003, as 
called for in Resolution 822. Under the Haitian constitution, local and 
legislative elections are due to take place in 2004.

    Question 4. Do we know what the costs of [Haiti's] elections will 
be? Do we intend to provide financial assistance for the elections?

    Answer. The U.S. Embassy has estimated the costs of national 
legislative elections in Haiti at $24 to $35 million. Of this, we would 
look to the Haitian government to absorb $8 to $11 million in local 
salaries and operations costs, leaving $16 to $24 million to be 
financed by the international community.
    Whether we would provide financial assistance for the elections 
depends primarily on our having confidence that the elections could be 
free, fair, and credible. The Government of Haiti has yet to take steps 
that would give us such confidence.

    Question 5. The Organization of American States (OAS) has been 
repeatedly frustrated in its efforts to mediate a resolution to Haiti's 
prolonged political dispute since 2000. At the beginning of this year, 
the U.S. delegation to the OAS said that ``. . . time is running out . 
. . My delegation urges the Government of Haiti to act, and to act 
today.'' (Address by U.S. delegation, Jan. 16, 2003.)
    Can you describe the current state of the OAS negotiations efforts 
in Haiti? Do you believe the role of the Organization of American 
States Special Mission in Haiti should be altered in any respect?

    Answer. OAS efforts to mediate a settlement through direct 
negotiations ended in July 2002 when talks between the ruling party 
Fanmi Lavalas (FL) and the opposition coalition Democratic Convergence 
(CD) collapsed. OAS Resolution 822, adopted by consensus with the 
support of Haiti by the OAS Permanent Council in September 2002, 
provides the framework for resolution of the political crisis through 
free and fair elections.
    Resolution 822 expanded the role of the Special Mission to include 
supporting and monitoring the efforts of the Haitian government to 
comply with commitments it made in the Resolution. Pursuant to that 
expanded role, the Special Mission has negotiated Terms of Reference 
for assistance to the government on disarmament, electoral security, 
elections, and creating a professional police force. The Special 
Mission this year is deploying 30 international command-level police 
officers who are attached as observers and advisors to the offices of 
top officials in the Haitian National Police.
    Changes in the role of OAS Special Mission should be considered if, 
as Secretary Powell stated at the OAS General Assembly in June 2003, 
the Haitian government has not by September created a climate of 
security essential to formation of a credible, neutral, and independent 
Provisional Electoral Council (CEP).

    Question 6. Has the Administration set a deadline for Haiti to 
comply with commitments it made to resolve its political crisis under 
Organization of American States' Resolutions 806 and 822? Do these 
resolutions, and the conditions put forth in them, still serve as 
viable tools to addressing Haiti's political and economic crises? Or do 
we need to reevaluate their use?

    Answer. At the OAS General Assembly in June, Secretary Powell said 
that the role of the OAS in Haiti should be reevaluated if by September 
the Government of Haiti (GOH) has not created a climate of security 
essential to formation of a credible, neutral and independent 
Provisional Electoral Council (CEP).
    Resolution 822 laid out a process for resolving the political 
crisis through free and fair elections. It also addressed the economic 
situation by expressing support for normalization of Haiti's relations 
with the International Financial Institutions (IFIs)
    There has been substantial progress in re-establishing normal 
relations with the IFIs. Haiti paid its arrears to the Inter-American 
Development Bank (IDB) on July 8, and IDB loan programs should resume 
in the near future.
    The Administration believes, along with its partners in the OAS and 
the Caribbean Community (CARICOM), that Resolution 822 is the best way 
to resolve the political crisis. The problem is not with the OAS 
process, but with the failure of the GOH to meet its commitments under 
the resolution. The question is whether under these circumstances the 
OAS Special Mission will be able to carry out the ambitious mandates 
the OAS member states have given it.

    Question 7. Talk to me about what the United States' role has been 
in supporting the Organization of American States' mediation efforts. 
Has there been any consideration of forming a ``Group of Friends'' to 
support the organization's efforts, along the lines of a similar group 
which the United States is leading to address Venezuela's political 
impasse?

    Answer. A ``Friends of Haiti'' group already exists. Formed in 
October 2001 by the OAS Secretary General, it consists of OAS member 
states Argentina, Bahamas, Belize, Canada, Chile, Dominican Republic, 
Guatemala, Mexico, the U.S. and Venezuela; and France, Germany, Norway, 
and Spain in their role as OAS Permanent Observers.
    The Friends of Haiti is an informal group advising the Secretary 
General about, and providing support for, activities mandated in OAS 
resolutions. It has functioned effectively in conveying the concerns of 
the OAS and international community to the Haitian government (GOH). 
Friends of Haiti ambassadors meet regularly in Port-au-Prince and have 
conducted joint demarches on the GOH.
    The U.S. also participated in a joint OAS/CARICOM high-level 
delegation that visited Haiti in March of this year. The delegation, 
which included Ambassador Otto J. Reich in his capacity as Presidential 
Special Envoy for Western Hemisphere Initiatives, delivered a strong 
message to President Aristide about the importance of meeting 
commitments and laid out a series of specific steps the Government 
needs to take. The delegation also urged the opposition and civil 
society to participate in forming the CEP once the Government takes 
these steps.

    Question 8. The United States has encouraged the Haitian government 
to introduce a new law prohibiting child trafficking. Yet the Haitian 
Ministry of Social Affairs says it no longer employs monitors to 
oversee the welfare of these children because of lack of funding.
    What resources does Haiti have to enforce a law prohibiting child 
trafficking? Have you seen a willingness on the part of the Haitian 
government to address this issue?

    Answer. Haiti currently has eight monitors--four funded by the 
government, four by an NGO--who staff a hotline to counsel and 
facilitate rescue of child domestics trapped in abusive situations. 
Child domestics who live with the family that employs them number 
between 250,000 and 300,000, according to UNICEF, and constitute by far 
the largest category of trafficked persons in Haiti.
    The Government of Haiti (GOH) has also established a Brigade for 
the Protection of Minors of the Haitian National Police. The U.S. is 
considering a program to assist the new brigade to recognize Haitian 
children who are at-risk of being trafficked and to aid those 
trafficked to be resettled in the community.
    According to the State Department's 2003 Trafficking in Persons 
report, the Government of Haiti is not making significant efforts to 
combat trafficking. While government officials already work with local 
NGOs to resettle trafficked children, in 2002 only about 100 were 
resettled. The GOH passed a law in May to prohibit child trafficking, 
but has no law to prohibit trafficking of adults. The GOH has sponsored 
a seminar series and publicity campaign to discourage trafficking and 
mistreatment of children, but has neither prosecuted child traffickers 
nor enforced laws regulating child domestic labor.
    The U.S. has encouraged the GOH to devote more resources to prevent 
and punish all forms of trafficking in persons. GOH resources are 
limited, but we believe it can increase its antitrafficking efforts by 
re-allocating existing resources.

    Question 9 Does any portion of U.S. aid go to addressing this issue 
through human rights or other social welfare groups in Haiti?

    Answer. Yes. To address trafficking of children, the U.S. in FY 
2002 funded a project for a comprehensive campaign against child 
slavery and trafficking. Campaign components include research, public 
education, coalition-building, supporting passage and enforcement of 
anti-trafficking laws, and monitoring implementation of relevant laws. 
The National Coalition for Haitian Rights (NCHR), in implementing this 
project, published a booklet in 2002 on trafficking of children in 
Haiti for domestic servitude and provided specific recommendations of 
actions that could be taken by the Government of Haiti and other actors 
to eliminate the practice. To date, the GOH has acted on four of the 
NCHR's 11 recommendations.

    Question 10. I understand that the Haitian police force is 
currently only about 3500 men and women for a population of 8 million 
and that Haiti has been required to significantly reform the police and 
judicial systems.
    How is it possible to hold high standards for police and judicial 
reform when we know that Haiti does not have resources to meet those 
reforms and we are not willing to provide financial support to the 
government?

    Answer. The standard to which we are holding Haiti in terms of 
police and judicial reform is one that Haiti itself committed to last 
September when it joined the consensus of the Organization of American 
States in adopting OAS Permanent Council Resolution 822. Haiti 
participated significantly in the drafting of the resolution, and it 
was welcomed by the Government of Haiti at the time. This standard was 
again endorsed in OAS General Assembly Resolution 1959, unanimously 
adopted in June, again with extensive participation of the Government 
of Haiti (GOH).
    The reforms required of the Haitian government are not costly. What 
they require is political will. Resolution 822 clearly states what 
these steps are--an end to impunity; disarmament; and allowing the 
police force to operate professionally, independent of political 
interference, to promote a climate of security conducive to the 
formation of a credible, neutral, and independent Provisional Electoral 
Council (CEP) as the essential first step toward elections.
    A joint OAS/CARICOM high-level delegation, which visited Haiti 
March 19-20, reiterated the need for the GOH to implement Resolution 
822 and laid out specific concrete steps that the GOH could take as 
evidence that it was doing so. Rather than undertaking these steps, the 
GOH has acted in a manner contrary to their intent.
    The international community, including the U.S., is ready to 
support Haiti if it undertakes reforms. But the key to police and 
judicial reform is political will on the part of the Haitian government 
and its leaders.

    Question 11. Are we assisting Haiti in any way--through any non-
governmental or civil society organizations--to bolster public security 
efforts such as police training or support for drug interdiction 
efforts?

    Answer. Yes. The USG assists the Government of Haiti (GOH) to 
bolster public security and drug interdiction efforts in several ways.
    The U.S. is the largest supporter of the OAS Special Mission for 
Strengthening Democracy in Haiti. We have provided $2.5 million of its 
total $5.3 million funding. The Special Mission has worked with the GOH 
on security issues since it arrived in March 2002. In June 2003, the 
Special Mission began providing 30 international police monitors to be 
attached as observers and advisors to the offices of top police 
officials. In addition, the U.S. supports the efforts of the OAS 
InterAmerican Drug Abuse Control Commission (CICAD) to improve the 
capacity of the Haitian Drug Control Commission to oversee 
implementation of Haiti's national anti-drug plan and to coordinate 
with other drug control agencies and NGOs.
    The U.S. cooperates with the Haitian National Police (HNP) on 
counternarcotics pursuant to a Letter of Agreement (LOA) signed May 15, 
2002. U.S. Drug Enforcement Administration (DEA) officers attached to 
the U.S. Embassy work with HNP units with counternarcotics 
responsibilities. DEA vets officers assigned to those units, using 
polygraph testing, to ensure that corrupt officers are removed. DEA 
also organizes joint counternarcotics operations.
    Under the LOA, the State Department has allocated $680,000 in 
funding for counternarcotics support to the HNP. In addition, the USG 
provided $440,000 in FY 2003 to fund military equipment and training to 
support the Haitian Coast Guard, an HNP unit that works with us on 
interdictions both of drug traffickers and illegal migrants.
    Additionally, our Embassy maintains an ongoing dialogue with the 
GOH on counternarcotics issues, provides the GOH an annual list of 
steps it should undertake to demonstrate its cooperation in the fight 
against drug trafficking, and monitors GOH counternarcotics efforts. 
One recent success was the GOH expulsion of a notorious indicted drug 
trafficker to the U.S.

    Question 12. In its annual narcotics certification report, the Bush 
Administration acknowledged two important steps taken by the Aristide 
Administration to combat narcotics trafficking: putting into force a 
bilateral maritime narcotics interdibtion agreement, and establishing a 
financial intelligence unit.
    Talk to me about the bilateral maritime narcotics interdiction 
agreement. What are its principal elements? Has it gone into effect? Is 
it working?

    Answer. The bilateral maritime narcotics interdiction agreement 
entered into force September 5, 2002. The agreement mandates the 
fullest possible cooperation in maritime counternarcotics efforts 
between our two coast guards. It allows for U.S. Coast Guard (USCG) 
vessels to conduct counternarcotics operations in Haitian territorial 
waters with a Haitian Coast Guard (HCG) officer on board or without an 
HCG officer when in pursuit of a suspect vessel and no HCG ship or 
officer is available. USCG may investigate, board, search, and detain a 
suspect vessel, except that searches of Haitian vessels located in the 
Haitian territorial sea are reserved for the HCG or its officers. USCG 
aircraft may also overfly Haitian territory and seas for law 
enforcement operations and relay landing orders to suspect aircraft. 
The HCG is granted reciprocal privileges.
    The agreement also provides that the USCG may board, inspect, 
search, and detain suspect Haitian-flagged vessels beyond Haiti's 
territorial sea without seeking case-by-case approval from the GOH.
    U.S. Coast Guard vessels have acted pursuant to the agreement 
several times since it was put into force, undertaking pursuit into 
Haitian territorial seas and boardings at sea. From the USG 
perspective, the agreement is working very well. The USCG has an 
excellent working relationship with the HCG. The agreement was last 
invoked in June 2003 on the M/V Lady Margo.
    The GOH also signed the Caribbean Regional Maritime Agreement in 
April 2003, which provides a multi-lateral framework for 
counternarcotics cooperation very similar to that established by the 
bilateral agreement. By signing this Agreement, the GOH has taken a 
step toward contributing to a regional approach to combating drug 
smuggling.

    Question 13. What about Haiti's Financial Intelligence Unit? What 
is its purpose? What are its resources, in terms of finances and 
personnel? Is it up and running? When will it begin its work?

    Answer. Haiti's Financial Intelligence Unit (FIU) reports to the 
National Committee for the Fight against Money Laundering, under 
Haiti's Ministry of Justice. It was established pursuant to Haiti's law 
against money laundering, adopted in February 2001, which complies with 
the UN Convention Against Transnational Organized Crime. Its purpose is 
to detect, track, analyze and report suspicious transactions, make 
recommendations for enforcement of money laundering laws in Haiti.
    While the FIU may eventually be functional, and is headed by a 
respected lawyer, it has not yet taken effective action to help 
implement or enforce Haiti's money laundering laws and guidelines. The 
FIU is not yet fully staffed and lacks basic information technology and 
software that would enable it to analyze suspicious activity reports. 
The USG is considering a request to provide such equipment. The FIU 
currently has three professional staff members.
    Even were the FIU to become fully operational, it would not meet 
international standards for FIUs, as currently the FIU must forward its 
analyses to a politically-appointed national committee rather than 
directly to law enforcement agencies for investigation and possible 
prosecution. Unless this situation is rectified, neither the USG FIU, 
nor the other 88 operational FIUs, will share confidential financial 
information with, or respond to requests for information from Haiti's 
FIU.
    Haiti is not considered an offshore financial center, but is a 
country of primary concern for money laundering because of the 
existence of drug trafficking and lax financial controls. Haiti 
recently became a member of the Caribbean Financial Action Task Force. 
The U.S. Embassy will continue to work to help ensure that the FIU 
becomes an effective force against money laundering.

                                 ______
                                 

 Responses of Hon. John B. Taylor, Under Secretary of the Treasury for 
International Affairs, to Additional Questions for the Record Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question 1. As you are aware, the $146 million in Inter-American 
Development Bank loans that have been approved for Haiti have not been 
disbursed for several reasons, including the failure of the Haitian 
Government to meet conditions required by the loans, and Haiti's 
arrears with the lnter-American Development Bank.
    Talk to me about the conditions required for the disbursement of 
the loans. Many of us are concerned with the linkage of these 
conditions and aid that is meant to address the needs of the Haitian 
people. Are the conditions within Haiti's capacity to meet? How many of 
the conditions require financial resources to meet?

    Answer. Loan conditions play an important role in helping to make 
sure that development assistance does address the needs of the Haitian 
people. Prior conditions provide for the adoption of financial controls 
to prevent diversion of funds to other uses.
    Now that Haiti has cleared its arrears to the IDB, loan 
disbursements for the reactivated loans can begin once the Haitian 
Government completes the prior conditions. IDB staff has advised us 
that many prior conditions have been met. The Haitian Government must 
still complete additional technical measures before the first 
disbursement can be made, including:
  <bullet> Provide evidence that the necessary operating regulations 
        for project implementation have come into force.
  <bullet> Designate officials responsible for contract execution.
  <bullet> Provide the Central Project Execution Unit's initial report, 
        implementation plan and current account codes.
  <bullet> Choose experts that will be accountable for account audits.
    IDB staff has advised us that both IDB staff and the Haitian 
Government do not see major obstacles in the government's completion of 
these remaining conditions.
    Haiti must also provide evidence of counterpart funds--the 
government's contribution to the project that supplements the IDB loan 
funds. Experience has shown that the counterpart financing provided by 
the borrowing country is an important incentive for strong country 
ownership of the project, which is needed for successful execution. 
Haiti qualifies for the minimum 10 percent share for counterpart 
financing. The IDB has helped Haiti find a donor to contribute most of 
Haiti's counterpart financing for the roads project and is seeking 
donors to help Haiti with the 10 percent counterpart financing on the 
water, education and health loans. In addition, the IDB has agreed that 
Haiti will provide most of its counterpart financing ``in kind.''
    IDB staff is also working with Haitian authorities to develop 
specific benchmarks to evaluate performance using measures such as the 
number of kilometers of roads constructed, jobs created, increased 
access to services like education and health facilities, and reduced 
transportation costs. Each program will then be closely monitored 
throughout implementation, with future disbursements linked to 
specified benchmarks and regular program auditing. The IDB will work 
with the Government of Haiti to assist it in meeting the agreed loan 
conditions.

    Question 2. Now that Haiti has paid $32 million in arrears to the 
Inter-American Development Bank, as of last week, will the loans be 
disbursed? What else needs to happen for the funds to go forward?

    Answer. Now that Haiti has cleared its arrears to the IDB, the IDB 
has reactivated the four pending project loans. Disbursements will 
begin once Haiti satisfies the remaining prior conditions on the loans 
as discussed above. These requirements are normal technical conditions 
that apply to IDB borrowers. IDB staff believes that Haiti can complete 
the prior conditions in short order and without problems. Once Haiti 
satisfies the prior conditions, IDB will transfer to its country 
representative in Haiti an advance of a portion of the funds for each 
of the project loans. The IDB's country representative will disburse 
funds directly to suppliers to reimburse them for the work performed on 
each project. Project loans disburse over a period of years as work is 
performed on each project and as the Government of Haiti meets the 
defined technical conditions for subsequent disbursements. These 
conditions are used to monitor the implementation of each program and 
will have been agreed upon by both the Government of Haiti and the IDB.

    Question 3. What are we doing to assist in finding a mechanism to 
ensure that the loans are released?

    Answer. Treasury has worked extensively with the IMF and IDB to 
facilitate the reactivation of these loans. Treasury staff has met 
directly with IDB program staff to address concerns and outline a 
framework for moving ahead. Treasury will continue to consult with the 
IDB on the specific measures used to monitor project progress.

                                 ______
                                 

Responses of Dr. Paul Farmer, Presley Professor, Harvard Medical School 
and Medical Director, Clinique Bon Sauveur, Cange, Haiti, to Additional 
   Questions for the Record Submited by Senator Joseph R. Biden, Jr.

    Question 1. I realize that the United States is the largest 
international donor of aid to Haiti, yet I have concerns about our 
policy of providing humanitarian assistance through non-governmental 
organizations, rather than directly to Haiti. I'd like to hear your 
thoughts on this issue.

    Answer. I share these concerns, Senator, even though I am the 
representative of a non-governmental organization. There are many 
reasons to conclude that NGOs cannot function effectively without the 
Haitian public sector, the first of them long experience: I've been 
working in Haiti for 20 years, and I know that the only NGOs able to 
make a difference on a large-scale or ``population'' level are those 
who work closely with the Haitian public sector. Take the AIDS issue 
again. We are very proud of our integrated AIDS prevention and care 
project in central Haiti, but have no hope of making our services 
available to more of those in need of them unless we work with the 
Ministry of Health. And since our group reached, however tardily, this 
conclusion, our work has taken off--to the benefit of all. We have 
already scaled-up these efforts to 3 public clinics with as many more 
in the works.
    There are other reasons to eschew this NGO-only approach. Not a 
single NGO has been elected to do this work; we don't have a mandate 
from the Haitian people, whereas others do have this mandate. Also, 
years of undermining the public sector by the international financial 
institutions and also our own aid structures have had, along with great 
poverty, the expected effects on the governmental institutions--they 
are all cash-poor and lacking the tools necessary to do a good job. We 
could remediate this by insisting that U.S. assistance be channeled 
through Haitian structures. If we do this, other funders will follow 
suit. In due time, the public infrastructures would be strengthened in 
many ways.

    Question 2. What are your recommendations as to how the U.S. aid 
program to Haiti should be structured? Would providing aid directly to 
the government increase or decrease its effectiveness in alleviating 
Haiti's humanitarian crises?

    Answer. My biggest recommendation would be to stop trying to bypass 
the public sector, for the reasons mentioned above. The U.S. might be 
the largest donor to Haiti, but virtually none of our largesse now goes 
through the Haitian public sector. It goes through NGOs, with varied 
motivations, skill sets, and commitments. If you'll pardon the 
expression, we NGOs are a motley crew. There's very little coordination 
and although Haiti's so poor that it's impossible to speak of 
duplication of services, we can certainly refer--with embarassment, if 
we're humble about it--to the extreme lack of coordination between 
NGOs. So in answer to your question, Senator, giving aid directly to 
the Haitian Government would, in my view, be the best way to end the 
humanitarian crisis. Imagine vaccine delivery without the public health 
sector's involvement--if the international community continues to 
isolate Haiti, that's where we're going.

    Question 3. How does providing aid to non-governmental 
organizations impact delivery of medical services, and particularly in 
regards to HIV/AIDS prevention and treatment programs?

    Answer. There's no doubt that NGOs have their place in Haiti and in 
other poor settings where there's a lot of work to do. NGOs have 
certain strengths--a suppleness that public institutions often do not 
have. We can be at the vanguard of some trends, and HIV prevention and 
care programs are a good enough example. But relying wholly on NGOs 
means, ultimately, that services will be fractured and 
``unstandardized.'' NGOs are all over the map in terms of what they 
know how to do. We learned this decades ago with tuberculosis and also 
vaccine-preventable illnesses. We need to learn it very rapidly with 
AIDS.

    Question 4. What role do you see the international community, 
including the international financial institutions, playing in this 
effort?

    Answer. The international community could do a great deal to 
support the renaissance of Haiti, about to celebrate its bicentennial. 
But this would require a significant shift in the rules of engagement. 
As I mentioned in my testimony, money from the international financial 
institutions and also USAID flowed freely into Haiti during the years 
of the Duvalier dictatorships and ensuing military governments. It's 
the democratically elected governments that seem to bother the IFIs. In 
my testimony, I cited the example of the Inter-American Development 
Bank, which for three years blocked already-approved loans for potable 
water, health care, education, and road improvement. Careful study of 
this whole affair leads me to conclude that this was done for political 
reasons rather than the stated ones about arrears. How on earth can 
blocking assistance for water, health care, education, and roads help 
the Haitian people, who so desperately need these things? Our oldest 
neighbors deserve better than this and it's my hope that our country 
will reconsider its own policies and lead the way to a dignified re-
engagement with Haiti that is based on genuine solidarity. That would 
be a first, and welcomed by the majority of Haitians struggling to 
survive.

                                 ______
                                 

   Responses of Steven David Forester, Esq., Senior Policy Adviser, 
    Haitian Women of Miami, to Additional Questions for the Record 
               Submitted by Senator Joseph R. Biden, Jr.

    Question 1. I'd like to address the difference in treatment between 
Cuban and Haitian immigrants whom the Coast Guard intercepts at sea 
(commonly referred to the ``wet foot-dry foot policy'').
    I understand that Cubans and Haitians who do not reach the shore 
are returned to their home countries unless they cite credible fears of 
persecution. Critics of U.S policy maintain that there is a 
significantly greater opportunity for Cubans to demonstrate credible 
fear of persecution than for Haitians; hence, it is ``easier'' for 
Cubans to remain in the United States.
    Can you give us your take on this issue? Is the criticism of U.S. 
immigration policy and procedures valid? What do we have to do in order 
to give just attention to Haitian asylum seekers, without compromising 
U.S. national security interests?
    Furthermore, Cuban immigrants who successfully reach the shore 
(``dry foot'') are generally permitted to stay in the United States and 
adjust under the Cuban Adjustment Act the following year; however, no 
parallel adjustment act exists for Haitians.

    Answer. The criticism is valid. Nothing similar to the Cuban 
Adjustment Act exists for Haitians, and virtually all interdicted 
Haitians are summarily returned. The history of our treatment of 
Haitian refugees is deplorable. Please see my Senate testimony at 
footnote 4, in which I quote respected refugee expert Bill Frelick as 
follows:

          Between 1981 and 1991, the U.S. Coast Guard interdicted and 
        forcibly returned only Haitians. During those 10 years, out of 
        24,558 interdicted Haitians, INS shipboard screeners allowed 
        only 28 persons to pursue their asylum claims in the United 
        States. . . . Those Haitians who managed to register asylum 
        claims during the 1980s (the time of Duvalier and other 
        dictators) had the lowest asylum approval rate of any 
        nationality, 1.8 percent. By contrast, Soviet asylum approvals 
        at that time were 74.5 percent.
          In May 1992, for the first time in our history, the United 
        States began forcibly returning interdicted asylum seekers with 
        no screening whatsoever--Haitians only . . . 
          [In contrast,] from the 1960s to the present, hundreds of 
        thousands of Cubans have been paroled in and, after a year, 
        allowed to adjust automatically to permanent resident status. . 
        . . the ``Guantanarno Cubans'' were paroled in under much more 
        favorable conditions that the Haitians [and] the Haitians not 
        the Cubans--were required to pass a ``credible fear'' screening 
        before being paroled from Guantanamo and . . . two-thirds were 
        returned to Haiti. . . .'' Bill Frelick, Senior Policy Analyst, 
        U. S. Committee for Refugees, ``Most Favored Refugees?,'' 
        Washington Post, April 20, 1998.

    See also footnote 10 of my testimony, in which I cite nine class 
action suits documenting the discrimination over a period of many 
years.
    U.S. policy towards Haiti also disserves U.S. national security 
interests. I suggest in the second half of my testimony three 
measures--enacting the Haiti Economic Recovery Act; in-country and 
regional refugee and immigrant processing; and including Haitians in 
any guestworker program--which would discourage illegal emigration and 
the consequent diversion of U.S. resources by putting people to work 
and/or giving them a ``safety valve''. But the Administration isn't yet 
supporting any of these measures.
    Instead, it is gearing up to deprive desperate Haitians of the only 
support which keeps thousands of them in Haiti. Let me explain.
    Senator Lugar opened the July 15 SFRC hearing on Haiti by stating 
that Haitians in the U.S. send $700 million annually in remittances to 
Haiti. Those monies are crucial to the subsistence of their relatives 
there. Without those remittances hundreds of thousands would be even 
more desperate, and many would take to the sea, further taxing our 
Coast Guard and Border Patrol resources. Preserving the flow of 
remittances should be a primary U. S. interest.
    Instead, as I explain in the first ten pages or so of my SFRC 
testimony on the need for a HRIFA ``fix-it'' bill (through footnote 9), 
the Justice Department is deporting and/or detaining for deportation 
and gearing up to deport Haitian refugees who have been living legally 
in the U.S. for at least eight and most of them for ten to fifteen 
years; who have U.S.-born American-citizen children and dependent 
spouses; who own houses and often businesses; and who--relevantly to 
our national security--send thousands of dollars each year to their 
relatives in Haiti.
    This is morally and politically senseless and possible only because 
of the relative political weakness of the Haitian-American community.
    For example: As I was typing this answer, a Haitian refugee called 
me in response to an appeal I made on a Creole television program a few 
days ago for persons who would benefit from a HRIFA ``fix-it'' bill. 
The caller has lived in the U.S. since 1993 (during the worst 
repression in Haiti), has a dependent wife and two (2) U. S.-born 
children, owns his own house, and sends $150 per month to Haiti on 
which ``seven or eight'' of his relatives depend for their survival. He 
has a final order of deportation.
    If he is deported to Haiti, the United States will add one more 
mouth to feed there and vastly increase the likelihood that those 
``seven or eight'' persons will ``take to the seas'' in desperation, 
causing a concomitant diversion of the Coast Guard and Border Patrol 
resources we need to fight terror. (Not to mention depriving two small 
American children of their father.)
    Multiply this example by a few thousand. What you have is the 
Administration speaking from both sides of its mouth. Our stated 
rationale for our current unprecedentedly draconian detention policy 
towards Haitians (see my testimony following footnote 9)--e.g. 
detaining three-year old little girls and their mothers for six months; 
continuing to detain persons who have been granted political asylum by 
immigration judges while the government appeals their cases, e.g. a 55-
year old man granted asylum in February: all costing the U.S. taxpayer 
tens and hundreds of thousands of dollars in detention costs)--as 
stated at the July 15 SFRC hearing by Under Secretary of State for 
Political Affairs Marc Grossman, is to ``send a message'' to Haitians 
to stay in their country: to prevent the otherwise necessary diversion 
of Coast Guard and Border Patrol resources needed to fight terror.
    But by deporting a few thousand extremely deserving and productive 
long-resident refugees who should have been covered in the first place 
by HRIFA, we will deprive a few tens of thousands of persons still in 
Haiti of one thing which keeps them there: those critical remittances. 
(Not to mention destroying the families of American-citizen children 
who are the future of their communities.)

    Question 2. What would be the ramifications of treating Haitian 
asylum seekers as Cubans are treated? Is this a policy that we should 
consider, given the plight of Haitian immigrants? Or will it encourage 
more Haitians to take to the seas and risk their lives attempting to 
reach the United States?

    Answer. Our U.S.-Cuba Migration Accord enables up to 20,000 Cubans 
annually to come to the U.S. as refugees or the beneficiares of 
immigrant petitions. Having a similar program vis-a-vis Haiti would in 
a controlled and regulated way act as a ``safety valve'' discouraging 
illegal flight by desperate refuges and other deserving immigrants and 
the concomitant diversion of our Coast Guard and other resources. It 
would also do very much to remedy the correct perception that our 
policies vis-a-vis Cuban and Haitian refugees discriminate against the 
Haitians, which exacerbates community tensions.
    Similarly, enacting the Haiti trade bill would put people to work 
and discourage illegal flight.
    There is no indication that our current draconian and unprecedented 
detention policies deter emigrants. Haitians flee Haiti because of the 
desperate political and economic conditions there. Under Secretary 
Grossman cited the years 1991, 1992, and 1994 as supposedly showing 
that emigration increases when our detention policies are laxer. He 
neglected to say--I had the opportunity to correct him during my 
comments--that those were precisely the coup years during which, as 
President Clinton correctly said at the time, ``they're chopping 
people's faces off.'' (My testimony documents at length the systematic 
repression in Haiti during those years as stated by State Department 
officials.) There was no large emigration during the late 1990s, when 
our detention policies were nowhere near as bad as they are now.
    Our Administration's desire to deport a few thousand long-resident 
Haitians who should have been covered by the Haitian Refugee 
Immigration Fairness Act of 1998, and a few thousand other children in 
danger of ``aging out'' of eligibility (see my testimony)--and who 
would be covered by a HRIFA ``fix-it'' bill soon to be introduced at 
least in the House--and its failure to support the Haiti trade bill and 
in-country and regional processing, measures which would serve our 
national security by discouraging illegal emigration, reveal that 
current Administration policies toward Haitians and Haitian refugees 
are inconsistent, shortsighted, wasteful, disserving of national 
security and at minimum disingenuous. They are also immoral and 
threaten the welfare and future of American families and communities.

                                 ______
                                 

Responses of Hon. Marc Grossman, Under Secretary of State for Political 
 Affairs, Department of State, to Additional Questions for the Record 
                Submitted by Senator Russell D. Feingold

    Question 1. Despite efforts by the international community, 
especially by the Organization of American States (OAS), to pressure 
the Aristide government to respect human rights, the human rights 
situation appears only to be deteriorating in Haiti. Just yesterday, 
pro-government demonstrators attacked and injured more that 30 people, 
who were members of an umbrella opposition group that had gathered for 
a meeting. NGOs and government officials accuse the Haitian government 
of extrajudicial killings, organized lynchings by mobs and repression 
of the free media. In addition, the State Department's recently 
released Trafficking in Persons Report states that child trafficking is 
rampant in Haiti and that the government is not making serious efforts 
to eliminate it. What can the United States do to encourage greater 
adherence to human rights by the Aristide government? What are our best 
leverage points for demanding reform?

    Answer. We encourage greater adherence by pursuing a multifaceted 
strategy on human rights. Our strategy focuses on promoting the rule of 
law (especially steps to combat the impunity enjoyed by human rights 
violators), encouraging Government action against trafficking in 
persons, urging the Government to create a secure environment for the 
free exercise of political and civil rights, and increasing local 
capacity to monitor the human rights situation and advocate for change. 
We join with our partners in the Organization of American States (OAS) 
to support the work of the Inter-American Commission on Human Rights, 
whose reports--along with those of the U.N. Special Rapporteur for 
Haiti--heighten international awareness of Haiti's serious human rights 
problems. Our best leverage point for improving human rights in Haiti 
is to remain actively engaged in pursuing all aspects of this strategy.
    The U.S. Embassy in Port-au-Prince has issued frequent public 
statements deploring acts of political intimidation and repression of 
journalists. As a show of support, the Ambassador and other mission 
personnel have personally visited journalists and members of civil 
society against whom acts of intimidation have been perpetrated or 
threatened. We have repeatedly urged the Government to end impunity by 
arresting notorious human rights violators and vigorously prosecuting 
politically-motivated murders. Continuing to send strong messages on 
protecting basic rights will remain a key part of our strategy.
    Ending impunity will help greatly to establish a climate of 
security. With our hemispheric partners in the OAS and Caribbean 
Community (CARICOM), we are insisting that the Haitian government meet 
its commitments under OAS Resolution 822, and are providing political 
and financial support for the OAS Special Mission to Strengthen 
Democracy in Haiti. In addition to ending impunity, Haiti's commitments 
under Resolution 822 include disarming gangs and local officials, 
creating a professional police force that operates free of political 
interference, and fostering national dialogue.
    While we are demanding that the Haitian government fulfill its 
commitments under Resolution 822, we are also working with them on a 
plan to improve efforts to combat trafficking in persons. The plan 
contemplates implementing and expanding Haiti's new anti-TIP 
legislation, investigating and controlling trafficking of women from 
the Dominican Republic into Haiti, and curbing the movement of Haitian 
children into the Dominican Republic.
    We directly support human right groups and journalists through 
U.S.-funded training and technical assistance programs. One program 
conducts civic education programs for grassroots civic organizations. 
Another seeks to create political parties that can develop platforms 
and offer real electoral alternatives. The Independence of the Media 
Program fosters dialogue on freedom of the press through public fora on 
issues confronting journalistic liberties, and also provides 
broadcasting equipment to radio stations.

    Question 2. Of an estimated 1.8 million people living with HIV/AIDS 
in Latin America and the Caribbean, Haiti and the Dominican Republic 
account for 87 percent of the infected population in the Caribbean. 
Approximately 250,000 adults and children in Haiti are living with HIV/
AIDS (about 6.1 percent of the adult population). What types of 
programs will be implemented to address HIV/AIDS with the money 
appropriated by Congress under the H.S. Leadership Against HIV/AIDS, 
Tuberculosis, and Malaria Act of 2003 (P.L. 108-25; H.R. 1298, S. 
1009)? How do we ensure that this money is spent appropriately?

    Answer. Haiti is one of 14 countries targeted by the President's 
$500 million International Mother and Child HIV Prevention (PMTCT) 
Initiative and the President's $15 billion Emergency Plan for AIDS 
Relief. The new Global AIDS Coordinator, when confirmed, will determine 
and oversee future activities under the Emergency Plan. The PMTCT 
initiative will be incorporated into the activities of the President's 
Emergency Plan.
    Current planning for the PMTCT initiative is being conducted by an 
interagency steering committee, led by the White House Office of 
National AIDS Policy, with senior-level representation from USAID, HHS, 
and the Department of State. Under the leadership of the steering 
committee and about 100 days after the fiscal year 2003 appropriation 
was received, all 14 countries received PMTCT funding using a new 
Federal management system that will increase accountability, improve 
coordination, and assure effective use of funds in preventing maternal 
to child transmission of HIV. Activities under the PMTCT initiative 
already have begun and will be officially launched in Port-au-Prince on 
July 21.
    In Haiti, heterosexual contact is the most common means of 
transmission, closely followed by mother-to-child transmission. Barring 
any intervention, 30 percent of babies born to HIV-positive women will 
contract HIV. In response, the Ministry of Health and its partners 
designed and are implementing a three-year prevention of mother-to-
child transmission (PMTCT) pilot project to target 400 HIV-positive 
pregnant women in three sites nationwide. Preliminary results in two of 
the three sites show that this pilot program reduced the vertical 
transmission rate from 30 percent to 9 percent. The PMTCT pilot program 
is part of a larger five-year National Strategic Plan to fight against 
HIV/AIDS in Haiti that calls for the eventual provision of PMTCT 
services to all pregnant women. The strategic plan will be supported 
through activities under the President Bush's PMTCT Initiative and a 
grant from the Global Fund to Fight AIDS, Tuberculosis and Malaria.
    USAID is currently providing support for the installation of a 
nation-wide network of clinical reference centers, providing a full 
range of Voluntary Counseling and Testing (VCT), reproductive health, 
tuberculosis and selected AIDS care, including PMTCT services. Under 
the President's PMTCT Initiative, USAID and HHS will develop and 
provide nationwide access to 27 VCT/PMTCT reference centers supported 
by 21 subregional VCT/PMTCT centers for a total of 48 centers and 
related referral arrangements, which will provide coverage in each of 
Haiti's 10 regional health departments. The planning for the 
President's PMTCT Initiative has specifically taken account of Global 
Fund activities in determining in which regions to invest.
    Current USAID planning for assistance to public and private 
facilities includes support for training, equipment, renovation, 
interim personnel and other related activities. In addition, USAID 
supports community mobilization activities and expanded community-based 
care and support of people living with HIV/AIDS.
    Current HHS support to Haiti is provided through the Global AIDS 
Program. The Program supports HIV/AIDS prevention, care and treatment, 
as well as infrastructure and capacity development. Through the 
Program, HHS and its agencies provide technical assistance to 27 public 
and private health institutions for comprehensive PMTCT services. HHS 
is also providing financial and technical support, as well as 
purchasing commodities, for the implementation of voluntary counseling 
and testing (VCT) in 15 public sector VCT centers. Further, HHS has 
provided financial and technical support to conduct a national HIV 
sentinel surveillance survey, sampling 7,200 pregnant women from 21 
sites nationally.
    Haiti's two-year, $24.4 million Global Fund grant provides support 
for limited expansion of the pilot PMTCT program, with a goal of 
reaching a total of 700 women across Haiti. The two Primary Recipients 
have received their first allotment of funding and have disbursed funds 
to sub-recipients. To coordinate the different funding mechanisms, 
USAID and HHS will continue to participate in monthly donor 
coordination meetings. Haiti's PMTCT steering committee is comprised of 
representatives of the Ministry of Health, bilateral and multilateral 
donor organizations (including USAID and HHS), and non-governmental 
organizations active in the fight against HIV/AIDS in Haiti.

    Question 3. As of now, the United States is largely providing 
foreign assistance through NGOs and not the Haitian government. The 
Bush Administration has stated it will not provide aid to the 
government until President Aristide fulfills his promises of political, 
economic and judicial reforms. How effective is this assistance 
approach? How capable are the NGOs on the ground in providing 
humanitarian assistance and promoting government reform? How do we 
strengthen the governmental institutions necessary for peace and 
stability through this policy?

    Answer. The first and foremost requirement for reform and 
improvement in governmental institutions is political will on the part 
of the government. Experience has shown that absent such will, 
assistance aimed at government reform is unlikely to succeed. We have 
consistently advocated, both directly and through multilateral 
institutions such as the OAS, that the Government of Haiti (GOH) 
implement reforms that would contribute to Haiti's peace and stability. 
A number of these reforms are embodied in OAS Resolution 822, adopted 
by consensus, with the support of the GOH, on September 4, 2002. The 
U.S. has supported the OAS Special Mission to Strengthen Democracy in 
Haiti both politically and financially. Unfortunately, despite help 
from the Special Mission, the GOH has failed to implement most of its 
commitments under Resolution 822.
    Making assistance to governmental institutions contingent on 
evidence of GOH commitment to reforms is one of the best incentives to 
promote needed government actions. An example of this has been the 
positive GOH response to the U.S.'s Trafficking Victims Protection Act 
of 2000, which requires the U.S. to withhold non-humanitarian, non-
trade related assistance from countries that do not do enough to 
prevent trafficking in persons. In response to U.S. embassy warnings, 
the GOH passed a law prohibiting trafficking of minors, organized a 
police unit to enforce the law, and began interagency cooperation to 
help victims of trafficking.
    The U.S. provides predominantly humanitarian aid to improve health 
and nutrition, particularly of the most vulnerable segments of the 
Haitian population. The NGOs in Haiti which administer U.S. assistance 
are carefully chosen for their experience and efficiency in delivering 
assistance.
    Other U.S. assistance programs promote sustainable agriculture, 
microfinance, and training for political parties and independent media. 
By supporting economic growth and democratic governance, these programs 
contribute to Haiti's peace and stability.
    Finally, the USG provides direct assistance to GOH institutions in 
which we have confidence. For example, we provide equipment and 
training to the Haitian Coast Guard, unit of the Haitian National 
Police, which cooperates with U.S. Coast Guard on interdiction of 
migrants and drug traffickers. Building these institutions can provide 
and incentive for reform to other elements of the GOH.

    Question 4. Since Aristide's ``re-election'' on November 26, 2000, 
the U.S. government has pressured him to implement democratic reforms. 
Why have our efforts not worked? How can we pressure Aristide more 
persuasively to take care of his population?

    Answer. President Aristide has demonstrated neither the will nor 
the leadership to resolve the political crisis.
    OAS Resolution 822 offers a clear guide for resolving the political 
impasse through free and fair elections. The Government of Haiti joined 
consensus at the OAS when Resolution 822 was adopted in September 2002. 
In doing so, it committed itself to a series of steps designed to build 
confidence for the participation of all political parties in free and 
fair elections. Resolution 822 provides a roadmap and establishes steps 
that need to be taken--an end to impunity, disarmament, an independent 
and professional police force, and a climate of security conducive to 
the formation of a credible, neutral, and independent Provisional 
Electoral Council as the essential first step toward elections. The 
Haitian government has not taken these steps.
    The Government of Haiti understands fully what it must do under 
Resolution 822. But it will not be able to take the necessary steps 
without strong leadership from President Aristide. The U.S. and the 
international community--most notably the OAS and the Caribbean 
Community--must maintain consistent and strong pressure on the Aristide 
government to meet the commitments it made to the hemisphere in 
Resolution 822. The potential cost of not complying for President 
Aristide and Haiti was stated by Secretary Powell at the OAS General 
Assembly in June--if by September the Government has not created a 
climate of security essential to the formation of a credible, neutral, 
and independent Provisional Electoral Council, we should reevaluate the 
role of the OAS in Haiti.

    Question 5. Can the United States play a greater role in reducing 
governmental corruption [in Haiti]?

    Answer. Fighting corruption and promoting transparency are critical 
to democracy and development and are important goals for the U.S. in 
Haiti, as they are around the world. We work toward these goals in 
several ways.
    For example, we continue to press the Government of Haiti (GOH) to 
take specific steps against corruption, such as dismissing officers of 
the Haitian National Police (HNP) engaged in drug trafficking, 
activating the Justice Ministry's Financial Intelligence Unit (FIU), 
and undertaking independent audits of public utilities and other 
government-owned businesses. U.S. DEA Agents stationed in Haiti have 
used polygraph testing to obtain dismissal of corrupt officers from the 
HNP counternarcotics unit and the U.S. has provided support for the 
FIU.
    We also support the efforts of multilateral institutions to reduce 
corruption in Haiti. For example, the USG supports the engagement of 
the International Monetary Fund, which reached agreement with the GOH 
in May on a Staff Monitored Program that includes conditions for 
increasing transparency and improved controls over government accounts. 
Similarly, we support the Special Mission of the Organization of 
American States (OAS) in Haiti, which operates a program providing 
international police monitors attached to the offices of top police 
officials.
    The USG also makes assistance to governmental institutions 
contingent on evidence of commitment to reform, providing direct 
assistance only to GOH institutions in which we have confidence. For 
example, as noted in response to your previous question, we provide 
equipment and training to the Haitian Coast Guard. In all cases, we 
ensure that the assistance we provide is used for the purposes for 
which it is intended.
    While these efforts have succeeded in limited areas, official 
corruption remains a major problem in Haiti. Greater success in this 
effort requires changing attitudes among Haiti's political leadership, 
or may require change of some leaders themselves. Ultimately, the key 
to reform, transparency, and the fight against corruption in government 
is political will on the part of the Haitian government and its 
leaders. To date, the Aristide Government has failed to demonstrate 
such will, except in isolated cases such as the June 18 expulsion of 
indicted drug trafficker Jacques Ketant.

    Question 6. How can we better support the efforts of the OAS to 
negotiate a settlement between the Fanmi Lavalas party of Jean-Bertrand 
Aristide and the political opposition parties of the Democratic 
Convergence?

    Answer. OAS efforts to mediate a settlement through direct 
negotiations ended in July 2002 when talks between Fanmi Lavalas (FL) 
and Democratic Convergence (CD) collapsed. OAS Resolution 822, adopted 
in September 2002 by unanimous consent of the OAS Permanent Council 
including Haiti, is intended as a framework for resolution of the 
political crisis through free and fair elections.
    We can best assist the process established under OAS Resolution 822 
by continuing to provide political and financial support for the OAS 
Special Mission to Strengthen Democracy in Haiti. At the same time, we 
need to express clearly the view that results will dictate our future 
course of action. At the OAS General Assembly in June, Secretary Powell 
called for a reevaluation of the OAS role in Haiti if the Government 
had not acted by September to create the climate of security essential 
to formation of a credible Provisional Electoral Council, the crucial 
first step toward free and fair elections.
    The OAS Special Mission was formed in January 2002 by agreement 
between the Government of Haiti and the OAS. Its original mandates were 
assistance to the Haitian government in democracy, human rights, 
governance, and security for elections. Resolution 822 expanded the 
role of the Special Mission to include supporting and monitoring the 
efforts of the Haitian government to comply with commitments it made in 
the Resolution. Pursuant to that expanded role, the Special Mission has 
negotiated Terms of Reference for assistance to the government on 
disarmament, electoral security, elections, and creating a professional 
police force.
    The Special Mission, with a staff of only fifteen, has endeavored 
to fulfill its important role with limited financial resources. The 
U.S. has contributed $2.5 million of the approximately $5.3 million 
received to date, with Canada being the other major contributor.

                                   - 

</pre></body></html>
